<html>
<title> - CURRENT NATIONAL PARKS BILLS</title>
<body><pre>[Senate Hearing 110-158]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-158
 
                      CURRENT NATIONAL PARKS BILLS

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

                                     

                           S. 488                                S. 617
 
                           S. 824                                S. 955
 
                           S. 1148                               H.R. 1182
 
                           S. 1380                               S. 1728
 
                           H.R. 995                              H.R. 1100



                                     

                               __________

                             JULY 12, 2007


                       Printed for the use of the
               Committee on Energy and Natural Resources



                     U.S. GOVERNMENT PRINTING OFFICE

38-107 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           BOB CORKER, Tennessee
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                   DANIEL K. AKAKA, Hawaii, Chairman

BYRON L. DORGAN, North Dakota        RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          LISA MURKOWSKI, Alaska
KEN SALAZAR, Colorado                BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JOHN BARRASSO, Wyoming
BLANCHE L. LINCOLN, Arkansas         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             GORDON H. SMITH, Oregon
JON TESTER, Montana                  MEL MARTINEZ, Florida

   Jeff Bingaman and Pete V. Domenici are Ex Officio Members of the 
                              Subcommittee


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator From Hawaii..................     1
Allard, Hon. Wayne, U.S. Senator From Colorado...................     5
Baker-Sullivan, Heather, Executive Director, Hudson-Fulton-
  Champlain Quadricentennial Commission, Katonah, NY.............    46
Burke, Judy M., Mayor, Grand Lake, CO............................    36
Burr, Hon. Richard, U.S. Senator From North Carolina.............     3
Clinton, Hon. Hillary Rodham, U.S. Senator From New York.........    35
Dodd, Hon. Christopher J., U.S. Senator From Connecticut.........    12
Dole, Hon. Elizabeth, U.S. Senator From North Carolina...........     6
Dorgan, Hon. Byron L., U.S. Senator From North Dakota............     2
Durbin, Hon. Richard J., U.S. Senator From Illinois..............    11
Harmon, Dennis, General Manager, Water Supply and Storage 
  Company, Fort Collins, CO......................................    38
Martin, Tom, Chairman of the Board, Looking for Lincoln Heritage 
  Coalition, Springfield, IL.....................................    49
Musgrave, Hon. Marilyn N., U.S. Representative From Colorado.....     7
Perkins Cutler, Charlene, Executive Director, Quinebaug-Shetucket 
  Heritage Corridor, Inc.........................................    57
Salazar, Hon. Ken, U.S. Senator From Colorado....................     7
Sanders, Hon. Bernard, U.S. Senator From Vermont.................     2
Smith, Hon. Gordon H., U.S. Senator From Oregon..................     9
Stevenson, Katherine H., Acting Assistant Director, Business 
  Services, National Park Service, Department of the Interior....    13
Stoline, Dean, Assistant Director, Legislative Commission, The 
  American Legion................................................    43
Thune, Hon. John, U.S. Senator From North Dakota.................    10
Udall, Hon. Mark, U.S. Representative From Colorado..............    29

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    63

                              Appendix II

Additional material submitted for the record.....................    69


                      CURRENT NATIONAL PARKS BILLS

                              ----------                              


                        THURSDAY, JULY 12, 2007

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.

    The subcommittee met, pursuant to notice, at 2:27 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka presiding.

 OPENING STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR FROM 
                             HAWAII

    Senator Akaka. The Committee on Energy and Natural 
Resources, Subcommittee on National Parks, will come to order.
    We have a lengthy agenda this afternoon to consider the 
following bills: S. 488 and a House-passed companion measure, 
H.R. 1100, to expand the boundary of the Carl Sandburg Home 
National Historic Site; S. 617, to make the National Parks and 
Federal Recreational Lands Pass available at a discount to 
veterans; S. 824 and the House-passed companion measure, H.R. 
995, to extend the legislative authorization to the Disabled 
Veterans Memorial; S. 995, to establish the Abraham Lincoln 
National Heritage Area in Illinois; S. 1148, to establish the 
Champlain Quadricentennial Commemorative Commission and the 
Hudson-Fulton 400th Commemorative Commission; S. 1380, to 
designate certain lands as wilderness in Rocky Mountain 
National Park; and S. 1728, to reauthorize the Na Hoa Pili O 
Kaloko-Honokohau Advisory Commission and the Na Hoa Pili O 
Kaloko-Honokohau National Park.
    While some of these bills have national policy 
implications, they are all important locally or they're 
important to specific constituencies, as evidenced by the 
number of Senators who have asked to testify today. Several of 
these bills have been introduced or considered in previous 
Congresses and I will work with the bills' sponsors and the 
Park Service to address any remaining concerns and try to have 
these bills ready for full committee consideration as soon as 
possible.
    Two of the bills on the schedule today relate to veterans 
and are of interest to me as chairman of the Veterans Affairs 
Committee. Senator Smith's bill, S. 617, would give veterans a 
discount in purchasing an annual Federal lands pass. While I 
support the goal of making it easier for the men and women who 
have served our country to use public lands, I have some 
questions about how this would be implemented.
    For example, the bill does not appear to cover those on 
active duty and members of the National Guard or Reserve who 
have also served our country. I would like to better understand 
the revenue implications this bill will have on the National 
Park Service and other Federal land agencies.
    S. 824 and H.R. 995 would extend the legislative authority 
for the Disabled Veterans Memorial. I support this extension, 
which I believe is noncontroversial.
    Finally, I have introduced a bill to reauthorize an 
advisory commission for Kaloko-Honokohau National Historical 
Park. This park was created specifically to help preserve and 
interpret traditional Native Hawaiian activities and culture, 
and the advisory commission has been very important in 
involving local residents to help the Park Service with that 
mandate. My bill simply extends the commission for an 
additional 10 years.
    This hearing marks the first time the subcommittee has met 
since the loss of our ranking member and former chairman and 
our good friend, Senator Craig Thomas. For the many years that 
we have served together on this subcommittee, Senator Thomas 
and I were able to consider and work through these bills in a 
bipartisan manner. He was a strong supporter of our national 
parks and he will be very much missed.
    I understand that a new ranking member of the subcommittee 
has not yet been appointed, but I want to assure my colleagues, 
especially on the minority side, that I certainly intend to 
continue the bipartisan tradition of this committee.
    At this point I would like to recognize Senator Burr for 
any statement he would care to make.
    [The prepared statements of Senators Sanders and Dorgan 
follow:]
 Prepared Statement of Hon. Bernard Sanders, U.S. Senator From Vermont
    S.1148, the Hudson-Fulton-Champlain Quadricentennial Commemoration 
Commission Act of 2007, of which I am proud to be an original sponsor, 
will help us celebrate the 400th Birthday of the discovery of Lake 
Champlain.
    1609 was an historic year and it helped open the frontier to the 
spread of trade and culture. It is only appropriate that we establish 
and support a Champlain Commission. Henry Hudson was the first European 
to sail up the Hudson River, but it was the Frenchman, Samuel de 
Champlain, who was the first European to see what we know as Lake 
Champlain.
    Two hundred years later, Robert Fulton demonstrated steam power in 
his steamboat, traveling from New York to Albany. That was a fitting 
bicentennial celebration of Champlain's discovery, and it is up to us 
to ensure a suitable national observance on the 400th anniversary.
    This effort should be led by New York and Vermont, which have 
established state Commissions and plan year long celebrations. The 
province of Quebec has already established a commission to commemorate 
the 1609 voyage of Champlain. We hope that, as happened one hundred 
years ago, we may welcome the French and British ambassadors and the 
President of the United States to join in the celebrations. It is 
incumbent upon us to coordinate these activities, coordinate the 
contributions of State governments, private parties and other 
contributions like those from our good friends in Canada, to ensure 
that this commemoration is superior. Favorable consideration of S.1148 
is the first step in this voyage.
                                 ______
                                 
     Prepared Statement of Hon. Byron L. Dorgan, U.S. Senator From 
                              North Dakota
    Mr. Chairman and members of the committee, thank you very much for 
the opportunity to testify before you on behalf of S. 824 and H.R. 995, 
bills which will extend the authorization for establishing a memorial 
in the District of Columbia to honor veterans who have become disabled. 
This is a long overdue memorial to honor America's disabled veterans 
which will be constructed just steps from the U.S. Capitol.
    I am pleased to note that the House has already unanimously passed 
H.R. 995 on March 5, 2007 It is now up to the Senate to move S. 824 to 
give the Foundation the extra time they need to finish and build this 
long overdue memorial to honor America's disabled veterans.
    For much of the world, freedom is a luxury, the privilege of a few. 
For Americans, however, our many freedoms are so integrally woven into 
the fabric of our lives that many of us take them for granted. Freedom 
to participate in our own governance, to worship as we please, to 
disagree with those in power, to appear as equals before the law--the 
list of our freedoms is long. Yet the value and the cost of those 
freedoms are often overlooked. Out of twenty-six million American 
veterans living across the world today, approximately three million 
embody the physical cost of their service in permanent disability. For 
their sake, it is precisely this value and cost we seek to honor and 
uphold in the American Veterans Disabled for Life Memorial.
    The Memorial is anticipated to be dedicated in 2010. It will be the 
first national military memorial to honor disabled veterans; the first 
to transcend all service branches, conflicts and generations; and the 
first to be specifically dedicated to living and future servicemen and 
women.
    Public Law 106-348, signed by President Clinton in 2000, authorized 
the building of the Memorial. Founded by philanthropist Lois Pope, 
Arthur Wilson, General Adjutant of Disabled American Veterans, and the 
late Jesse Brown, former Secretary of Veterans' Affairs, the Disabled 
Veterans' Life Memorial Foundation's sole objective is to privately 
raise the funds needed to design, build and permanently maintain the 
Memorial.
    The Memorial will be located at Washington Avenue and Second Street 
SW, adjacent to the National Mall and across from the U.S. Botanic 
Garden. The site was chosen specifically to remind Members of our brave 
veterans who in this, and in every war, have made sacrifices for our 
Nation.
    The Memorial will be designed by Michael Vergason Landscape 
Architects. Their work includes the National Cathedral, the Normandy 
American Cemetery at Omaha Beach, U.S. Supreme Court, Monticello, 
Montpelier, Gannett Corporate Headquarters, Johns Hopkins University, 
and the University of Virginia. The Memorial will be accessible to all 
visitors, especially the handicapped, twenty-four hours a day.
    ``The Memorial will be a place for reflection and inspiration,'' 
said Army Captain Leslie Smith, a disabled veteran who works for the 
Defense Department and has completed four marathons using a hand-cycle. 
``For disabled veterans, this will be an important part of the healing 
process and will represent closure for many of us.''
    The Foundation has raised almost half of the needed funds and are 
well on their way to building this beautiful tribute. The land for the 
site has been transferred under the control of the National Park 
Service in 2006 under Public Law 109-396. The design concept has been 
approved by the National Capital Planning Commission on December 7, 
2006. On November 16, 2006 the U.S. Commission of Fine Arts gave their 
approval.
    It is now time for our approval. I urge the Committee to expedite 
their approval of S. 824 and move it promptly to the full Senate for 
their approval. Let's work quickly to ensure this lasting tribute to 
our nation's disabled veterans moves smoothly forward.

    STATEMENT OF HON. RICHARD BURR, U.S. SENATOR FROM NORTH 
                            CAROLINA

    Senator Burr. Thank you, Mr. Chairman. Thank you for 
holding the hearing, but thank you also for the gracious 
opportunity to continue the relationship that Senator Thomas 
and yourself had. We certainly see that as a very positive 
thing and also share your loss of Senator Thomas to this 
committee.
    We have a full agenda today, so I'll keep my remarks very 
brief. There are several bills under consideration today that I 
believe are particularly relevant. The first, H.R. 995, extends 
the authorization of the Disabled Veterans Memorial. I'm please 
to learn that the organizers have made progress toward raising 
the necessary funds for this project. It's my understanding 
that the work can be completed within the timeframe of this 
extension. The House has already passed the bill and I hope 
this committee will act quickly to send this bill to the full 
Senate floor.
    The second bill, S. 617, will allow veterans to obtain a 
public lands access pass called the Veterans Eagle Pass at a 
reduced price of ten dollars. I realize that the Interior 
Department believes that that's the loss of $70 to them. Mr. 
Chairman, I would suggest that since it's 80 cents to process 
that pass, that this is actually a windfall of $9.20 in new 
revenue, because the likelihood is this will certainly 
encourage veterans to use our national parks areas.
    Military personnel have sacrificed a great deal over the 
history of our Nation and many are risking their lives around 
the world at this very moment. S. 617 is a small but 
significant gesture to show our appreciation to the men and 
women who have served this Nation. It's my hope that this bill 
will be amended to expand eligibility for this pass to active 
duty, guard, and reserve personnel as well as our Nation's 
veterans.
    Lastly, Mr. Chairman, the Carl Sandburg National Historic 
Site legislation, S. 488, and H.R. 1100, is of special interest 
to Senator Dole and myself, and I would like to thank Senator 
Dole for being here today to show her support for this 
legislation. This bill will allow the National Park Service to 
acquire additional lands around a historic site from willing 
sellers and donors. Additional land is needed to provide 
adequate parking space and a visitors' center, as well as 
maintain the integrity of what I believe is the original 
Sandburg family property.
    It's my hope that we can report the bill, the House bill, 
out of the committee as soon as possible and allow the Park 
Service to continue their efforts to protect and enhance a 
national treasure of this country.
    Mr. Chairman, for the purposes of knowledge, of the land 
acquired, 115 acres, only 5 acres would be deemed available for 
construction of a visitors center and the like. So clearly 
there has been a tremendous amount of thought that's gone into 
the aesthetic protection of this historic site.
    I want to thank you, Senator Akaka, for convening the 
subcommittee. I look forward to hearing the testimony from our 
colleagues and our witnesses, and I urge the chair to act as 
quickly on these legislations as we possibly can.
    I would also like to thank the chairman for not making me 
read the title of S. 1728 because I'm not sure I could have 
gotten through it quite the way he did. Thank you, Mr. 
Chairman.
    Senator Akaka. Thank you very much, my friend and 
colleague, Senator Burr.
    We have several Senators and House Members who have asked 
to testify in support of bills today. I know these bills are 
all very important in your respective States and districts and 
we are happy to have you here this afternoon. Because we have a 
very lengthy witness list this afternoon and only a limited 
amount of time available for the hearing, I would like to ask 
everyone to be brief. Each of your complete written statements 
will be included in the record. I know everyone has multiple 
hearing commitments right now, so please feel free to leave 
after you have completed your statement.
    Let me first call on Senator Allard from Colorado.

         STATEMENT OF HON. WAYNE ALLARD, U.S. SENATOR 
                         FROM COLORADO

    Senator Allard. Mr. Chairman, thank you very much. I 
appreciate you calling on me first because I do have another 
committee meeting where I'm actually having votes. So I 
appreciate you giving me an opportunity to go. Also, Senator 
Burr, thank you for your opening comments.
    Mr. Chairman, this is a great opportunity and it's a great 
opportunity for Colorado, for the committee to be considering 
the Rocky Mountain National Park Wilderness Act. Today I'm 
pleased to discuss legislation that will designate the Rocky 
Mountain National Park as a wilderness. It is the sixth busiest 
visited park in the United States. Today this legislation is 
the result of more than a year of negotiations between my 
colleague Senator Salazar and other members of the Colorado 
delegation. It is a carefully crafted bill involving thousands 
of hours of work with citizens, local elected officials, and 
the environmental community.
    This legislation will provide further protection for an 
area that was formed millions of years ago when massive 
glaciers carved an impressive landscape. The Rocky Mountain 
National Park Wilderness Act will ensure that it remains 
unchanged in the years to come.
    As a fifth generation Coloradan and someone who grew up in 
the shadow of Rocky Mountain National Park, it is an honor to 
have worked on this bill with Senator Salazar. Colorado and its 
representatives have long played an important role in the 
development of wilderness in our Nation. This dates back to the 
original Wilderness Act. Congressman Wayne Aspinall, who 
represented Colorado's Fourth Congressional District and 
chaired the Committee on Interior and Insular Affairs, played a 
pivotal role in creating the Nation's wilderness system with 
the 1964 Wilderness Act.
    From the inception of the original Wilderness Act through 
the continued development of wilderness in Colorado, one thing 
has remained the same: the commitment to working together to 
find compromises and solutions that work for everyone. The 
principle of compromise has held true from the Colorado 
National Forest Wilderness Act of 1980 to the Spanish Peaks 
Wilderness Act in 2000, and it is now true with the Rocky 
Mountains National Wilderness Act of 2007.
    This is reflected by the broad support this bill enjoys. 
Every one from water users to the environmental community 
support this bill. I'd like to submit one such letter of 
support signed by numerous environmental groups, including the 
Wilderness Society, as part of my testimony.
    Senator Allard. I am especially proud of the legislation 
that my colleagues and I worked on because it represents the 
balance we strive for in the management of our public lands. It 
will allow for recreation while preserving the natural elements 
of the park, including water, the West's most valuable 
resource. At a time when agricultural wells are being 
threatened just east of the park in Weld and Morgan Counties, 
the protection of water is more important than ever. Protection 
of this water infrastructure is a key component of this 
compromise legislation. If we do not recognize and protect the 
water provided by the Grand Ditch, this bill cannot move 
forward. Protecting this water is vital to preserving the 
agricultural heritage and future of this area.
    I'm extremely pleased that this bill as written will 
protect wilderness and respect water rights. The Rocky Mountain 
National Park Wilderness Act will ensure that Americans now and 
in the future have the ability to enjoy the park.
    Thank you, Mr. Chairman and members of the committee, for 
your consideration of the Rocky Mountain National Park 
Wilderness Act. Thank you.
    Senator Akaka. Thank you very much, Senator, and we 
appreciate your testimony.
    Senator Allard. Thank you, Mr. Chairman.
    Senator Akaka. May I call on Senator Dole.

   STATEMENT OF HON. ELIZABETH DOLE, U.S. SENATOR FROM NORTH 
                            CAROLINA

    Senator Dole. Thank you very much, Mr. Chairman and Senator 
Burr. Thank you for holding this hearing today on S. 488, which 
has a rather long title: The ``Carl Sandburg Home National 
Historic Site Boundary Revision Act of 2007.'' Senator Burr, I 
appreciate your support of this legislation, which I introduced 
earlier this year after hearing from many of the site's 
visitors, consulting with its superintendent, and reviewing the 
site's management plan.
    I welcome the opportunity today to express my strongest 
support for the expansion of this treasured historic site, Mr. 
Chairman. The Carl Sandburg home has enriched the lives of many 
North Carolinians and thousands of other visitors through its 
rich history, natural beauty, and abundant educational 
opportunities. Many citizens, local government officials, and 
Park Service officials have expressed concern that development 
around the site could negatively impact the historic nature of 
the park that was the home of the famed late poet. This bill 
will help ensure that future generations can enjoy this site 
for many years to come.
    As the subcommittee is aware, my bill would add 115 acres 
to the current site for boundary and scenic view protection. 
The village of Flat Rock and Henderson County, where the Carl 
Sandburg home is located, both support the site expansion. To 
illustrate how important this is, a 22-acre parcel of land that 
forms the scenic backdrop was purchased by the State of North 
Carolina's Department of Cultural Resources from the 
Conservation Trust of North Carolina. But in order for the site 
to enter into an agreement with the State of North Carolina for 
the management of the 22-acre parcel, the land must first be 
within the site's authorized boundaries. This bill would allow 
for that to occur.
    Mr. Chairman, as you're well aware, North Carolina is home 
to many national parks, the Appalachian National Scenic Trail, 
the Blue Ridge Parkway, Cape Hatteras National Seashore, Cape 
Lookout National Seashore, and the Great Smoky Mountains 
National Park, to name just a few. As we approach the National 
Park Service's centennial, we should take steps such as this 
that will preserve our national parks and prepare them for the 
next 100 years.
    Mr. Chairman, members of the committee, I encourage you to 
support S. 488, and I thank you again for holding this hearing 
and for the privilege of addressing this issue today.
    Senator Akaka. Thank you very much and we appreciate your 
testimony, Senator Dole.
    Senator Dole. Thank you.
    Senator Akaka. Thank you.
    Let me then call on the Honorable Marilyn Musgrave for your 
statement.

STATEMENT OF HON. MARILYN N. MUSGRAVE, U.S. REPRESENTATIVE FROM 
                            COLORADO

    Ms. Musgrave. Thank you, Mr. Chairman. It's good to be 
before you today to testify in support of S. 1380, and I'd like 
to thank Senator Burr and especially Senator Salazar. In the 
Colorado delegation we worked very hard on legislation that 
would make wilderness designation for Rocky Mountain National 
Park. Most of the park is in my district. It's an area that as 
a native Coloradoan I've enjoyed all of my life, and now with 
our four children and young grandchildren.
    This designation would protect one of the crown jewels of 
America's national park system. It would protect approximately 
260,000 acres of pristine Rocky Mountain landscape as 
wilderness.
    We found as we were going through these negotiations that 
we had a very similar goal in mind, and we brought all the 
parties to the table. The Grand River Ditch goes through the 
Rocky Mountain National Park and this ditch, which supplies 
over 20,000 acre-feet of irrigation water for Larimer and Weld 
Counties, actually preceded the park. It was very important to 
us to protect this very important water supply, irrigation 
water, for these farmers that live in these outlying counties. 
We were able to come together and protect the ditch company 
from future liability unless the ditch company was negligent in 
their care.
    We worked out this compromise protecting the farmers. We 
brought the environmentalists to the table and they're very 
pleased with the legislation also. So we were able to come 
together--Senator Allard, Senator Salazar, Congressman Udall, 
and myself--to work toward our common goal of wilderness 
designation, and I thank you for the opportunity to testify 
before you today and I urge support of S. 1388.
    Thank you, Mr. Chairman.
    Senator Akaka. Thank you very much for your testimony. We 
really appreciate that.
    Now I'd like to call on Senator Salazar for any opening 
statement he may have.

          STATEMENT OF HON. KEN SALAZAR, U.S. SENATOR 
                         FROM COLORADO

    Senator Salazar. Thank you, Chairman Akaka. Thank you 
particularly for your leadership and your vision for national 
parks and for your great work on veterans and on so many other 
issues. It's truly a pleasure to have you as chairman of this 
committee.
    Let me also welcome my colleague from Colorado, 
Representative Musgrave. I know Senator Allard spoke earlier 
and I saw him in the hallway on the way out, and I believe that 
Congressman Mark Udall will also be here later.
    This legislation is truly a coming together of the Colorado 
Congressional delegation on a matter that has been up in the 
air now for over 30 years. It was President Nixon who first 
declared that the Rocky Mountain National Park, with all of its 
splendor as the crown jewel for our Nation, should be 
designated as a wilderness area, and it's taken us now more 
than 30 years to get to the finish line, and I'm very hopeful 
that as we move forward through this hearing and through this 
Congress that we will be able to accomplish that task.
    I also want to thank Judy Burke from the town of Grand Lake 
and Dennis Harmon from the Water Supply and Storage Company in 
Fort Collins, Colorado, for being here. They have traveled long 
distances to testify and I appreciate their efforts, not only 
today but also the efforts of their organizations and 
communities in the past several years in trying to get this 
done.
    Congress established the Rocky Mountain National Park on 
January 26, 1915, on a vision of a man named Enos Mills, one of 
our Nation's most committed naturalists, whose love for the 
wild Rockies began in 1884, when at the age of 14 he scaled 
Long's Peak. He said back in those days, a quote that I used 
when the Colorado Congressional delegation was up at Rocky 
Mountain National Park just a few months ago, he said, and I 
quote: ``In years to come when I am asleep beneath the pines, 
thousands of families will find rest and hope in this park.'' 
He was right then and he is right today.
    Thanks to the excellent work of the Park Service and its 
employees over the past 90 years, the 3.2 million visitors a 
year to Rocky Mountain National Park experience the same wild 
lands and spectacular vistas that our ancestors enjoyed.
    Our job of protecting the wild character of Rocky Mountain 
National Park is not complete. That is why we need to designate 
the nearly 250,000 acres within the world as wilderness.
    Congress has up to this point failed to act on that 
recommendation that President Nixon made a long time ago. Now 
is our chance to act and move forward.
    Today, thanks to the tireless efforts of local communities 
and the dedicated protectors and partners of the park, we come 
before the committee with a broadly supported bill that is 
deserving of passage. Senator bill 1380 and its companion in 
the House, H.R. 2334, add 249,339 acres or nearly 95 percent of 
the Rocky Mountain National Park to the wilderness preservation 
system.
    The bill is almost identical to the bill I introduced last 
year and which received a ringing endorsement from the Park 
Service in a similar hearing before this committee. Senate 1380 
does not affect private landowners, existing development, or 
water rights. The boundaries for the wilderness area exclude 
water projects, roads, and existing development. The bill 
allows for a bicycle trail along the western edge of the park, 
provided that the construction of the trail is consistent with 
the park's mission. It also makes a small increase in the size 
of the nearby Indian Peaks Wilderness Area.
    The only modification to this bill from last year is a 
provision that will clarify how the Grand River Ditch is to be 
operated and maintained in the park. The Grand River Ditch has 
been in existence since 1891, since 1891. That's almost 25 
years before the creation of Rocky Mountain National Park. The 
ditch diverts water from the Colorado River Basin over the 
Continental Divide to farmers along the Front Range. I might 
add, it's not only farmers; it's also municipalities that 
depend on the water rights from that ditch.
    The language we've added would make the liability standard 
under which the ditch operates consistent with the standard 
that applies to other water users under Colorado law. This 
revised standard only applies, however, if the ditch is 
operated in accordance with an updated operations and 
maintenance plan approved by the Park Service. It is a sensible 
provision.
    As one who feels that it is critical that local communities 
participate in and support these efforts, I am proud that this 
bill has the endorsement of the local communities and 
organizations, including Larimer County, Grand Lake, Grand 
County, the Town of Estes Park, Winter Park, the Town of Grand 
Lake, and the League of Women Voters.
    I am proud that our bill is a win-win for economic 
development, for conservation, and that it accumulates the 
needs of a broad range of interests.
    I look forward to hearing today's testimony on this bill 
and I am hopeful that the committee can pass this legislation 
on to the floor of the Senate as soon as possible.
    I also like ought to thank Tom Moore of the Water Supply 
and Storage Company, who is also here. He will not be 
testifying, but I want to thank him for having made the trip 
out here as well.
    Thank you, Mr. Chairman.
    Senator Akaka. Thank you very much, Senator Salazar.
    Now, in a timely fashion let me call on Senator Smith for 
any remarks that you may have.
    Senator Smith.

        STATEMENT OF HON. GORDON H. SMITH, U.S. SENATOR 
                          FROM OREGON

    Senator Smith. Thank you, Senator Akaka. I appreciate you 
holding this hearing today and for including my legislation, 
the Veterans Eagle Park Pass Act. Last November I received a 
letter from a constituent who was also a marine from Corvallis, 
Oregon, the same Corvallis, Oregon, that is home to the two-
time NCA world champion baseball team of Oregon State 
University's Beavers.
    I'd like to read the letter he sent to me: ``Dear Senator 
Smith: I am writing to you today as a veteran and an avid 
sportsman. Ever since I returned from Iraq, I've been trying to 
partake in any outdoor activity that this country has to offer. 
I would like to see a permanent national park and forest pass 
be granted to veterans. This would not cost a lot to the 
taxpayers and would be appreciated greatly by all veterans. I 
am a very appreciative person and I thank God every day that I 
was born here in the USA. I'm thankful that I had the 
opportunity to serve this country and all I want is to be able 
to take advantage of its natural beauty and bounty. Thank you, 
and semper fi, Eric Kronold.''
    I agree with my constituent and looked into whether or not 
Federal land management agencies offer discounted passes to 
veterans. While they do for senior citizens and permanently 
disabled individuals, they do not offer discount passes for 
veterans. I find that to be an oversight in our Federal policy. 
I think it is, to say the least.
    In the last Congress, Congressman Tom Reynolds of New York 
introduced legislation to create the Veterans Eagle Parks Pass. 
My legislation is a companion to his in the 110th Congress. 
Both bills would create a new Federal access pass for the 
honorably discharged veterans at an annual fee of $10. Without 
this legislation, the pass would cost $80 for veterans.
    On so many levels, the discount is the right thing to do 
for veterans who have returned home, whether it be from Baghdad 
this year or from Berlin a generation ago. This bill is one of 
common sense and it is supported by the American Legion, who's 
testifying today, AMVETS, and the VFW.
    I'm frankly surprised that the administration testified in 
opposition to this bill last Congress. The Department of the 
Interior has begun offering free entrance for veterans to 
Federal parks on Veterans Day in November. But at Trader Lake 
in Oregon, no one is charged an entrance fee after October 
because of heavy snow. So the gesture is appreciated, but in 
reality no more than a gesture in many areas of the country.
    The Senate is currently authorizing the military spending 
for Iraq and Afghanistan. My bill here does not answer the 
larger policy questions being asked about our military actions, 
but my bill does coalesce around something we all support, the 
treatment of our troops when they come home.
    If a veteran wants to take his family to one of the crown 
jewels of the Nation, the Nation he helped to protect, the 
least we can do is offer a discount. To that extent, I 
wholeheartedly agree with those, including Senator Craig, who 
have suggested that this bill be expanded to include active 
duty personnel.
    I again thank the chair for holding today's hearing and 
look forward to working toward the passage of this bill.
    Senator Akaka. Thank you very much, Senator Smith.
    Now let me call on Senator Thune for your statement.

  STATEMENT OF HON. JOHN THUNE, U.S. SENATOR FROM NORTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman and distinguished 
members of the subcommittee. I want to express my appreciation 
to you for holding this hearing to consider my bill that 
extends the authorization for establishing a memorial in the 
District of Columbia to honor veterans who become disabled 
while serving in the Armed Forces of the United States. I 
appreciate very much the bipartisan support for this bill from 
Senators Dorgan, Snow, and Johnson, and I want to thank you 
again for the opportunity to briefly testify in support of the 
bill.
    Washington is home to many memorials and monuments honoring 
the people who have made this country great. A memorial 
honoring our disabled veterans would be an appropriate and 
important addition. Recognizing the service and sacrifice of 
our Nation's 3 million disabled veterans is particularly timely 
as soldiers return home with injuries from the battles in Iraq 
and Afghanistan.
    One concern I often hear about establishing this memorial 
is that funding the memorial would take money away from 
veterans' benefits and programs. That's why I want to emphasize 
that the establishment of this memorial will be paid for 
strictly by private donations. No taxpayer funds will be 
expended by the enactment of this bill or in the construction 
of the memorial. Disabled Veterans Life Memorial Foundation is 
doing good work in raising the necessary funds to construct the 
memorial, but more time is needed to complete this important 
work, as the current authorization for the memorial expires in 
October of this year.
    Passage of this bill would allow for more time to complete 
the memorial by extending the authorization to October 24 in 
the year 2015. The original bill authorizing the establishment 
of this memorial passed the Senate by unanimous consent in 
October 2000, and because any legislative authority for a 
commemorative work expires at the end of a 7-year period, in 
this case a few months from now, it is important that we pass 
this bill as expeditiously as possible.
    Establishing this memorial will demonstrate our Nation's 
commitment to those veterans who have been disabled in battle. 
As you know, the House has already passed an identical version 
of this bill by a vote of 390 to nothing. I look forward to 
working with you to advance this bill through the Senate and I 
respectfully urge the subcommittee to quickly approve the bill.
    Again, Mr. Chairman, I thank you for holding this hearing 
and for the opportunity to appear before the committee in 
support of it.
    Senator Akaka. Thank you very much, Senator Thune. I 
certainly would be happy to sit with you and see how quickly we 
can move it.
    Senator Thune. Thank you, Mr. Chairman.
    Senator Akaka. Thank you for your testimony.
    Senator Durbin wanted to be here today, but he has an 
Appropriations Committee markup that is taking place at the 
same time as this hearing. He has submitted a statement in 
support of S. 995, the Abraham Lincoln National Heritage Area, 
which will be included in the record.
    [The prepared statement of Senator Durbin follows:]
    Prepared Statement of Hon. Richard J. Durbin, U.S. Senator From 
                                Illinois
    Mr. Chairman, I want to thank you for holding this hearing today on 
S. 955, a bill to establish the Abraham Lincoln National Heritage Area. 
I would also like to thank Tom Martin, the Chairman of the Looking for 
Lincoln Heritage Coalition, for coming to Washington, DC this afternoon 
to testify on behalf of this bill.
    I am proud to have introduced this bill on behalf of Senator Obama 
and myself. I serve, along with Representative LaHood, as co-chair of 
the Abraham Lincoln Bicentennial Commission, which is tasked with 
planning the 200th anniversary of Abraham Lincoln's birth.
    The purpose of this legislation is to create a National Heritage 
Area in Illinois that formally ties together natural, historic, 
cultural and recreational resources in Illinois that have been touched 
by the life and influence of the Nation's greatest President--Abraham 
Lincoln. Scattered throughout the central Illinois landscape are 
countless places where Lincoln traveled, worked, and lived. The 
creation of this Heritage Area will give all those who visit a deeper 
understanding of the places and experiences that shaped Abraham Lincoln 
into the man and he was and the President he became.
    This legislation was developed through the efforts of the Looking 
for Lincoln Coalition that has been working for over seven years to 
establish a cohesive group of historic, natural and cultural resources 
that tell the Lincoln story for the enrichment and education of current 
and future generations. The coalition has worked diligently with all 
stakeholders, including local citizens, community groups and all levels 
of government to establish the Abraham Lincoln Heritage Area. They have 
formed private public partnerships to aid local communities in 
exploring their connections to Lincoln and restoring their cultural and 
natural sites.
    In 1858, the Lincoln-Douglas debates took place in 7 locations 
across Illinois. Both Lincoln and Douglas were noted for their 
eloquence at these debates, which revolved almost exclusively around 
slavery.
    The Looking for Lincoln Coalition brought together the seven 
communities in which these debates were held and facilitated an 
integrated, yet individual, collection of sites for visitors to 
explore. At the Charleston site, the Lincoln-Douglas Debate Museum 
offers interpretative exhibits about the debates.
    The debates hold an important place in Illinois history, but also 
in our nation's history. The great orators drew visitors from 
neighboring states and received national press coverage.
    Today, the world also benefits from the messages that are spread 
with the legacy of Abraham Lincoln, his passion for and eloquence about 
the ideas of equality, opportunity and freedom. As the people of 
Illinois work to preserve Lincoln's history, we invite the world to 
come to Illinois and learn not just about the history of this great 
man, but also about what he can teach us today.
    The impact of the life and works of Illinois's favorite son extends 
far beyond the prairies of the Midwest. In a sense, the Land of Lincoln 
is anywhere that people dream of freedom and equality and opportunity 
for all.
    By establishing a national heritage area in Illinois, we can share 
our knowledge and interpretation of Lincoln's life and contributions 
with all who visit our state.
    Thank you, Mr. Chairman, for inviting me to testify on behalf of S. 
955.

    Senator Akaka. We also have received a statement from 
Senator Dodd in support of his bill, S. 1182, which will be 
included in the record as well.
    [The prepared statement of Senator Dodd follows:]
     Prepared Statement of Hon. Christopher J. Dodd, U.S. Senator 
                            From Connecticut
    Chairman Akaka and members of the Subcommittee, thank you for the 
opportunity to testify in support of S.1182, the Quinebaug and 
Shetucket Rivers Valley National Heritage Corridor Amendments Act of 
2007. I would like first to acknowledge the absence of Senator Thomas; 
this is the first hearing of the Subcommittee since his passing. Today 
we remember his dedication and service to Wyoming and the country, not 
least in his capacity here on the Subcommittee.
    I am pleased to be the sponsor, along with cosponsors Senators 
Lieberman, Kerry, and Kennedy, of this bill to extend the authorization 
of the Quinebaug and Shetucket Rivers Valley National Heritage Corridor 
(QSHC). The QSHC was first established in 1994 as the fifth National 
Heritage Corridor. It is commonly known as ``The Last Green Valley,'' a 
rare rural landscape in the populous Northeast, and it stands out in 
night images from space for its absence of lights. The corridor 
contains aboriginal and colonial archaeological sites, mills and mill 
villages that preserve the history of the early industrial revolution, 
and traditional farming communities. The QSHC non-profit management 
entity has restored architecturally and historically important 
buildings, established interpretive projects, and developed 
conservation and open space plans.
    As one of the earliest Heritage Areas, the QSHC has been a pioneer. 
In its first four years, it received federal funding of only $800,000. 
Fortunately, the QSHC was able to match those funds with $7.38 million 
from state, local, and private sources. That success is a long-running 
trend and a testament to its deep-seated popularity: For every $1 of 
federally appropriated funds, the QSHC has leveraged an average of $19 
more.
    In 1999, the QSHC expanded to include contiguous towns in 
Massachusetts, and now consists of 35 municipalities dedicated to 
preserving a unique slice of our American heritage. And in developing a 
plan to become a self-sustaining entity by 2015, as laid out in ``The 
Trail to 2015: A Sustainability Plan for the Last Green Valley,'' the 
QSHC is a pioneer again. This plan calls for replacing Federal funds 
with fees for services, private and corporate support, and income from 
a permanent fund. But until sustainability is achieved, federal funds 
are still necessary for capacity-building, awareness programs, and 
ongoing education of land-use decision-makers.
    Mr. Chairman, the QSHC is a unique and precious area, and with an 
extension of its authorization, this Subcommittee has the chance to 
protect its existence for perpetuity. I urge the members of the 
Subcommittee to support this bill: to support the QSHC and the goal of 
a self-sustaining Heritage Area. Thank you for your consideration.

    Senator Akaka. Testifying on behalf of the administration 
this afternoon, may I call on administration witnesses to come 
forward: Kate Stevenson, the Acting Associate Director for 
Business Services for the National Park Service. Kate has 
testified before the subcommittee many times previously and 
we're glad to have her back today.

STATEMENT OF KATHERINE H. STEVENSON, ACTING ASSISTANT DIRECTOR, 
  BUSINESS SERVICES, NATIONAL PARK SERVICE, DEPARTMENT OF THE 
                            INTERIOR

    Ms. Stevenson. Thank you very much.
    Senator Akaka. Will you please proceed with your testimony 
on all of the bills, summarizing as much as possible. We have 
copies of your written statements and they will all be included 
in the hearing record. After you have finished, we will turn to 
a round of questions.
    Ms. Stevenson. Thank you very much, Mr. Chairman. I 
appreciate the opportunity to present the views of the 
Department of the Interior on the eight bills before you.
    Let me start right off with Senate bill 488, the Carl 
Sandburg Home National Historic Site Boundary Adjustment. The 
Department supports this bill and requests to work with the 
committee to make minor changes to make the bill more 
consistent with the general management plan and other recent 
boundary expansion bills.
    Senate 617, the Veterans Eagle Parks Pass. In 2005 the 
Congress passed the Federal Lands Recreation Enhancement Act 
and established the America the Beautiful Pass. Sales of that 
inter-agency pass have just begun in January of this year. As 
part of the discussion leading to FLREA and the previous bills, 
several worthy groups were considered for discounts. Ultimately 
Congress decided to offer a discounted pass to senior citizens 
and to disabled citizens, including veterans.
    In 2006 the Department established a fee-free day for 
veterans and their families on Veterans Day. We propose to 
extend that fee-free day to all active duty military personnel 
and to their families for Veterans Day.
    S. 824, the Disabled Veterans Memorial. The Department 
supports enactment of this bill to extend the time available to 
the Disabled Veterans Life Foundation to establish the 
memorial.
    S. 955, the Abraham Lincoln National Heritage Area. The 
Looking for Lincoln Heritage Coalition submitted to the 
National Park Service a feasibility study to designate this 
heritage area. The study concluded that the region met all of 
the criteria for designation as a national heritage area. 
Nevertheless, we recommend that the committee defer action on 
this and all other heritage area designations until program 
legislation for heritage areas is enacted.
    In addition, we recommend that this and other heritage area 
bills include the requirement that 3 years prior to the 
cessation of Federal funding the Secretary conduct an 
evaluation of the accomplishments, sustainability, and future 
of the heritage areas.
    S. 1148, the Hudson-Fulton-Champlain Quadricentennial 
Commemoration. The Department supports the bill, but has 
concerns about certain appointment provisions and will transmit 
to the committee language to address those concerns.
    S. 1182, the Quinebaug and Shetucket Rivers Valley Heritage 
Area. The Department believes it is premature to consider this 
bill as the heritage corridor has 2 years remaining on its 
authorization. Also, the Department would like the time to 
review and make recommendations on the evaluation by the 
corridor that details its accomplishments and presents a plan 
for the future.
    S. 1380, the Rocky Mountain National Park Wilderness and 
Indian Peaks Wilderness Expansion Act. The Department cannot 
support the bill unless it is amended to address our concerns 
related to the Grand River Ditch. The provisions of the bill 
related to the Grand Ditch go beyond ensuring that the ditch 
operations are not affected by the designation of wilderness 
and grant the owners of the ditch significant privileges, 
exemptions from existing law, release from their own prior 
agreements with the United States, which were reaffirmed as 
recently as 2000, and authorize a potential windfall profit by 
allowing a change in the use of the water.
    The Department would like to continue to work with the 
committee and the Water Supply and Storage Company to reach a 
solution.
    Finally, S. 1728, to reauthorize the Na Hoa Pili O Kaloko-
Honokohau Advisory Commission. The Department supports 
enactment.
    Mr. Chairman, this concludes my testimony. I'd be pleased 
to answer any questions you may have.
    [The prepared statements of Ms. Stevenson follow:]
    Prepared Statement of Katherine H. Stevenson, Acting Assistant 
 Director, Business Services, National Park Service, Department of the 
                                Interior
                                s. 1182
    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
1182, a bill to amend the Quinebaug and Shetucket Rivers Valley 
National Heritage Corridor Act of 1994. S. 1182 would increase the 
ceiling on appropriations to the heritage area from $10,000,000 to 
$15,000,000 and extend the termination date of the Secretary of the 
Interior's financial commitment from September 30, 2009 to September 
30, 2015.
    The Department believes it is premature to consider S. 1182 based 
on the fact that the Quinebaug and Shetucket Rivers Valley National 
Heritage Corridor has two years remaining on its authorization and the 
Department also would like time to review and make recommendations on 
the evaluation recently completed by the Corridor that details its 
accomplishments and provides a plan for its future. Therefore, the 
Department opposes S. 1182 at this time.
    Less than a year ago, there were 27 heritage areas. Today, there 
are 37. Our understanding is that national heritage areas are locally 
driven grassroots efforts to preserve resources that were intended to 
operate independent of Federal funding at the end of the authorization 
period. While the National Park Service would continue to support the 
heritage areas through technical assistance, the heritage areas were to 
be largely self-sufficient after an initial period of financial 
assistance from NPS. This was the understanding, particularly for those 
heritage areas created or reauthorized since 1996.
    The Quinebaug and Shetucket Rivers Valley National Heritage 
Corridor, also known as The Last Green Valley, was authorized in 1994 
and comprised 25 communities in northeastern Connecticut. It began 
receiving federal funding in 1996 with appropriations through 2007 
totaling $6,303,750. It became the first national heritage area to be 
managed by a non-profit organization, the Quinebaug-Shetucket Heritage 
Corridor, Inc. Its first plan, Vision to Reality: A Management Plan, 
was completed in 1997.
    In 1999, the Quinebaug and Shetucket Rivers Valley National 
Heritage Corridor (QSHC) was expanded to include 10 additional 
communities in its watershed in Connecticut and Massachusetts, making 
it the second bi-state national heritage area in the country. At the 
same time, its original seven-year authorization was extended through 
2009 and a new ceiling of $10,000,000 was authorized with an annual 
amount not to exceed $1,000,000, in keeping with other similar national 
heritage areas. At that time, Vision 2010: A Plan for the Next Ten 
Years was completed, along with the Interpretive Initiative for the 
Quinebaug and Shetucket Rivers Valley National Heritage Corridor. With 
the additional federal investment and larger regional focus, many 
successful programs were initiated.
    The National Park System Advisory Board in its report entitled 
Charting a Future for National Heritage Areas recognized the important 
role of national heritage areas in expanding conservation stewardship 
and in identifying and preserving significant historic resources. The 
report also recognized that national heritage areas need a legislative 
foundation that establishes a clear process for designation, 
administration, and evaluation to become self-sufficient.
    The Administration's proposal for national heritage area program 
legislation, which was transmitted to Congress in July 2006, would 
provide such a framework. Bills were introduced in the 109th Congress 
(S. 243, H.R. 760 and H.R. 6287) that incorporated the majority of the 
provisions of the Administration's proposal, and S. 243 passed the 
Senate. During the 110th Congress, a similar heritage area program 
bill, S. 278, has been introduced.
    The proposed legislative framework recommended that, three years 
prior to the cessation of Federal funding, the Secretary conduct an 
evaluation and prepare a report on the accomplishments, sustainability, 
and recommendations, if any, for the future of a designated national 
heritage area. This evaluation would examine the accomplishments of the 
heritage area in meeting the goals of the management plan; analyze the 
leveraging and impact of investments to the heritage area; identify the 
critical components of the management structure and sustainability of 
the heritage area; and recommend what future role, if any, the NPS 
should have with respect to the heritage area.
    Under its existing authorization, the QSHC will continue to receive 
annual federal funding for two more years. During last year's hearing 
on another reauthorization bill for the area, the Department 
recommended that the area begin to evaluate how it will sustain its 
efforts to protect resources when federal funding ends in 2009. To this 
end, the QSHC has recently completed an evaluation on the heritage area 
that included extensive public input during the process, but the NPS 
has not had a chance to officially review the study.
    The nearly 1,100-square miles of The Last Green Valley provide a 
challenge to cohesive and engaging regional interpretation of natural 
and historical resources. Over the past several years, QSHC has 
developed a number of interpretive strategies to educate residents and 
visitors alike, while providing an entertaining base from which to 
generate tourism. For example, Last Green Valley Ventures is a program 
that (1) circulates people and information throughout the region; (2) 
provides adequate visitor services, orientation to The Last Green 
Valley and interpretation of the many regional themes; (3) assures 
quality, consistency and hospitality; and (4) collects important 
statistical data to inform future marketing and programming. The 
program combines current assets of The Last Green Valley, the 
compendium of existing research and support brochures, the 
complimenting businesses offering unique experiences, and partners from 
public and private sectors into one cohesive product.
    Last Green Valley Ventures also dovetails with an on-line 
educational resources guide, Valley Quest, used by regional educators, 
parents and youth group leaders to educate and inspire the future 
stewards of the QSHC.
    Mr. Chairman, thank you for the opportunity to comment. This 
concludes my prepared remarks and I will be happy to answer any 
questions you or other committee members might have.
                         s. 488 and h. r. 1100
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear before you today to present the views of the 
Department of the Interior on s. 488 & H.R. 1100, bills that would 
expand the boundary of the Carl Sandburg Home National Historic Site 
(site) in the State of North Carolina.
    S. 488 and H.R. 1100 would authorize the acquisition, from willing 
sellers, of interests in 115 acres of land for addition to the Carl 
Sandburg Home National Historic Site. The bills would also authorize 
the use of up to 5 of these 115 acres for a visitor center and parking 
facilities.
    The Department supports both of these bills, but would like to work 
with the committee to amend S. 488 to make it identical to H.R. 1100. 
At a hearing on April 17, 2007 in the House of Representatives, the 
Department testified in support of H.R. 1100, and then worked with the 
House subcommittee to make minor changes to make the bill more 
consistent with the site's 2003 General Management Plan and other 
recent boundary expansion bills. An amended version of H.R. 1100, 
containing the changes the department had suggested, passed the House 
of Representatives on May 23, 2007.
    These bills would authorize acquiring lands or easements for the 
park that are estimated to cost between $300,000 and $2.25 million. 
Management of these new lands is estimated to cost less than $10,000 
annually. These acquired lands could be used for a visitor center, 
estimated to cost about $3 million, but that project, as well as the 
costs for land acquisition, would be subject to the budget 
prioritization process of the NPS. Annual operation of a visitor center 
is expected to cost $345,000. The costs of operating a shuttle are not 
known at this time. No funding has yet been identified for any of these 
costs.
    Carl Sandburg Home National Historic Site currently includes 264 
acres of Connemura Farm, an estate purchased by Sandburg in 1945 near 
the pre-Civil War resort town of Flat Rock, North Carolina. Following 
Sandburg's death in 1967, his wife deeded the estate to the Federal 
government. The National Historic Site was authorized one year later, 
in 1968.
    Sandburg, though perhaps best known for his poetry celebrating the 
lives of common American people, was also a Pulitzer prize-winning 
biographer of Abraham Lincoln, a children's author, and a collector of 
folk music. Fellow author H.L. Mencken declared that Sandburg was 
``indubitably an American in every pulse-beat.''
    Acquisition of 110 of the 115 acres proposed in S. 488 and H.R. 
1100 would protect the view that Carl Sandburg and his neighbors 
enjoyed from Big Glassy Mountain. Big Glassy overlook is the highest 
point at the Carl Sandburg Home National Historic Site and a popular 
stop for visitors. Sandburg and his family often visited this granite 
outcrop to enjoy its stunning views of surrounding mountains and 
valleys. The majority of the overlook is within the authorized park 
boundary. However, the overlook precipice as well as the view below it, 
lies on private property outside the authorized boundary. Purchasing 
conservation easements or fee simple property rights from willing 
sellers would protect the overlook and views from the mountain in 
perpetuity.
    The National Park Service contacted each landowner that holds an 
interest in the 110 acres proposed for acquisition during the planning 
process for the site's 2003 General Management Plan. The State of North 
Carolina purchased 22 acres within the proposed expansion to protect it 
until the National Park Service can acquire it. All of the other owners 
agreed to have their parcels included in the map and proposal to expand 
the park.
    The acquisition of 5 acres for a visitor center and parking lot 
would help to solve traffic and safety problems along Little River 
Road, the thoroughfare that forms the site's northern boundary and 
provides excellent views of the site's pastures, barns, and Side Lake. 
When the site's existing parking area is full, vehicles enter and exit 
from Little River Road, searching for an open space. Some visitors park 
on the shoulder of Little River Road and walk to the site. The presence 
of park vehicles, pedestrians, and speeding traffic on Little River 
Road is a hazard to all. The local community has expressed concern 
about this issue, but there is no additional parking available in the 
community.
    To solve these problems, the site's 2003 General Management Plan 
proposes acquiring up to 5 acres to build a visitor center and parking 
facility. In order to protect the historic character of the site, the 
National Park Service would like this facility to be located outside 
both the existing boundary and the 110 acres that are proposed to 
protect the overlook and views from Big Glassy Mountain. A more 
appropriate location would be near, but not necessarily contiguous with 
the park's boundary, perhaps fronting Little River Road or Highway 225. 
The Village of Flat Rock, North Carolina supports the proposal for a 
visitor center and parking facility.
    H.R. 1100 has been amended to allow the National Park Service to 
acquire 5 acres ``adjacent to or in the general vicinity of'' the 
site's boundary. S. 488 requires that all lands required be 
``contiguous to'' the park's boundary. We would like to work with the 
committee to amend S. 488 to make it consistent with H.R. 1100 and the 
park's 2003 General Management Plan.
    S. 488 applies boundary expansion criteria from the 1978 National 
Parks and Recreation Act. In the 29 years since that Act was signed 
into law, Congressional committees and the National Park Service have 
developed and refined these criteria. These refined criteria are used 
in the version of H.R. 1100 that is being considered by the 
subcommittee. We would like to work with the subcommittee to amend S. 
488 to make it identical to H.R. 1100.
    Mr. Chairman, this concludes my prepared testimony. I would be 
pleased to answer any questions you or any members of the subcommittee 
might have.
                          s. 824 and h.r. 995
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 824 and H.R. 995, bills to amend Public Law 106-
348 to extend the authorization for establishing a memorial in the 
District of Columbia or its environs to honor veterans who became 
disabled while serving in the Armed Forces of the United States. The 
Department supports enactment of this legislation.
    S. 824 and H.R. 995 would authorize an additional eight years for 
the Disabled Veterans' LIFE Memorial Foundation (Foundation) to 
establish the American Veterans Disabled for Life Memorial in the 
District of Columbia. This memorial was authorized on October 24, 2000 
and the extension would extend the authority to October 24, 2015. The 
authority to establish the memorial will expire on October 24, 2007 if 
the Foundation has not secured a permit to begin construction from the 
National Park Service (NPS) before that date.
    The Foundation has proceeded in a professional and responsible 
manner in all aspects of the memorial process. The site was approved in 
2001, the design concept was approved in 2004, and the Foundation 
continues to seek the direction and advice of the NPS, the National 
Capital Planning Commission and the Commission of Fine Arts in 
developing the design of the memorial. We look forward to productive 
meetings with both commissions as the design nears completion.
    The Foundation proposes to build the memorial on two acres across 
Washington Avenue from the U.S. Botanic Gardens and just east of the 
Department of Health and Human Services headquarters building. The 
triangular-shaped site is bounded by Second Street to the west, 
Washington Avenue to the east, and the I-395 tunnel portals on the 
south. The property was managed by the District of Columbia until 
December 15, 2006. The site was then transferred to the National Park 
Service under the terms of the Federal and District of Columbia 
Government Real Property Act of 2006.
    In 2004, the Foundation proceeded to the point of developing its 
approved design concept but could move no further until the management 
of the property was determined. Valuable planning time for the memorial 
was lost while this legislation was under consideration in the 109th 
Congress. Given the legislative delay as well as the unique aspects of 
this site and the need to revise traffic patterns in order to achieve 
both a site worthy of this memorial and the proper urban design in the 
context of both the U.S. Capitol and the U.S. Botanic Gardens, we feel 
it is fair to allow the Foundation additional time beyond the four 
months that now remain available to the Foundation to continue 
fundraising and complete the design development. We have every 
expectation that groundbreaking for the memorial will occur within the 
time period this proposed extension will allow.
    There are four instances where similar extensions of time have been 
granted for the completion of truly superior memorials that the 
Department manages. They are the memorials to Women in Military Service 
for America, George Mason, World War II, and Victims of Communism. 
Extensions also have been granted for the Martin Luther King, Jr. 
Memorial, and we are currently working with the Martin Luther King, 
Jr., Memorial Foundation in the development of the design in 
consultation with the National Capital Planning Commission and the 
Commission of Fine Arts.
    The Department has enjoyed an excellent working relationship with 
the Disabled Veterans LIFE Memorial Foundation and we are confident 
that this extension is an appropriate action and worthy of your 
consideration.
    Mr. Chairman, thank you for the opportunity to comment. This 
concludes my prepared remarks and I will be happy to answer any 
questions you or other committee members might have.
                                s. 1728
    Mr. Chairman, thank you for the opportunity to appear before you 
today to present the Department of the Interior's views on S. 1728, a 
bill to amend the National Parks and Recreation Act of 1978 to 
reauthorize the Na Hoa Pili o Kaloko-Honokohau Advisory Commission.
    The Department supports enactment of S. 1728. This legislation, 
which would reestablish the advisory commission for Kaloko-Honokohau 
National Historical Park for ten years, would enable the National Park 
Service to benefit from the advice and counsel of Hawaiian residents 
who have expertise in Native Hawaiian language, history, and cultural 
arts during a period when the park will be engaged in projects critical 
to the interpretation of traditional Native Hawaiian activities and 
culture.
    ``Na Hoa Pili o Kaloko-Honokohau,'' which means ``Friends of 
Kaloko-Honokhau,'' is the name of the advisory commission that was 
authorized for ten years as part of the original 1978 authorization for 
the park (Public Law 95-625), and that was reestablished for ten years, 
after a lapse, in 1996 (Public Law 104-333). S. 1728 would authorize 
the reestablishment of the commission effective upon the date of 
enactment, to last until December 31, 2017. The composition, purpose, 
and responsibilities of the commission would remain as provided for 
under existing law.
    From the beginning, the law has provided for the commission to 
advise the National Park Service with respect to the historical, 
archeological, cultural, and interpretive programs of the park, 
affording particular emphasis to the quality of traditional Native 
Hawaiian culture demonstrated in the park. It was helpful to have the 
commission's sound, pragmatic, and critical advice on these matters 
during the initial stages of establishing the park. It will be equally 
helpful to receive such advice over the next decade, particularly on 
two major projects--design and construction of traditional structures 
that will serve as a cultural center, and completion of the restoration 
of the historic Kaloko fishpond.
    The advisory commission would provide advice in the planning and 
design of the thatched structures made of local natural materials that 
will house traditional Native Hawaiian cultural activities. Once the 
structures are built, the commission would provide guidance in the 
interpretation of cultural activities, make recommendations on the 
preservation, interpretation, and perpetuation of traditional Native 
Hawaiian culture, and facilitate the participation of Native Hawaiians, 
especially the kupuna, or elders, in activities.
    The commission would also continue to provide advice concerning the 
reconstruction and interpretation of the centuries-old fishpond, an 
enclosure contained by 30-foot-wide stone seawalls, where restorers are 
practicing the native traditional masonry work under the guidance of 
some of the finest masons in Hawaii. This impressive reconstruction 
represents both the general cultural significance of fishponds and the 
uniqueness of engineering and management skills of Native Hawaiians. 
The commission would help ensure that the significance of the fishpond 
to Native Hawaiian culture and history is fully and accurately 
interpreted.
    The advisory commission has been instrumental in facilitating the 
collaborative partnership that the National Park Service has developed 
with the Native Hawaiian community. With enactment of S. 1728, we will 
look forward to another decade of assistance from the commission in 
fulfilling the mandate of the enabling legislation for the park--the 
preservation, interpretation, and perpetuation of traditional Native 
Hawaiian activities and culture, the demonstration of historic land use 
patterns, and the provision of education, enjoyment, and appreciation 
of such traditional Native Hawaiian activities and culture by local 
residents and visitors.
    Mr. Chairman, that concludes my statement. I would be pleased to 
answer any questions you or other members of the subcommittee may have.
                                 s. 617
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 617, the Veterans Eagle Parks 
Pass Act. The legislation would require the Secretaries of the Interior 
and Agriculture to make the National Parks and Federal Recreational 
Lands Pass available at a cost of $10 to any veteran separated from 
military service under conditions other than dishonorable.
    In the 108th Congress, Congress enacted the Federal Lands 
Recreation Enhancement Act (Public Law 108-447) (REA), a major overhaul 
of the fee system that governs the National Park System, the National 
Wildlife Refuge System, the National Forest System, certain public 
lands administered by the Bureau of Land Management, and recreational 
lands administered by the Bureau of Reclamation.
    Our federal lands provide Americans and visitors from around the 
world special places for recreation, education, reflection, and solace. 
Public lands and waters managed by the Department of the Interior 
hosted over 470 million recreation visits. Ensuring that the federal 
lands continue to play this important role in American life and culture 
requires that we maintain visitor facilities and services and enhance 
visitor opportunities. Such efforts require a source of funding with 
which we can quickly respond to increases in visitor demand. Recreation 
fee revenues are a critical source of such supplemental funding that 
significantly enhance our efforts to address the deferred maintenance 
backlog at our National Parks, better manage other federal lands, and 
respond quickly to changes in visitation levels and service 
requirements.
    REA established a new multi-agency America the Beautiful-National 
Parks and Federal Recreational Lands Pass (the new pass) to cover 
entrance fees for NPS and FWS and standard amenity recreation fees for 
BLM, Forest Service, and BOR, generally for a period of 12 months. 
Sales of the new passes began in January 2007 after an extensive 
interagency planning process. The new passes are more convenient to 
purchase, are more durable, and are designed with a collectible image 
of public lands. All new passes are now available to the public at 
thousands of interagency field sites. Annual passes, brochures, 
hangtags and decals also are available via the internet, by calling a 
toll free phone number and through select third-party vendors. Revenue 
from the sale of the new passes is used to improve visitor services and 
protect resources.
    As the Congress considered establishing the new pass, discussion 
occurred about which groups of people might be eligible for discounted 
passes. At one time, legislation was introduced to provide free passes 
to all September 11, 2001 responders and their families. Other groups 
have also been suggested as potential groups to be considered for 
discounts. However, at that time, a decision was made ultimately by 
Congress to offer a discounted pass to senior citizens and a free 
lifetime pass to U.S. citizens or persons who permanently reside in the 
United States and who have a medical determination and documentation of 
blindness or permanent disability, including disabled veterans. We 
agree with this approach.
    Veterans have made tremendous contributions to this country, and we 
honor their service. Many National Park System units, including all of 
the memorials within the District of Columbia and the USS Arizona 
Memorial in Hawaii do not charge fees as required by law. Many other 
parks and National Wildlife Refuges, as well as most BLM and U.S. 
Forest Service locations do not charge fees.
    In 2006, in lieu of establishing a discount pass for Veterans, the 
Department of the Interior established an entrance fee-free day for all 
veterans and their accompanying family members on Veterans Day each 
year. We would like to extend the entrance fee-free day to all active 
duty military personnel and their family members, effective November 
11, 2007, and on each subsequent Veterans Day as an additional way to 
recognize them and thank them for their service. We understand the 
Secretary of Agriculture supports adopting this same policy with regard 
to standard amenity recreation fee sites managed by the U.S. Forest 
Service. We believe this is an appropriate way to honor all those who 
have served and are currently providing military service to our country 
without creating a precedent for carving out exceptions to the Federal 
Lands Recreation Enhancement Act, which was carefully developed to 
provide a comprehensive approach to fee management.
    Mr. Chairman, this concludes my statement. I would be pleased to 
answer any questions you or other members of the Subcommittee may have.
                                 s. 955
    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
955, a bill to establish the Abraham Lincoln National Heritage Area in 
the State of Illinois.
    In 1998, the Looking for Lincoln Heritage Project, a grassroots 
organization in central Illinois, coordinated a community effort to 
promote tourism, using the various aspects of Abraham Lincoln's life. 
It initially focused on single projects and strategic planning with a 
variety of public and private resources to help local communities 
research their connections to Lincoln and his times. However, as they 
moved forward, the scope of the project broadened to identify and 
promote the various natural, social, and cultural landscapes that made 
up Lincoln's life. As a result, work toward developing a National 
Heritage Area (NHA) began with the idea that the National Park 
Service's Lincoln Home National Historic Site and the future Abraham 
Lincoln Presidential Library and Museum would serve as the central 
core.
    The Looking for Lincoln Heritage Coalition submitted a feasibility 
study to designate the Abraham Lincoln National Heritage Area to the 
National Park Service for review. The study concluded that the region 
met all of the criteria for designation as a NHA. Nevertheless, we 
recommend that the committee defer action on S. 955 and all other 
proposed heritage area designations until program legislation is 
enacted that establishes guidelines and a process for the designation 
of NHAs.
    Last year, the Administration sent to Congress a legislative 
proposal to establish guidelines and a process for designation. Bills 
were introduced in the 109th Congress (S. 243, H.R. 760 and H.R. 6287) 
that incorporated the majority of the provisions of the 
Administration's proposal, and S. 243 passed the Senate. During the 
110th Congress, a similar heritage area program bill, S. 278, has been 
introduced, and we look forward to continuing to work with Congress on 
this very important issue.
    With 37 national heritage areas designated across 27 states, and 
more heritage area legislative proposals in the pipeline, the 
Administration believes it is critical at this juncture for Congress to 
enact NHA program legislation. This legislation would provide a much-
needed framework for evaluating proposed NHAs, offering guidelines for 
successful planning and management, clarifying the roles and 
responsibilities of all parties, and standardizing timeframes and 
funding for designated areas. Program legislation also would clarify 
the expectation that heritage areas work toward self-sufficiency by 
outlining the necessary steps, including appropriate planning, to 
achieve that shared goal.
    S. 955 establishes the Abraham Lincoln National Heritage Area in a 
core area defined by 42 counties in central Illinois. We expect that 
the final boundary may be a more manageable size. The area includes 
rich opportunities where visitors may experience the physical 
environment of rivers, woodlands, and prairies familiar to Abraham 
Lincoln and his generation. There are many cultural and historic sites, 
including the Lincoln Tomb State Historic Site, the Lincoln Home 
National Historic Site, the Lincoln Douglas Debate Museum, the Abraham 
Lincoln Presidential Library & Museum, and a broad diversity of 
folklife throughout the ``Land of Lincoln.''
    S. 955 designates the Looking for Lincoln Heritage Coalition as the 
management entity and outlines its duties. The bill also authorizes the 
development of a management plan within three years of enactment and 
authorizes the use of federal funds to develop and implement that plan. 
If the plan is not submitted within three years of enactment of this 
Act, the NHA becomes ineligible for federal funding until a plan is 
submitted to the Secretary. Additionally, the Secretary may, at the 
request of the management entity, provide technical assistance and 
enter into cooperative agreements with other public and private 
entities.
    S. 955 also contains safeguards to protect private property, 
including a prohibition on the use of federal funds to acquire real 
property. The bill proposes no new restrictions with regard to public 
use and access to private property.
    Abraham Lincoln was an itinerate lawyer who traveled extensively 
through a large region in central Illinois. Hours spent riding through 
the area, mostly by horseback, bonded the man and the landscape 
together. The region tells the comprehensive story of this important 
man, lawyer, husband, father, and our nation's 16th President. It is 
here that Abraham Lincoln pondered this nation, formed his convictions, 
and even created his debate platform for the now famous Lincoln-Douglas 
debates still resounding across this region through continued dialog of 
the same themes.
    Abraham Lincoln and his wife, Mary Todd, owned only one home in the 
heart of Illinois, and it is here that he returned for his permanent 
rest. The home itself and the neighborhood describe an emotional 
Abraham Lincoln, who opened his farewell remarks to the citizens of 
Springfield, Illinois on February 11, 1861 with these words: ``My 
friends--No one, not in my situation, can appreciate my feeling of 
sadness at this parting. To this place, and the kindness of these 
people, I owe everything.'' He might very well have been speaking to 
friends and neighbors he had met with and represented as their lawyer 
throughout the 24 years he had ridden throughout the region. Lincoln 
left the home he and his family had lived in for 17 years to serve as 
president of a nation on the verge of a civil war.
    While the proposed Abraham Lincoln National Heritage Area contains 
significant natural, historical, and cultural resources, we would again 
request that the committee defer action until national heritage area 
program legislation is enacted.
    If the Committee chooses to move forward with this bill, the 
Department would recommend that the bill be amended to include an 
additional requirement for an evaluation to be conducted by the 
Secretary, three years prior to the cessation of federal funding under 
this act. The evaluation would examine the accomplishments of the 
heritage area in meeting the goals of the management plan; analyze the 
leveraging and impact of investments to the heritage area; identify the 
critical components of the management structure and sustainability of 
the heritage area; and recommend what future role, if any, the National 
Park Service should have with respect to the heritage area.
    Mr. Chairman, this concludes my prepared remarks. I would be 
pleased to answer any questions you or other members of the 
Subcommittee may have.
                                s. 1148
    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 1148, a bill to provide for the 
establishment of the Champlain Quadricentennial Commemoration 
Commission and the Hudson-Fulton 400th Commemoration Commission.
    The Department supports this bill. The Department of Justice has 
advised us that it has constitutional concerns about certain 
appointment provisions in sections 102(b) and 202(b) of the bill and 
will transmit amendments at a later date to resolve these concerns.
    S. 1148 provides for the establishment of two separate commissions 
to undertake activities celebrating the contributions of Samuel de 
Champlain, and those of Henry Hudson and Robert Fulton to the history 
of our nation. The French explorer, Samuel de Champlain, was the first 
European to discover and explore what is now called Lake Champlain in 
1609. Henry Hudson, as the master of the vessel Half Moon, was the 
first European to sail up the river that now bears his name, also in 
1609. In 1807, Robert Fulton navigated up the same river between New 
York City and Albany in the steamboat Claremont, revolutionizing the 
method of waterborne transportation and influencing forever commerce, 
the world's navies, and transoceanic travel and trade.
    Title I would establish the Champlain Quadricentennial 
Commemoration Commission, composed of 11 members, who would be 
appointed by the Secretary of the Interior. Four of the members would 
be from among individuals serving on the Hudson-Fulton-Champlain 
Commission of the State of New York and residents of the Champlain 
Valley, and four members would be from among individuals serving on the 
Champlain Quadricentennial Commission of the State of Vermont and 
residents of Vermont.
    Title II would establish the Hudson-Fulton 400th Commemoration 
Commission, composed of 16 members, would be appointed by the 
Secretary, six of whom would be after consideration of nominations from 
members of the House of Representatives whose districts encompass the 
Hudson River Valley, two after consideration of nominations submitted 
by members of the U.S. Senate from the State of New York, and two after 
consideration of the recommendations of the Mayor of the City of New 
York and consultation with members of the House of Representatives 
whose districts encompass the City of New York.
    The duties of the respective Commissions are to plan, develop, and 
execute appropriate commemorative actions, coordinate with federal and 
state entities, promote scholarly research, and encourage a wide range 
of organizations to participate in activities and expand understanding 
and appreciation of the significance of the voyages of these three men. 
They are granted broad powers to accomplish these tasks. Both are also 
to coordinate their respective efforts with each other to ensure that 
the commemorations conducted pursuant to the legislation are consistent 
with the plans of the commemorative commissions established by the 
States of New York and Vermont.
    The bill provides annual funding authorizations of $500,000 for 
each commission to be available until expended. Specific allocations of 
funds to be expended by the commissions are also included. The 
Champlain Commission's authorized appropriations between fiscal years 
2008 and 2011 shall be expended with 45% going to activities in New 
York; 45% for activities in Vermont; and 10% for other activities in 
accordance with purposes of the legislation. The Commission will 
terminate on December 31, 2010. The Hudson-Fulton Commission's 
authorized appropriations, also between fiscal year 2008 and 2011, 
shall be expended with 80% for activities in the Hudson River Valley; 
10% for activities in the City of New York; and 10% for other 
activities in accordance with the purposes of the legislation. This 
Commission will also terminate on December 31, 2010.
    Both commissions are authorized to solicit, accept, use, and 
dispose of gifts, bequests, or devises of real money or other real or 
personal property for use in aiding or facilitating their work. Both 
are also authorized to appoint advisory committees as they determine 
necessary for carrying out the purposes of the legislation.
    Back in the 108th Congress, the Department testified on a similar 
bill to establish the Hudson-Fulton-Champlain Commission. During that 
hearing, the Department raised three concerns we had with the bill. 
First, we were concerned about size of the commission that numbered 31 
members. Second, we recommended that the bill clearly state that the 
commission was authorized to accept monetary donations to accomplish 
its purposes. And third, we recommended that the authorization of 
appropriations to the commission be capped. S. 1148 integrates all 
three of our recommended amendments.
    The persons and events associated with the explorations of Lake 
Champlain and the Hudson River, and the inauguration of steam powered 
water-borne transportation form significant elements in our nation's 
history. As we commemorate the contributions of Samuel de Champlain, 
Henry Hudson and Robert Fulton, citizens of the United States and those 
abroad will come to have a better understanding of their impacts on 
early exploration, navigation, our national heritage, and the 
development of the United States.
    Mr. Chairman, this concludes my testimony. I would be pleased to 
answer any questions you or other members of the committee may have.
                                s. 1380
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to present the Administration's views on S. 1380, a bill to 
designate as wilderness certain land within the Rocky Mountain National 
Park and to adjust the boundaries of the Indian Peaks Wilderness and 
the Arapaho National Recreation Area of the Arapaho National Forest in 
the State of Colorado.
    The Administration cannot support S. 1380 unless amended to address 
our concerns regarding the provisions related to the Grand River Ditch 
as described in this testimony. The Department of the Interior 
testified in support of a similar bill, S. 1510, at a hearing held 
before this subcommittee on April 6, 2006. That bill did not contain 
the Grand River Ditch provisions.
    S. 1380 would designate approximately 249,339 acres of Rocky 
Mountain National Park's back country in the National Wilderness 
Preservation System. This represents approximately 95% of the park's 
total acreage, lands that currently are managed as wilderness. In 
addition, S. 1380 would exclude lands occupied by the Grand River Ditch 
from wilderness, change the liability standard for future damage to 
park resources resulting from operation and maintenance of the ditch, 
enable the Water Supply and Storage Company to convert its Grand River 
Ditch water rights to other uses, make adjustments to the Indian Peaks 
Wilderness and Arapaho National Recreation Area, both administered by 
the U.S. Forest Service, and give the National Park Service (NPS) the 
authority to lease the Lieffer tract.
    In 1964, Congress designated Rocky Mountain National Park as a 
wilderness study area. In 1974, President Nixon recommended to Congress 
239,835 acres for immediate designation and 5,169 acres for potential 
designation as wilderness in the park. The increased acreage amount 
included in S. 1380 is based on modifications brought about by land 
acquisition and boundary adjustments since 1974.
    Present road, water, and utility corridors, and all developed 
areas, are excluded from recommended wilderness. Wilderness designation 
would not alter any current visitor activities or access within the 
park, and would allow visitors to utilize the park in the same ways and 
locations that they presently enjoy.
    Federal reserved water rights for park purposes are not an issue 
related to wilderness designation as water rights for the park have 
been adjudicated through the State of Colorado water courts. 
Consequently, no water rights claims for wilderness purposes are needed 
or desired by the NPS.
    After holding public meetings on the proposed designation in June 
2005, the gateway communities of Estes Park and Grand Lake, and the 
counties of Grand and Larimer, endorsed wilderness designation for 
Rocky Mountain National Park, subject to specific boundary 
modifications on the west boundary of the park. These modifications, 
which have been incorporated in S. 1380, would provide an area of non-
wilderness around the Town of Grand Lake in order to ensure that the 
park could continue to actively manage hazardous fuels and other uses 
that might affect the Town. The proposed modifications would also 
reserve a corridor along the east shore of Shadow Mountain and Granby 
reservoirs for the possible construction of a non-motorized hike/bike 
trail, which would be subject to normal NPS planning processes 
including analysis under the National Environmental Policy Act.
    In addition to excluding lands occupied by the Grand River Ditch 
from wilderness, S. 1380 would allow for a change in the liability 
standard for future damage to park resources resulting from operation 
and maintenance of the ditch, as long as the ditch is operated and 
maintained in accordance with an operations and maintenance agreement 
between the NPS and the ditch's owners. This provision would alter the 
protections to park resources under the Park System Resource Protection 
Act (16 U.S.C 19jj) which holds any person who causes injury to park 
resources liable to the United States for response costs and damages, 
except in certain circumstances such as an act of God or actions by a 
third party.
    In 1907, and again in 2000, the owners of the ditch, the Water 
Supply and Storage Company, agreed to a stipulation, in return for a 
valuable right-of-way across public land and a stipulated water rights 
agreement, that requires them to pay the United States for any and all 
damage sustained by use of the right-of-way regardless of the cause and 
circumstances.
    Altering these protections to a more lenient negligence standard 
for the Grand River Ditch, as proposed by S. 1310, could have serious 
implications for future damage causing events resulting from the 
operation of the Grand Ditch within park boundaries. Changing that 
standard to a general liability standard would require the NPS to 
expend scarce financial resources to prove negligence. In cases where 
negligence could not be proven, the United States would pay for 
response and repair costs associated with damage caused by operation of 
the ditch. This could set a dangerous precedent for all national parks 
and other public lands with implications far beyond the boundaries of 
Rocky Mountain National Park. Also, to retroactively change the 1907 
stipulation would negate a century-old agreement that the ditch's 
owners have twice agreed to in exchange for valuable consideration it 
has received, the right-of-way itself and the 2000 stipulated water 
rights agreement.
    As proposed in S. 1380, an operations and maintenance plan for the 
ditch is clearly needed. However, it must be comprehensive in scope and 
enforceable and should not be tied to a change in the liability 
standard for the ditch. We believe that an effective plan must contain 
provisions that reduce the risk of catastrophic failure of the ditch 
(as occurred in 2003) that could injure park visitors and staff and 
harm critical park resources. The plan should also establish clear 
expectations regarding maintenance and operational issues that impact 
park operations. Such a plan, if fully implemented by the operators of 
the ditch, should reduce the likelihood of future breaches or damage 
causing events, which we believe is in the interest of all parties and 
should negate the perceived need for a change in liability protection 
for the park.
    S. 1380 also proposes to grant an exemption to the Water Supply and 
Storage Company from the requirement in its original right-of-way grant 
that the primary purpose of the ditch is for irrigation or drainage. 
This proposed change would enable the Company to convert its Grand 
River Ditch water rights to other uses, such as municipal use, without 
risking forfeiture of the ditch right-of-way, which could represent a 
significant increase in the value of the water rights for the 
shareholders of the Water Supply and Storage Company.
    The provisions of S. 1380 related to the Grand Ditch go beyond 
ensuring that ditch operations are not affected by the designation of 
wilderness and grant the owners of the ditch significant privileges and 
exemptions from existing law and prior agreements with the United 
States and a potential windfall by allowing a change in use of the 
water. We would be happy to work with the Committee on amendments to 
the bill to address our concerns related to the operations of the Grand 
Ditch.
    The legislation would also remove 1,000 acres of the Arapaho 
National Recreation Area in the Arapaho-Roosevelt National Forest and 
designate the land as an addition to the existing Indian Peaks 
Wilderness Area. The Administration supports the designation of the 
1,000 acre addition to the Indian Peaks Wilderness.
    Finally, S. 1380 would give the NPS the authority to lease the 
Lieffer tract. This 12 acre tract is located outside the boundary of 
Rocky Mountain National Park, was donated to the park, and lends itself 
to leasing to educational institutions or other similar entities.
    Mr. Chairman, this concludes my statement. I would be happy to 
answer any questions that you or other members of the subcommittee 
might have.

    Senator Akaka. Well, thank you very, very much for your 
testimony.
    We'll begin with questioning. We'll have a first round of 
questioning. I'd like to begin by thanking you for the Park 
Service's support of S. 1728, the reauthorization of the 
advisory commission at Kaloko-Honokohau National Historic Park. 
I think the extension of the commission will serve both the 
local community and the Park Service as well and I appreciate 
your support.
    S. 617, a veterans discount for Federal lands pass. My 
first question is on S. 617, which would provide for a veterans 
discount for the annual Federal lands pass. Do you have any 
estimate as to whether this pass would have a significant 
effect on current fee revenues?
    Ms. Stevenson. Yes, sir. We anticipate that a pass such as 
this would require a brand new pass. We couldn't use the 
existing America the Beautiful Pass because we couldn't have 
adequate controls in order to ensure that we wouldn't have 
accountability problems. The production costs for a new pass 
would cost someplace between $950,000 and $1.9 million.
    In terms of revenue impact, of course it's impossible to 
have a definite number because we'd have to know how many 
passes would be bought and how many veterans would use them. 
But a general guess is in the $10 to $40 million revenue impact 
range. Of course, the money that comes from the passes goes 
directly to the parks in which they are purchased. Eighty 
percent of the revenue from each of the passes goes back to the 
park.
    Senator Akaka. As introduced, the bill only applies to 
veterans who received--and I'm quoting--an ``other than 
dishonorable discharge,'' unquote. If the committee decides to 
move this bill, does the administration have an opinion whether 
it should be modified to include those on active duty and if 
members of the National Guard and Reserves should also be 
included?
    Ms. Stevenson. I think in the interest of fairness we would 
agree that the Reserve and that the National Guard and active 
duty personnel should be included in any such pass. Saying 
that, also we recognize that it would substantially impact the 
revenue that the Park Service would receive, negatively impact 
it.
    Senator Akaka. Your testimony includes the following 
statement, and I quote: ``As Congress considered establishing 
the new pass, discussion occurred about which groups of people 
might be eligible for a discounted pass,'' and that ultimately 
it was decided only senior citizens and those with permanent 
disabilities should receive the discount.
    As I recall, the new fee law was inserted in December 2004 
at the urging of the administration as a late addition to the 
omnibus appropriation conference report. The current law is a 
successor to the Recreation Fee Demonstration Act, which also 
was included as a rider to an earlier appropriations bill. 
Since this is in your statement, I'm curious as to where the 
discussion occurred about who should be entitled to receive a 
discount.
    Ms. Stevenson. Yes, you are correct. However, the previous 
authorizing legislation both in the fee demonstration program 
and the Land and Water Conservation Fund included the two 
exceptions in those bills. H.R. 3282 from the 108th Congress 
had a legislative hearing before the Subcommittee on National 
Parks and was marked up in the House Resources Committee. So 
both the markup and the hearing provided the opportunity for 
that discussion and were available to various sections of the 
population.
    After the discussion in the hearings, the language included 
in the appropriations bill only included provisions for 
disabled and senior citizens.
    Senator Akaka. We'll have another round. May I call on 
Senator Burr for his questions.
    Senator Burr. Thank you, Mr. Chairman.
    Ms. Stevenson, thank you for your testimony. Let me ask, 
how many veterans use our national parks today?
    Ms. Stevenson. I don't know the direct answer to that, sir.
    Senator Burr. Do you know how many veterans currently 
purchase the America the Beautiful Pass?
    Ms. Stevenson. No, sir.
    Senator Burr. So it's actually impossible to project what 
the revenue loss might be. Would you agree that if veterans 
don't use the national parks today this could actually be a 
revenue increase if in fact we got a large pool of veterans who 
found those treasures around the country something that they 
integrated into their vacation schedule?
    Ms. Stevenson. I agree with you that it's impossible for us 
to give you an accurate number for how many people would buy 
the pass.
    Senator Burr. But you're basing your opposition to this 
effort based upon a cost. You started with the fact that there 
would be an accountability problem. Well, you know we have no 
accountability of this subgroup, which might tell us--I asked 
you how many veterans use it. We don't know. I take for granted 
the accountability problem is that you would have a pass out 
there with no way to verify; is that what it is?
    Ms. Stevenson. If we sold the America the Beautiful Pass, 
which is currently an $80 pass, for $10, which is what the bill 
calls for, we would have no way to tell from the people who 
sold the pass whether they had sold the $80 pass for $10 with 
documentation or without documentation, because we wouldn't 
collect the documentation from the veterans. We rely on the fee 
collectors to collect the documentation. That's what I meant in 
terms of accountability.
    Senator Burr. I understand.
    Ms. Stevenson. That's why we'd need a separate pass.
    Senator Burr. But do you agree that it's impossible to say 
to the committee that this would be a loss of $10 to $40 
million worth of revenue?
    Ms. Stevenson. It's an estimate only, sir.
    Senator Burr. I mean, it's an estimate to facilitate 
further that this ought to be a 1-day free thing, a day that 
you pick, versus a day that necessarily fits into what their 
vacation schedule is.
    Mr. Chairman, I know you have tremendous interest in 
veterans issues. You weren't with us when we visited some of 
our cemeteries abroad that are truly historic sites for our 
country. One of the things I found as I went around is that we 
don't sell them to the American people. I think to some degree 
we sort of forget about our national parks, too.
    Here's an excellent opportunity to take a well designated 
group and to sell our parks, to sell visiting those parks, to 
sell using the parks, and to do it with a group that I 
personally believe deserve a discount, I might even say, even 
though my dad is a senior citizen, probably more than he does, 
because I can see a veteran that would use it more often than 
my dad, who's 86 years old.
    But somewhere we determined that that group should have a 
blanket discount and they do. I would only urge the Department 
of the Interior, I think that there's a way to make this happen 
and there's a way to make it happen that incorporates the 
ability to provide them a discount that's on their terms and 
not under some terms that we pull out of the sky as far as 
which day it is or how long that stay would be.
    So I urge you to work with us to find a way to make this 
work. There's no person in the U.S. Senate more than I that 
wants to do it in a way that doesn't cost us anything, where we 
don't lose revenue. But I think to hide behind the fact that 
there's a revenue loss that we project when we really don't 
know, versus to look at it as a $9.20 opportunity over and 
above whatever we need to create for the new card so 
accountability is not a problem--I dare say there would be a 
lot of people in North Carolina who might do it for a lot less 
than a million dollars, come up with a card that the Park 
Service could sell.
    I thank the chair.
    Senator Akaka. Thank you very much, Senator Burr.
    Senator Salazar.
    Senator Salazar. Thank you very much, Chairman Akaka.
    Thank you also, Ms. Stevenson, for testifying today. Let me 
ask you some questions concerning the Rocky Mountain National 
Wilderness Park legislation. Let me say that I thank the Park 
Service for working closely with us as we try to move forward 
with the vision that President Nixon and many since then have 
shared with respect to the creation of a wilderness designation 
for Rocky Mountain National Park.
    Would it be fair to say, Ms. Stevenson that the National 
Park Service supports the designation of Rocky Mountain 
National Park as wilderness and supports the legislation, 
including the Indian Peaks Wilderness addition, except for the 
water issue which you raised in your testimony?
    Ms. Stevenson. Yes, sir.
    Senator Salazar. So the only outstanding issue in terms of 
the Park Service has to do with the water issue?
    Ms. Stevenson. That's correct, sir.
    Senator Salazar. Now let me ask you, how aware are you or 
is the Park Service in terms of the dates relating to the 
creation of the ditch, the Grand Ditch, and the creation of 
Rocky Mountain National Park? Are you aware that the Grand 
Ditch was in existence 25 years before Rocky Mountain National 
Park was created, with a water right that dates back to 1891?
    Ms. Stevenson. Yes, sir.
    Senator Salazar. So you're aware of those dates?
    Ms. Stevenson. Yes, and we don't have an argument about the 
ditch or about the water rights. It has to do with the 
liability issue.
    Senator Salazar. Let me ask you some questions then on the 
liability issue. I appreciate very much that you're aware of 
the history of the water right, because for all of us who come 
from the West and come from the arid States, we know the 
importance of water. We know that water is in fact the 
lifeblood of our communities of agriculture, and we know that 
our water rights system is not sometimes the water rights 
system that you would find in the East or you would find in 
other States. So it's important to know that chronology in 
terms of the water rights and the property rights that were 
established way back a quarter century before Rocky Mountain 
National Park was established.
    In your testimony you said that one of the reasons that the 
parks had concerns about this water language is that it gave 
the ditch owners some kind of a windfall, of a windfall profit, 
I think is what you called it. In my view, having practiced 
water for many years in Colorado, I recognize that we have many 
cases in our water courts where we often take water, water 
rights that are property rights which have been used for 
agriculture, and those are transferred over for municipal uses 
or industrial uses or other kinds of uses. That happens all the 
time in my State.
    So I don't understand, frankly, where the Park Service is 
coming from in terms of raising that issue of windfall profits. 
It seems to me to make no sense.
    Ms. Stevenson. I think that was more an issue of calling it 
to the attention of the committee rather than it being the 
major objection to the legislation. Our concern is for the 
protection of the resources in Rocky Mountain National Park. 
That's our highest and most significant concern.
    Senator Salazar. I want to narrow down the issues with you 
just a little bit here. So then the objection that you raise 
where you talk about windfall profits is not a major concern of 
the Park Service, because it would seem to me that you would 
understand that over 110, 115 years of the existence of the 
ditch that what has happened is that some of the stock in this 
mutual ditch company has been acquired by some cities, such as 
the city of Portland and others, and they are using that water 
for municipal purposes. That's a recognized use in a transfer 
of water that typically occurs in water rights cases in our 
State.
    So just to narrow down the issues, that's an issue which 
you bring to the attention of the committee, but it's not an 
issue that is of concern to the Park Service? You're just 
raising it to the concern of the committee?
    Ms. Stevenson. To the extent that it doesn't affect the 
resources of the national park, it's not a major concern of 
ours. To the extent that it might affect the resources, natural 
or cultural, of Rocky Mountain National Park, it would remain a 
concern.
    Senator Salazar. I would just tell you that I would frankly 
be very surprised if you could find anything that would ever 
say that, with respect to the change of water use under those 
water rights, that it's going to have any effect. It's still 
the same amount of water, the same decrees that are being used, 
and it's simply used for another purpose other than for 
agriculture.
    Chairman Akaka, I will continue with my round of questions 
in my next 5-minute round.
    Senator Akaka. Thank you very much.
    Senator Smith.
    Senator Smith. Thank you, Mr. Chairman.
    Ms. Stevenson, I'm wondering if the Interior Department has 
consulted with the Veterans Department or the Department of 
Defense with regard to its concerns or opposition--I don't know 
which at this point--to establishment of the veterans pass?
    Ms. Stevenson. Actually, just last week we had a discussion 
within Interior about working with the veterans hospitals to 
promulgate information about the disabled pass for veterans, 
and we talked about discussing other aspects of this with the 
Department of Defense and talked about setting up some of those 
discussions, sir. We have not done that as yet.
    Senator Smith. If you have not done it as yet, obviously I 
think it's a good idea and would encourage it. I thank you for 
being on that course.
    I wonder, because it has just been a policy of the Interior 
Department, do you have any knowledge of the position of the 
White House as to such a thing at this point?
    Ms. Stevenson. I don't, sir.
    Senator Smith. Thank you, Mr. Chairman.
    Senator Akaka. Thank you very much, Senator Smith.
    Senator Craig.
    Senator Craig. Mr. Chairman, I apologize for running late, 
but I was over on the floor backing you up.
    Under another role, Chairman Akaka plays chairman of the 
Veterans Affairs Committee, and he and I are introducing a 
comprehensive bill over on the floor dealing with veterans and 
traumatic brain injury and transitional benefits. So you had 
spoke earlier. I just came from the floor speaking in behalf of 
that amendment, Mr. Chairman.
    But I am also here in support of S. 617, which is something 
of an extension of those kinds of benefits that we think our 
brave young men and women and those who served honorably in our 
armed services should be eligible for. So I want to thank you. 
I want to thank Senator Smith for introducing this legislation 
and building a strong bipartisan path for it. I'm disappointed 
in the opposition that I hear expressed from the Park Service 
at this moment. We'll work with you to make sure that we change 
that around, because this is a bill that we think provides a 
benefit that is important to our veterans.
    I think the chief of the Air Force, the Chief of Staff of 
the Air Force, General Thomas D. White, almost 50 years ago put 
it best when he said: ``The mission of the Department of 
Defense is more than aircraft, guns, and missiles. Part of the 
Defense job is protecting land, water, timber, wildlife, and 
priceless natural resources to make this great Nation worth 
defending.''
    Part of the growth of the Park Service was a spinoff of 
those who had been veterans before, who found an opportunity to 
use their expertise in the field to protect America's national 
treasures. Oftentimes--well, they came from the battlefields 
that were Saratoga and Yorktown and Fort Sumter, Antietam. They 
were the original expressers of America's independence. They 
are our icons, and I think offering and encouraging them to 
enjoy America's beauty today in a discounted way which is 
reflective of their interests and what they have done for us is 
an important expression. That's why I strongly support S. 617 
as a co-sponsor.
    You've got a lot of other issues in front of you, Mr. 
Chairman, but I want to thank the Park Service for being here. 
We'll work with them on it to make sure that we get it right, 
but also to make sure they get it right. OK?
    Ms. Stevenson. Yes, sir.
    Senator Craig. Thank you very much, Mr. Chairman.
    Senator Akaka. Thank you very much, Senator Craig.
    At this time, before I call on the second round I'd like to 
call on Congressman Udall, Mark Udall, for your statement.
    Senator Salazar. Senator Akaka.
    Senator Akaka. Yes, Senator Salazar.
    Senator Salazar. May I just take a second to welcome 
Congressman Udall here to this hearing this afternoon. He has 
been a champion of fighting for Colorado's land and water for a 
very, very long time, and comes from a treasured tradition of 
Udalls who have stood up for fighting for a way of life in the 
West and who have done a lot to make sure that the beauty and 
special heritage of the West remains alive.
    So welcome to the Parks Subcommittee of the Energy 
Committee of the U.S. Senate.
    Senator Smith. Senator Akaka.
    Senator Akaka. Senator Smith.
    Senator Smith. May I make it bipartisan and welcome my 
cousin, Mark Udall.
    Senator Akaka. Certainly. Thank you for that.
    Congressman Udall.

STATEMENT OF HON. MARK UDALL, U.S. REPRESENTATIVE FROM COLORADO

    Mr. Udall. Thank you, Mr. Chairman. It's not often that I 
have a chance to testify in the United States Senate and 
testify in front of two family members, my brother Ken Salazar 
and my cousin Senator Gordon Smith. We'd like to include you, 
Senator.
    Senator Akaka. Why not.
    [Laughter.]
    Mr. Udall. I will be brief. I don't want to try the 
patience of the committee. I know you have a full docket today 
and I appreciate the chance to come over and express my support 
for this very important piece of legislation that would 
designate over 95 percent of Rocky Mountain National Park as 
wilderness.
    If I might, Senator, I'd ask--in the House we would ask for 
unanimous consent--to include my entire statement in the record 
at this point in time.
    Senator Akaka. Without objection, it will be included in 
the record.
    [The prepared statement of Mr. Udall follows:]
      Prepared Statement of Hon. Mark Udall, U.S. Representative 
                             From Colorado
    Thank you, Mr. Chairman, I appreciate having this opportunity to 
testify in support of S. 1380, Senator Salazar and Allard's bill to 
designate as wilderness most of the lands within the Rocky Mountain 
National Park and to expand the Indian Peaks Wilderness.
    I have introduced an identical House bill that is cosponsored by my 
Colorado colleague, Representative Musgrave.
    Over a period of months, the four of us have worked together to 
develop this bipartisan legislation that will provide important 
protection and management direction for some truly remarkable country, 
adding well over 200,000 acres in the park to the National Wilderness 
Preservation System.
    The wilderness designation for the park will cover some 94 percent 
of the park, including Longs Peaks and other major mountains along the 
Great Continental Divide, glacial cirques and snow fields, broad 
expanses of alpine tundra and wet meadows, old-growth forests, and 
hundreds of lakes and streams, all untrammeled by human structures or 
passage. Indeed, examples of all the natural ecosystems that make up 
the splendor of the Park are included in the wilderness that would be 
designated by our bills.
    At the same time, the wilderness boundaries have been drawn so as 
to allow continued access for use of existing roadways, buildings and 
developed areas, privately owned land, and areas where additional 
facilities and roadwork will improve park management and visitor 
services. In addition, specific provisions are included to assure that 
there will be no adverse effects on continued use of existing water 
facilities.
    The lands designated as wilderness will become part of the National 
Wilderness Preservation System that was established by the Wilderness 
Act and will be managed in accordance with that Act and the provisions 
of our bills. The legislation's provisions amplify this by specifying 
that--1) no new reclamation projects will be allowed in the wilderness 
area; 2) nothing in the bill will create a ``buffer zone'' around the 
wilderness and that non-wilderness activities visible or audible from 
within the wilderness will not be prohibited; 3) the National Park 
Service can act to control fire, insects, and diseases, including use 
of mechanical tools within the wilderness; and 4) nothing in the bill 
will reduce or restrict the current authority of the National Park 
Service to manage the Park's lands and resources.
    The bills are similar to measures introduced in previous 
Congresses, but they do include a number of adjustments and refinements 
that reflect discussion within the Colorado delegation in Congress and 
with interested parties in Colorado.
    The bills include designation of wilderness designation of more 
than 700 acres in the Twin Sisters area south of Estes Park. These 
lands were acquired by the United States and made part of the park 
after submission to Congress of the original wilderness recommendation 
for the park in the 1970s, and so were not included in that 
recommendation. They are lands of a wilderness character and their 
designation will not conflict with any current uses. On the west side, 
the Town of Grand Lake and Grand County requested that about 650 acres 
inward from the Park boundary around the Town be omitted from the 
wilderness designation in order to allow the Park to respond to 
potential forest fire threats. Our bills accommodate that request.
    Also, the bills respond to the request of the Town of Grand Lake, 
Grand County, the Headwaters Trails Alliance (a group composed of local 
communities in Grand County that seeks to establish opportunities for 
mountain biking), and the International Mountain Bicycling Association 
to omit from wilderness an area along the western park boundary, 
running south along Lake Granby from the Town to the park's southern 
boundary. This will allow the National Park Service to retain the 
option of authorizing construction of a possible future mountain bike 
route within this part of the park. Similarly, our bills would expand 
the Indian Peaks Wilderness Area by 1,000 acres in the area south of 
the park and north of Lake Granby. The lands involved are currently 
managed as part of the Arapaho National Recreation Area, which would 
accordingly be reduced by about 1,000 acres.
    The bills include a section authorizing the National Park Service 
to lease an 11-acre property (the Leiffer tract) donated to the 
National Park Service in 1977. Located outside the park's boundaries, 
it has two buildings, including a house that is listed on the National 
Register of Historic Places. The Park Service would like to have the 
option of leasing it, but current law allows that only for ``property 
administered . . . as part of the National Park System,'' and this 
property does not qualify. The bills would allow the Park Service to 
lease the property as if it were located inside or contiguous to the 
park.
    Also like previous measures, the bills address the question of 
possible impacts on water rights--something that can be a primary point 
of contention in Congressional debates over designating wilderness 
areas. They reflect the legal reality that it has long been recognized 
under the laws of the United States and Colorado, including a decision 
of the Colorado Supreme Court, that Rocky Mountain National Park 
already has extensive federal reserved water rights arising from the 
creation of the national park itself. And they reflect the geographic 
reality that the park sits astride the continental divide, meaning 
there's no higher land around from which streams flow into the park, 
and thus there is no possibility of any diversion of water occurring 
upstream from the park. In recognition of these legal and practical 
realities, the bills include a finding that because the park already 
has these extensive reserved rights to water, there is no need for any 
additional reservation or appropriation of such right, and explicit 
disclaimers that the bills effect any such reservation.
    New provisions in these bills deal with the Grand River Ditch, 
created before Rocky Mountain National Park was established and partly 
located within the park.
    The owners of the ditch are currently working to conclude an 
agreement with the National Park Service with respect to operation and 
maintenance of the portion of the ditch within the park, and our bills 
provide that after conclusion of this agreement the strict liability 
standard of the Park Resources Protection Act (which now applies to any 
damage to park resources) will not apply so long as the ditch is 
operated and maintained in accordance with the agreement. The owners of 
the ditch would remain liable for damage to park resources caused by 
negligence or intentional acts, and our bills specify that it will not 
limit or otherwise affect the liability of any individual or entity for 
damages to, loss of, or injury to any park resource resulting from any 
cause of event occurring before the date of enactment. In addition, the 
bills specify that enactment will not restrict or otherwise affect any 
activity relating to the monitoring, operation, maintenance, repair, 
replacement, or use of the ditch that was authorized or approved by the 
National Park Service as of the date of enactment. And the bills also 
provide that use of water transported by the ditch for a main purpose 
(or main purposes) other than irrigation will not terminate or 
adversely affect the ditch's right-of-way.
    In her testimony, the Administration's witness says they fear this 
provision ``could have serious implications for future damage-causing 
events'' in the Park and ``could set a dangerous precedent'' for other 
parks.
    I must say I think those fears are exaggerated.
    The key point here is that this provision is not automatic. It 
would take effect only if and when the National Park Service reaches an 
agreement with the owners of the ditch.
    We do nothing to dictate the terms of any such agreement or to tie 
the hands of the Park Service in its negotiations. And I am sure the 
Park Service would never agree to anything against the best interests 
of the park or restricting their ability to manage the park properly.
    The Administration's testimony says they want an agreement to 
``reduce the risk of catastrophic failure of the ditch'' and to 
``establish clear expectations regarding maintenance and operational 
issues that impact park resources.'' We want that too--and the purpose 
of the liability provision is to give the ditch's owners an incentive 
to agree to exactly such an agreement and to comply with it once it is 
concluded.
    In other words, our purpose is to make it in their interest to 
operate and maintain the ditch the way the Park Service thinks is 
needed to protect the park's resources.
    So, I respectfully disagree with the Administration on this point 
and think this provision needs to remain in the legislation.
    Mr. Chairman, the matters dealt with in our bills have a long 
history.
    The wilderness designations are based on National Park Service 
recommendations presented to Congress by President Richard Nixon. That 
they have not been acted on before this reflects the difficult history 
of wilderness legislation.
    One Colorado statewide wilderness bill was enacted in 1980, but it 
took more than a decade before the Colorado delegation and the Congress 
were finally able, in 1993, to pass a second statewide national forest 
wilderness bill. Since then, action has been completed on bills 
designating wilderness in the Spanish Peaks area of the San Isabel 
National Forest as well as in the Black Canyon of the Gunnison National 
Park, the Gunnison Gorge, the Black Ridge portion of the Colorado 
Canyons National Conservation Area, and the James Peak area of the 
Arapaho-Roosevelt National Forests.
    We now need to continue making progress by providing wilderness 
designations for other deserving lands in Colorado, including lands 
that are managed by the Bureau of Land Management. And the time is ripe 
for finally resolving the status of the lands within Rocky Mountain 
National Park that are dealt with in our bills.
    Lands covered by our bills are currently being managed protect 
their wilderness character. Formal wilderness designation will no 
longer leave this question to the discretion of the Park Service, but 
will make it clear that within the designated areas there will never be 
roads, visitor facilities, or other manmade features that interfere 
with the spectacular natural beauty and wildness of the mountains. This 
is especially important for a park like Rocky Mountain, which is 
relatively small by western standards. As nearby land development and 
alteration has accelerated in recent years, the pristine nature of the 
park's backcountry becomes an increasingly rare feature of Colorado's 
landscape.
    Further, the park's popularity demands definitive and permanent 
protection for wild areas against possible pressures for development 
within the park. While only about one tenth the size of Yellowstone 
National Park, Rocky Mountain sees nearly the same number of visitors 
each year as does our first national park. At the same time, 
designating these carefully selected portions of Rocky Mountain as 
wilderness will make other areas, now restricted under interim 
wilderness protection management, available for overdue improvements to 
park roads and visitor facilities.
    In summary, Mr. Chairman, our bills will protect some of our 
nation's finest wild lands. They will protect existing rights. They 
will not limit any existing opportunity for new water development. They 
are bipartisan and will affirm the commitment of all Coloradans to 
preserving the features that make our State such a remarkable place to 
live. So, I think they deserve prompt enactment.

    Mr. Udall. I appreciate that.
    The delegation, our delegation, House and Senate 
delegations, come together. We're in full support of this 
measure. We know there's work to be done, but we're also 
intending to celebrate. But I think it's most important to 
acknowledge the work of the stakeholders and the local 
communities to make this a reality.
    I know two of those members of the local communities will 
testify later, Mayor Burke from the little and beautiful town 
of Grand Lake, which is much like Baker or Union. It's a 
beautiful mountain town where people really care about not only 
the community, Senator Smith, but the resources around that 
community.
    Then I know we have Dennis Harmon, who's the General 
Manager of the Water Supply and Storage Company from Fort 
Collins. They're a key part of this effort.
    I did want to in particular before I close talk briefly 
about the ditch. I know Senator Salazar talked about the ditch. 
There are negotiations under way that, if and when an agreement 
is reached, Mr. Chairman, that the strict liability standard of 
the Park Resources Protection Act will not apply as long as the 
ditch is operated and maintained in accordance with the 
agreement.
    Now, I know the administration has concerns about this set 
of provisions, but I think their fears are exaggerated, quite 
frankly. The key point that I would like to make is the 
provision isn't automatic. It would take effect only if and 
when the National Park Service reaches an agreement with the 
owners of the ditch. We do nothing in the proposed legislation 
to tie the hands for the Park Service in these negotiations. I 
know, given my long connection through my family, that the Park 
Service would never agree to anything that's against the best 
interests of the park or restricts their ability to manage the 
park properly.
    So in other words, our purpose is to make it in the 
interest of the ditch company to operate and maintain the 
facility in the way the Park Service thinks is needed to 
protect the parks' resources.
    So again I want to respectfully disagree with the 
administration and I think this provision needs to remain in 
the legislation.
    The history of this effort is long, rooted back in the 
Nixon era, Mr. Chairman. Action has been repeatedly delayed for 
a number of reasons. But I'm not looking backward. None of the 
delegation is or the people in Colorado. We think this is the 
right thing to do to preserve this marvelous landscape that 
really is the heart of our State of Colorado, and I thank you 
again for considering this important piece of legislation.
    I'd be happy to answer any questions and, if not, let the 
committee continue to work its will.
    Senator Akaka. Do you have any questions? Senator Salazar, 
do you have any questions?
    Senator Salazar. No questions.
    Senator Akaka. Thank you very much. We really appreciate 
your statement and testimony and look forward to continuing to 
work with you on this.
    Mr. Udall. If the chairman is so inclined, I will send over 
a Udall family certificate in the near future and we welcome 
you to the broad and diverse family that is the Udall family. 
So thank you again for welcoming me.
    Senator Akaka. Thank you. I'd like to share in the beauty 
of your State.
    Mr. Udall. Thank you, Mr. Chairman.
    Senator Akaka. Thank you.
    So we will return with a second round of questions here to 
the administration. Your testimony on S. 955 establishing the 
Abraham Lincoln National Heritage Area is essentially the same 
as the Department's testimony on previous heritage area 
proposals in this Congress. As I understand your testimony, the 
proposed management group has submitted a study to the Park 
Service which finds that the area is appropriate for heritage 
area designation.
    Can you tell me if the Park Service has reviewed the study, 
and if so whether it complies with your standards for studies?
    Ms. Stevenson. I'm pleased to tell you, Mr. Chairman, that 
we have reviewed it and that it does meet the standards.
    Senator Akaka. I see. I understand that the Department 
supports S. 1148, which would establish two commemorative 
commissions in Vermont and New York. As I understand this bill, 
a significant number of the commission members are to be 
appointed from members of the State commemorative commissions. 
The bill also authorizes the commission to make grants to 
various groups and specifically lists the State commemorative 
commissions as a possible recipient.
    Does this provision raise any potential conflict of 
interest concerns?
    Ms. Stevenson. In reviewing the membership of the two 
commissions, I think it's only the Champlain commission that 
has that issue. The other commission only has one member 
required from the existing commissions. The Department of 
Justice has some concerns about the appointment authority 
anyway. So we'd be happy to work with the committee to resolve 
both things at the same time.
    Senator Akaka. Thank you.
    My next and final question to you is on S. 1182, which 
extends the authority for the Quinebaug and Shetucket National 
Heritage Corridor. The question is is the Department opposed to 
any extension for this heritage area or is the concern 
approving this before you've had a chance to review their 
recently submitted evaluation?
    Ms. Stevenson. We're not opposed to an extension, but we 
think it's premature because they have 2 years left in their 
authorization. We would like a chance to review the plan that 
they've developed.
    Senator Akaka. Thank you for those responses.
    Senator Salazar.
    Senator Salazar. Thank you, Chairman Akaka.
    Ms. Stevenson, I want to just say that I look forward to 
working with the ditch company and the Park Service to 
resolving the issues that remain. It seems to me that a 3 
decade-plus dream that's been alive now has a chance to become 
a reality with the creation of the wilderness designation. I 
know there are the issues related to liability in the ditch 
company, but I believe that the unique circumstances of the 
dates in which the ditch was constructed and put into 
operation, the 25 years that passed before the Rocky Mountain 
National Park was created, the fact that this is so high up in 
the Rocky Mountains on the Continental Divide, allows us to 
fashion a unique and specific relationship here that will 
protect the national park resource, which I think--which in 
fact I know is what you and the Park Service are trying to 
advocate for--and at the same time recognize that these 
existing operations were in place prior to the park's creation.
    I will say this with respect to the liability standard. 
Today in 2007, if you look at the liability standards that 
apply to the ditch, you're looking at a strict liability 
standard. So if you have an act of God, for example, that ends 
up creating a problem for the ditch and you have an overrun of 
the ditch that creates some damage to the resource that's not 
in the control at all of the ditch company, the ditch company 
is still liable.
    So if you have a lightning strike that comes in and creates 
some kind of a rockslide or other kind of action that creates 
that kind of a problem, then the ditch is liable. So under all 
circumstances the ditch company is liable for everything, even 
though the ditch company predated the existence of the park by 
25 years.
    So what we have tried to do in working very hard on this 
issue of liability over the last year is to try to come up with 
an accommodation that will recognize the goal that the Park 
Service has in mind, which is the protection of the resource, 
and at the same time allow the ditch company to exercise its 
historic water rights within the constraints of the 
legislation.
    I won't get into the specific detail of what we included in 
the legislation, but we have required in the legislation that 
there be an agreement that the Park Service and the Grand Ditch 
Company have to put together on the maintenance of the ditch. 
The ditch company, once that maintenance agreement is in place, 
the ditch company would only be liable, as it should be liable, 
for intentional acts, intentional acts, and second of all if 
the ditch company is negligent, if the ditch company is 
negligent.
    So the acts of God that are essentially now a reason for 
liability to the ditch company, that's the only thing that 
would be removed. But it seems to me that if we are looking at 
how we manage the national park and how we preserve the 
wilderness character of the national park, that the best thing 
that could happen is that we have this agreement in place that 
essentially recognizes what standards of operation are going to 
be required as the ditch flows through the park.
    So I just want to ask of you and the National Park Service 
for your cooperation with the Colorado Congressional 
delegation, and we're united here, Democrats and Republicans 
alike, and the ditch company to further this specific unique 
circumstance along so that we can ultimately achieve the vision 
and goal that we all have and that's the preservation of Rocky 
Mountain National Park.
    I will tell you this, that I would never be a participant 
in any kind of legislation that would in any way whatsoever 
endanger the crown jewel of the Nation in my State, Rocky 
Mountain National Park. I believe that the language that we 
have put together in this legislation, which is related to the 
unique facts of this ditch and Rocky Mountain National Park, 
will help us achieve the goals that we all want.
    So I would ask of you that you take another look at the 
language. I know Juan Baker and others have been working 
closely with us on coming up with a maintenance agreement. I 
hope we're able to get that done very, very soon. So I look 
forward to working with you, and I appreciate your testimony 
today.
    Ms. Stevenson. Thank you.
    Senator Akaka. Thank you very much, Senator Salazar.
    Senator Salazar. Thank you, Senator Akaka.
    Senator Akaka. I want to thank you very much for your 
responses. We really appreciate it and look forward to working 
with you on this.
    Ms. Stevenson. Thank you very much, Senator.
    Senator Akaka. Thank you very much.
    Senator Clinton was not able to be here this afternoon, so 
we will include her written statement in the hearing record.
    [The prepared statement of Senator Clinton follows:]
 Prepared Statement of Hon. Hillary Rodham Clinton, U.S. Senator From 
                                New York
    Chairman Akaka and members of the Committee, it gives me pride and 
pleasure to introduce revised legislation to establish the Champlain 
Quadricentennial Commemoration Commission and the Hudson-Fulton 400th 
Commemoration Commission to the Senate Energy and Natural Resources 
Committee.
    I would like to express my gratitude to Heather Baker-Sullivan, 
Executive Director of the Hudson Fulton Champlain Quadricentennial 
Commission of New York, for testifying before the Committee today.
    Five years ago, I introduced the Champlain Quadricentennial 
Commemoration Commission and the Hudson-Fulton Quadricentennial 
Commemoration Commission effort with legislation during the 107th 
Congress. Consequently, the bill did not pass and revised legislation 
was introduced in subsequent Congresses. The current bill, the Hudson-
Fulton Champlain Quadricentennial Commemoration Act of 2007, S.1148, 
incorporates welcomed input and reflects a consensus reached among key 
leaders who share the goal of honoring important events in our nation's 
and New York State's history. This is a culmination of a lot of hard 
work, and I am hopeful that we can pass this bill.
    I have long believed that understanding our history is important to 
protecting our future. That is why as First Lady I helped create ``Save 
America's Treasures'' to preserve and promote historic artifacts and 
sites across our country at the turn of the millennium. That is why I 
have worked hard in New York to help promote heritage and nostalgia 
tourism that not only helps the local community, but educates and 
inspires children and adults. The Women's Hall of Fame in Seneca Falls, 
the home of Franklin Delano Roosevelt and Eleanor Roosevelt and Eleanor 
Roosevelt and all places throughout New York that helped shape our 
history.
    We are here today to call on Congress to commemorate three historic 
moments in the history of our country. In 1609, Englishman Henry 
Hudson, aboard his ship the Half Moon, in service of the Dutch East 
India Company, became the first European to sail along the river later 
named in his honor. That very same year, in 1609, French explorer 
Samuel de Champlain became the first European to reach that lake--and 
its shores in Northern New York and Vermont--that would later be named 
for him.
    These two moments in exploration would change history. In the years 
that followed, these explorations along what would become the Hudson 
River and Lake Champlain would lead to the establishment of Fort 
Orange, a Dutch--and later English--settlement located in what is now 
Albany. The establishment of trading posts and settlements. Greater 
commerce, trade, and cultural impact deep into the Mohawk Valley, as 
far west as Lake Erie--which would later lead to the Erie Canal--and 
beyond.
    Almost 200 years later, in 1807, Robert Fulton navigated the Hudson 
River from New York City to Albany in the steamboat Clermont. Just as 
Hudson's voyage would change history, so too would Fulton's. It would 
help revolutionize commerce on the great rivers of the United States 
and foster international relations through greater international travel 
and trade.
    In 1909, Americans celebrated the 300th anniversaries of Hudson's 
and Champlain's explorations with maritime celebrations and art 
exhibitions. The Dutch built the first replica of Hudson's ship and 
sailed it along the Hudson River.
    In 1959, Congress recognized the 350th anniversary by establishing 
a similar commission to coordinate federal participation in the 
celebrations.
    We are approaching the 400th anniversary of the voyages of Hudson 
and Champlain, and marking the 200th anniversary of Fulton's steamboat 
ride.
    America has long been the home of new frontiers. What began with 
the explorers we seek to commemorate continues with the 21st century 
explores in biotechnology, information technology, nanotechnology and 
more.
    It is important to commemorate our shared history, to understand 
the contributions and achievements that helped build this country. It 
is important to best understand the lessons of our past so we can build 
a brighter future.
    That is why it is so vital that we pass, in this Congress, The 
Champlain Quadricentennial Commemoration Commission and the Hudson-
Fulton 400th Commemoration Commission. This is a unique opportunity to 
celebrate the history and rich heritage of New York, Vermont, and our 
country.

    Senator Akaka. I'd like to now call on our panel: the 
Honorable Judy Burke, Mayor of Grand Lake, Colorado; Dennis 
Harmon, General Manager, Water Supply and Storage Company, Fort 
Collins, Colorado; Dean Stoline, Assistant Director, National 
Legislative Committee, The American Legion, from Washington, 
D.C.; Heather Baker-Sullivan, Executive Director, Hudson-
Fulton-Champlain Quadricentennial Commission, from New York; 
and Tom Martin, Chair of the Board, Looking for Lincoln 
Heritage Coalition of Mount Pulaski, Illinois; and Charlene 
Perkins Cutler, Executive Director from Quinebaug-Shetucket 
Heritage Corridor, Inc., from Connecticut.
    So thank you so much for being here, for your testimony. 
Just to be sure you know, for the panel we will include your 
written statement in the hearing record and I'd ask each of you 
to please summarize your statements and limit your remarks to 
not more than 5 minutes.
    So may I begin by calling on the Honorable Judy Burke, 
Mayor of Grand Lake, Colorado.

       STATEMENT OF JUDY M. BURKE, MAYOR, GRAND LAKE, CO

    Ms. Burke. Thank you, Mr. Chairman, members of the 
committee. Thank you for the opportunity to appear here today 
to discuss S. 1380, the Rocky Mountain National Park Wilderness 
and Indian Peaks Wilderness Expansion Act, and to convey the 
town of Grand Lake's full support of this act.
    The Town of Grand Lake adjoins the boundary of the Rocky 
Mountain National Park, one of our Nation's most visited parks. 
We are just one of the many communities along with local and 
national organizations who have worked with Senator Salazar, 
Senator Wayne Allard, and Congressman Mark Udall to shape 
legislation that will forever protect our national park lands 
and the recreational opportunities and economic livelihood of 
our community.
    S. 1380 accomplishes this goal. Formal wilderness 
designation of nearly 250,000 acres under S. 1380 will provide 
permanent protection to the park's natural resources, provide 
consistent park management, and preserve opportunities for 
scientific study. I am hopeful this legislation can be enacted 
this year. As a result of rapid growth in Colorado and 
corresponding commercial and residential development, the value 
of a preserved landscape inside the park becomes an even more 
crucial matter.
    The process to produce a consensus Rocky Mountain National 
Park bill started in the 1990's. I was a member of the board of 
trustees at that time and worked through that process as well. 
But the result is a product that addresses the needs of the 
diverse stakeholders, all of us who worked on that bill.
    In addition to Grand Lake, the broad array of groups 
working on this legislative initiative include: the Grand 
County Board of Commissioners, the Larimer County Board of 
Commissioners, the Boulder County Board of Commissioners, the 
Towns of Winter Park and Estes Park, the Colorado Trout 
Unlimited Organization, Colorado Wildlife Federation, the 
League of Women Voters of Estes Park, the Headwaters Trails 
Alliance, the International Bicycling Association, the Colorado 
Mountain Clubs of Estes Park and Fort Collins, the Colorado 
Wilderness Network, and the Southern Rockies Conservation 
Alliance.
    The lasting protection of these places and the beauty of 
Rocky Mountain National Park is critical. As the Mayor of a 
local community, I believe the passage of S. 1380 is equally 
critical for my town's long-term economic viability. The 
revenue that the park's wildlife, wilderness, and recreation 
generates is almost 70 percent of our local business revenue. 
So ensuring that its resources, scenic vistas, and recreation 
opportunities are sustainable for generations to come makes 
good business sense to our community.
    The recreational opportunities that draw tourists to Rocky 
Mountain National Park are also enjoyed by our year-round 
residents who are privileged to call the park their backyard.
    Grand Lake has a particular interest in the negotiations 
that culminated last year in an agreement to provide a one-
eighth mile buffer along the border of Grand Lake, for two 
reasons. This buffer was requested for fire mitigation and to 
suppress what we consider to be the eventual wildfire danger 
with whatever tools may be required; and second, for the 
potential for construction of a bike trail. The trail would be 
managed for wilderness characteristics until the Department of 
the Interior authorizes construction.
    The town sincerely appreciates all of the efforts that have 
been made by our congressional district on behalf of the 
citizens of Colorado.
    The Rocky Mountain National Park Wilderness and Indian 
Peaks Wilderness Expansion Act is a chance to preserve a piece 
of our natural history while also protecting local economies. 
It has been a pleasure working with the Colorado delegation and 
the other groups actively involved in moving S. 1384 forward.
    Thank you for your consideration of my comments. I would be 
happy to answer any questions you may have.
    [The prepared statement of Ms. Burke follows:]
        Prepared Statement of Judy Burke, Mayor, Grand Lake, CO
    Honorable Members of Congress, this letter is being written to 
demonstrate the Town of and Lake's full support of S. 1380, the Rocky 
Mountain National Park Wilderness and Indian Peaks Wilderness Expansion 
Act. The passage of legislation will provide nearly 250,000 acres of 
new wilderness to Colorado and finally complete a thirty year effort to 
designate the area as wilderness. This designation has tremendous 
opportunities for the 3 million plus annual visitors that visit Rocky 
Mountain National Park and the Arapaho National Recreation Area, as 
well as to the Grand County residents who consider the area our 
backyard and personal playground.
    A Wilderness designation makes sense for Rocky Mountain National 
Park for numerous reasons. First and foremost, it is one of this 
country's most precious resources, and should be preserved for future 
generations to enjoy. As Enos Mills, a true champion of the creation of 
this national treasure so succinctly put it ``In years to come when I 
am asleep beneath the pines, thousands of families wi11 find rest and 
hope in this park''. Mr. Mills would have had no idea at the time what 
an understatement he truly made; millions have found rest and hope and 
so much more in Rocky Mountain National Park, and with your help, 
millions more will continue to enjoy what has been set aside for all.
    Secondly, this bill will help to secure the future financial 
success of the gateway communities; Grand Lake and Estes Park. With a 
wilderness designation, commercial applications will continue to locate 
in the gateway communities because they would not be allowed in the 
National Park. From our perspective, this is a win-win proposition. 
Visitors will be allowed continued unfettered view corridors, pristine 
wilderness and unmatched access to majestic wildlife, while the 
communities that struggle with a short tourist season won't have to 
worry about business competition from their National Park.
    Furthermore, the preservation of the Park itself helps to ensure 
our future economic stability. Many of the 3 million tourists that 
visit the Park each year find their way into Grand Lake, and help to 
contribute nearly 70% of the Town's sales tax revenues in the four 
short months between the Memorial Day and Labor Day Holidays. What is 
true for the Town is equally true for our small business owners, who 
are almost completely dependent upon the visitor's of Rocky Mountain 
National Park for their continued success.
    Third, this bill deserves your support because it represents 
cooperation at its finest; both in the sense of a non-partisan effort, 
as well as a multi-agency, multi-jurisdictional one. In addition to 
Grand Lake, the broad array of groups working on this legislative 
initiative include: Grand County Board of County Commissioners, Larimer 
County Board of County Commissioners, Boulder County Board of County 
Commissioners, Town of Winter Park, Town of Estes Park, Colorado Trout 
Unlimited, Colorado Wildlife Federation, League of Women Voters of 
Estes Park, International Mountain Bicycling Association, Headwaters 
Trails Alliance, Colorado Mountain Club-Shining Mountains Group (Estes 
Park), Colorado Mountain Club-Fort Collins Group, Colorado Wilderness 
Network, and the Southern Rockies Conservation Alliance. The reason 
that this support is evidenced everywhere is because the foresight of 
the Congress and President Woodrow Wilson in 1915 continues to be 
apparent. Let fixture generations look into the history books to see 
the wisdom of this Congress, in preserving 250,000 acres of new 
Wilderness for them to enjoy and treasure.
    Finally, this bill should be adopted because it is well written and 
brilliantly conceived, with members of the Congressional Delegation 
having solicited and accepted input from interested parties. The Town 
supports the creation of the East Shore Trail Area. Within a year of 
the passage of the bill, the Town and Grand County in cooperation with 
Headwaters Trails Alliance, will work with the Secretary of the 
Interior to establish the alignment line and the boundaries of the 
trail. We support the use of motorized vehicles and machinery for the 
construction and maintenance of the frail and fully encourage the use 
of the trail by non-motorized bicycles.
    Private property rights are strongly valued in Grand Lake, and 
these rights are respected in this bill. Specifically, wilderness 
designation will not lead to increased fire danger to homes because a 
buffer has been excluded from the designation around the border of 
Grand Lake. The buffer was requested for fire mitigation and future 
development possibilities that are unknown at the time with the private 
property that borders the Park. It is our understanding that this will 
be reflected on the ``Rocky Mountain National Park, Colorado Wilderness 
Boundaries'' Map.
    The Town supports the expansion of the Indian Peaks Wilderness. 
This expansion will increase the acreage of the wilderness by nearly 
four thousand acres and, also, allow for the proposed East Shore Trail 
to be located along the shore of Lake Granby outside the wilderness 
boundary.
    The Town sincerely appreciates all of the efforts that have been 
made by our Congressional Delegation on behalf of the citizens of 
Colorado. We are confident that all members will support this 
legislation to ensure that all visitors to Rocky Mountain National Park 
will continue to enjoy this pristine natural environment as it is 
today.

    Senator Akaka. Thank you very much, Mayor.
    Now we will hear from Dennis Harmon.

 STATEMENT OF DENNIS HARMON, GENERAL MANAGER, WATER SUPPLY AND 
               STORAGE COMPANY, FORT COLLINS, CO

    Mr. Harmon. Good afternoon, Chairman Akaka and Senator 
Salazar. We appreciate the opportunity to provide testimony to 
the subcommittee today concerning Senate bill 1380, the Rocky 
Mountain National Park Wilderness Act. My name is Dennis Harmon 
and I'm the General Manager of Water Supply and Storage. Also 
here today, as Senator Salazar told you, is Tom Moore. Tom's a 
fourth generation farmer and Water Supply shareholder. His 
great-grandfather was president of Water Supply early in the 
20th century. We have a number of families that are 
shareholders in the company that have similar length of tenure 
with the company.
    Water Supply is a 116-year-old nonprofit mutual ditch 
company. It collects and distributes about 60,000 acre-feet of 
water annually to roughly 40,000 acres of farmland in northern 
Colorado. Company facilities include the Grand River Ditch, 
most of which lies within the park. The ditch provides about a 
third of our total water supply each year. The ditch 
construction began in 1890. The company was formed in 1891. The 
first water was appropriated in September of 1890. At that time 
Coloradoans, like others in other western States, were being 
encouraged to develop water to put it to beneficial use in the 
State. Farmers in northern Colorado knew that naturally 
occurring rainfall there was providing only about half what was 
needed for crop production. They had to look to the mountains 
to find additional water.
    In accordance with Federal and State law at the time, they 
filed for a ditch water right and right of way. The water right 
was adjudicated on August 3, 1906. The following year in 1907, 
after the water right was adjudicated, Federal regulations were 
issued which required Water Supply to sign a stipulation 
accepting strict liability or, we presume, forfeit the ditch 
and their investment and the water that they had produced 
testimony.
    In 1915, Rocky Mountain National Park was established. 
However, the park boundary did not include the ditch at that 
time. The boundary was to the east of the ditch. It didn't 
include any land west of the divide in any event. In fact, not 
until 1930, 40 years after the first appropriation of water in 
the ditch, did the majority of the Grand River Ditch in effect 
move within the park. The park boundary was moved by 
congressional action.
    With the 1907 stipulation and the 1930 park expansion, the 
enactment of the Park Service Resource Protection Act in 1990, 
and the wilderness legislation that we're talking about today, 
we've become alarmed by the pattern of increasing Federal 
regulation. So we went to Senator Salazar and Senator Allard 
and the other members of the Colorado delegation and asked them 
for some help in drafting some language that would protect this 
historic Colorado agricultural heritage.
    Section 4[d][1] of the bill excludes the Grand Ditch from 
the wilderness designation. It doesn't appear to be 
controversial. The type of exclusion that overlays there is 
identical to what the park has done for their own roads in the 
maps referred to in sections 3 and 4.
    Section 4[e][4][A] would modify the company's liability 
from strict liability to a negligence standard. That new 
negligence standard language, as you heard from Senator Salazar 
earlier, was modeled on the Colorado law for ditches.
    The company's position is that we ought to be responsible 
for the damages we cause in the park. We're not trying to shirk 
that responsibility. But we don't think it's fair that we are 
obligated to this unlimited liability for actions which cause 
problems related to the ditch which are outside our control.
    Section 4[e][4][C] protects the possible future use of the 
Grand River Ditch and the water transported therein for the 
benefit of municipal shareholders. I'm not very long a veteran 
in the water business in Colorado, but I'm pretty certain that 
for more than 30 years ditch companies' shares have been 
acquired by municipalities with an eye to future use of water, 
and certainly I think that's the case in our situation as well.
    We would like to clear up any possibility of future 
disputes about that and that's why we've included some language 
here with the support of all the parties.
    We would also like to conclude by expressing our thanks to 
Senator Salazar and Senator Allard, Representatives Udall and 
Musgrave in particular, for working through some very difficult 
issues to arrive at a compromise solution which resolves this 
longstanding issue of wilderness designation for the park, but 
still protects the Grand Ditch, an important part of our 
company's agricultural heritage and northern Colorado's 
agricultural heritage.
    If possible, I'd like to have the opportunity to add 
comments to respond to some of the things we heard today at a 
later date. Thank you.
    [The prepared statement of Mr. Harmon follows:]
  Joint Prepared Statement of Dennis Harmon, General Manager, and Tom 
           Moore, President, Water Supply and Storage Company
    Good afternoon Chairman Akaka and members of the Subcommittee. We 
appreciate the opportunity to provide testimony to the Subcommittee 
concerning S. 1380, which would designate as wilderness portions of 
Rocky Mountain National Park (``RMNP'') administered by the National 
Park Service (``NPS'').
              background of wssc and the grand river ditch
    The Water Supply and Storage Company (``WSSC'') owns and operates 
the Grand River Ditch, which is a water supply ditch located in the 
Never Summer Range in RMNP. The Grand River Ditch provides irrigation 
water to approximately 40,000 acres of land located in Larimer and Weld 
Counties in northern Colorado. WSSC owns, operates and maintains eleven 
reservoirs and seven ditch systems, including the Grand River Ditch. 
WSSC's system of ditches, canals and laterals is more than 100 miles in 
total length and provides approximately 60,000 acre-feet of water 
annually to 173 shareholders.
    The Grand River Ditch is an integral component of the Water Supply 
and Storage Company system. The Ditch is located in the headwaters of 
the Colorado River on the West Slope of Colorado (i.e., west of the 
Continental Divide). The north segment or branch of the Grand River 
Ditch (sometimes referred to as the North Ditch) is approximately 17 
miles long and traverses a variety of creeks. Water from these creeks 
can either be diverted into the Ditch or can be released so that it 
continues to flow down these creeks to the Colorado River. A measuring 
weir and recorder for the Grand River Ditch is located near La Poudre 
Pass. A shorter branch of the Grand River Ditch (sometimes known as the 
Specimen Ditch or the Southern Ditch) also captures various waters and 
transports them to La Poudre Pass.
    At La Poudre Pass, water diverted by the Grand River Ditch crosses 
to the East Slope of Colorado (i.e., east of the Continental Divide) 
and flows to Long Draw Reservoir, which is located in Roosevelt 
National Forest. From Long Draw Reservoir, water is delivered down the 
Cache La Poudre River to WSSC's system of canals, ditches and laterals 
for agricultural purposes. Although a number of WSSC's shares are owned 
by municipalities, and water ultimately will be used by them for 
municipal purposes, water diverted by the Grand River Ditch is used 
exclusively to irrigate crops and water livestock at this time. The 
primary water right for the Grand River Ditch is decreed to divert 
waters from the Colorado River basin with an adjudication date of 
August 3, 1906 and an appropriation date of September 1, 1890 in the 
amount of 524.6 cfs (cubic feet per second of time).
    WSSC was incorporated as a Colorado mutual ditch company in 1891. 
Under Colorado law, the shareholders of a mutual ditch company own pro 
rata interests in the company's water rights and other facilities; 
therefore, a mutual ditch company is essentially a water distribution 
organization owned and operated by its shareholders and is not a 
profit-generating enterprise.
    WSSC holds a right-of-way for the Grand River Ditch under the 
Irrigation or General Right of Way Act of March 3, 1891 (``1891 Act'') 
codified at 43 U.S.C. Sec. Sec. 946-49. Construction on the Grand River 
Ditch began in 1891. The federal lands around the Grand River Ditch 
were included in the Medicine Bow Forest Reserve around the turn of the 
century, at which time they were administered by the fledging United 
States Forest Service. The Forest Service and WSSC entered into a 
stipulation concerning the operation and maintenance of the Grand River 
Ditch on March 21, 1907, which was required by a 1906 federal 
``amendatory regulation'' applicable to rights-of-way.
    RMNP was created in 1915, but did not include most of the land 
surrounding the Grand River Ditch at that time. In fact, the portions 
of Medicine Bow Forest Reserve that included the Never Summer Range and 
the land through which the Grand River Ditch flows were not included in 
RMNP until 1930. Thus, WSSC and the Grand River Ditch had existed for 
some 35 years prior to becoming part of RMNP.
                   the wilderness proposal in s. 1380
    S. 1380 proposes to designate significant portions of RMNP, 
including the area in which the Grand River Ditch is located, for 
inclusion as part of the National Wilderness Preservation System 
pursuant to the Wilderness Act of 1964. The bill was introduced by 
Senator Salazar and cosponsored by Senator Allard. A corresponding bill 
in the House of Representatives (H. 2334) also enjoys bipartisan 
sponsorship having been introduced by Representative Udall and being 
cosponsored by Representatives Musgrave, Salazar and Perlmutter. Two 
provisions of S. 1380 directly affect WSSC:

  <bullet>  Section 4(d)(1) specifically excludes from the boundaries 
        of the wilderness designation: ``[t]he Grand River Ditch 
        (including the main canal of the Grand River Ditch and a branch 
        of the main canal known as ``Specimen Ditch''), the right-of-
        way for the Grand River Ditch, land 200 feet on each side of 
        the marginal limits of the Ditch and any associated 
        appurtenances, structures, buildings, camps, and work sites in 
        existence as of June 1, 1998.
  <bullet>  Section 4(e)(4)(A)-(D) state:

    (A) Liability--Notwithstanding any other provision of law, or any 
            stipulation or applicable agreement, during any period in 
            which the Water Supply and Storage Company (or any 
            successor in interest to the Water Supply and Storage 
            Company with respect to the Grand River Ditch) operates and 
            maintains the portion of the Grand River Ditch within the 
            Park in compliance with an operations and maintenance 
            agreement between the Water Supply and Storage Company and 
            the National Park Service entered into on __, no individual 
            or entity who owns, controls, or operates the Grand River 
            Ditch shall be liable for any response costs or for any 
            damages to, loss of, or injury to the resources of the Park 
            resulting from any cause or event (including, but not 
            limited to, water escaping from any part of the Grand River 
            ditch by overflow or as a result of a breach, failure, or 
            partial failure of any portion of the Grand River Ditch, 
            including the portion of the ditch located outside the 
            Park), unless the damages to, loss of, or injury to the 
            resources are proximately caused by the negligence or an 
            intentional act of the individual or entity.
    (B) Limitation--Nothing in this section limits or otherwise affects 
            any liability of any individual or entity for damages to, 
            loss of, or injury to any resource of the Park resulting 
            from any cause or event that occurred before the date of 
            enactment of this Act.
    (C) Existing Activities--Nothing in this Act, including the 
            designation of the Wilderness under this section, shall 
            restrict or otherwise affect any activity (including an 
            activity carried out in response to an emergency or 
            catastrophic event) on, under, or affecting the Wilderness 
            or land excluded under subsection (d)(1) relating to the 
            monitoring, operation, maintenance, repair, replacement, or 
            use of the Grand River Ditch that was authorized or 
            approved by the Secretary as of the date of enactment of 
            this Act.
    (D) No Effect--Notwithstanding any other provision of any previous 
            or existing law, any stipulation, or any agreement, or 
            interpretation thereof, use of water transported by the 
            Grand River Ditch for a main purpose or main purposes other 
            than irrigation shall not terminate or adversely affect the 
            right-of-way of the Grand River Ditch, and such right-of-
            way shall not be deemed relinquished, forfeited, or lost, 
            solely because such water is used for a main purpose or 
            main purposes other than irrigation.
              explanation of the provisions affecting wssc
    WSSC has worked closely with Senators Salazar and Allard and 
Representatives Udall and Musgrave to draft language for the 
legislation that accomplishes the wilderness objectives of the bill and 
protects the interests of WSSC and its shareholders. WSSC is pleased to 
have this opportunity to explain the rationale of these particular 
sections to the Subcommittee.
    Excluding the Grand River Ditch and an area on either side of the 
Ditch allows WSSC to properly operate and maintain the Ditch including 
conduct of activities, such as operation of motorized mechanical 
equipment, otherwise not permitted in wilderness areas. Exclusion of 
200 feet on either side of the Ditch is the same as the land excluded 
to either side of RMNP roads.
    The liability provisions of Section 4(e)(4)(A)-(D) require 
additional background information. In 1990, Congress enacted the Park 
System Resource Protection Act (``PSRPA''), 16 U.S.C. Sec. 19jj. That 
Act imposes liability for damage caused to any park system resource:

          (a) In general. Subject to subsection (c), any person who 
        destroys, causes the loss of, or injures any park system 
        resource is liable to the United States for response costs and 
        damages resulting from such destruction, loss, or injury.
          (b) Liability in rem. Any instrumentality, including but not 
        limited to a vessel, vehicle, aircraft, or other equipment that 
        destroys, causes the loss of, or injures any park system 
        resource or any marine or aquatic park resource shall be liable 
        in rem to the United States for response costs and damages 
        resulting from such destruction, loss, or injury to the same 
        extent as a person is liable under subsection (a).

    Thus, the PSRPA purports to create a new standard of strict 
liability applicable to the Grand River Ditch notwithstanding that the 
Ditch had been in existence for nearly 100 years before enactment of 
the PSRPA.
    The 1907 Stipulation between the WSSC and the Forest Service (to 
which the NPS has succeeded) states that the Company shall ``pay the 
United States for any and all damages sustained by reason or use and 
occupation of said forest reserve by the Company, its successors and 
assigns, regardless of the cause and circumstances under which such 
damages shall occur.'' WSSC was required to execute this Stipulation by 
a federal regulation enacted in 1906, years after construction of the 
Grand River Ditch had commenced. Even after the Stipulation had been 
executed, it was essentially ineffective. Notwithstanding various 
breaches of the Grand River Ditch over the years, neither the Forest 
Service nor the NPS had ever sought to enforce the liability provision 
of the 1907 Stipulation set forth above until the NPS commenced an 
action under the PSRPA in response to a breach of the Ditch in May 
2003, which is discussed below.
    Imposition of a strict liability standard clearly may have the 
unintended consequence of severely and adversely affecting agricultural 
interests in northern Colorado. It is difficult to imagine that either 
the PSRPA or 1907 Stipulation intended to put farming interests in 
economic jeopardy, or potentially out of business, by making them 
liable for millions of dollars in damages for a harm that was not 
caused by their actions. WSSC certainly does not take lightly the 
potential for damage to RMNP resources; however, a fair balancing of 
the affected interests compels the conclusion that neither the PSPRA 
nor the 1907 Stipulation should impose liability without fault.
    Section 4(e)(4)(A) of S. 1380 rectifies the fundamental unfairness 
of a strict liability standard of relief, particularly when it is 
imposed on WSSC literally 100 years after construction of the Grand 
River Ditch commenced. Strict liability is an inappropriate standard of 
liability because it potentially makes WSSC liable for damages caused 
by events beyond its control such as naturally occurring landslides 
into the Ditch that, in turn, cause a breach event. WSSC, like other 
owners of private property potentially affecting federal property 
interests, should be subject to a negligence standard of liability or, 
in other words, liability for damages caused by the negligent conduct 
of WSSC. Negligence is the standard of liability imposed on ditch 
owners in under Colorado law, which is the reason it was proposed in S. 
1380.
    Section 4(e)(4)(A) includes an additional safeguard by requiring 
that the negligence standard of liability will apply only in the event 
that WSSC is in compliance with an Operating and Maintenance Plan 
(``O&MP'') to be entered into between it and the NPS. The parties have 
already exchanged drafts of the O&MP and are planning to meet in the 
next few weeks to discuss the drafts further. While some significant 
differences of opinion are evident in the documents exchanged to date 
(mostly related to the scope of the O&MP and the extent to which it 
should incorporate other legal regulations and standards by reference), 
WSSC continues to proceed on the basis that both parties will apply 
their best efforts to the negotiations and that a mutually acceptable 
document can be completed. WSSC, however, wishes to be clear that it 
does not support the wilderness legislation and does not believe the 
bill should become law in the absence of Section 4(e)(4)(A) and the 
negligence standard of liability permitted by it. Successful completion 
of the O&MP negotiations, therefore, is imperative and should be 
completed at the earliest possible date.
    WSSC believes that Section 4(e)(4)(B) was requested by the NPS to 
explicitly preserve its legal action against WSSC related to a breach 
of the Grand River Ditch in May 2003. Litigation related to this breach 
is pending presently in the U.S. District Court in Colorado. WSSC 
understands that this case is unaffected by S. 1380.
    Section 4(e)(4)(C) is similar in the sense of preserving and 
protecting ``existing activities'' related to the Grand River Ditch. In 
particular, this section recognizes and incorporates as an ``existing 
activity'' the fact that a significant number of the WSSC's shares are 
owned currently by Colorado municipalities and that water diverted by 
the Grand River Ditch will be used by them for municipal purposes. The 
inevitability of municipal use of a portion of the Grand River Ditch is 
clearly an ``existing activity'' within the scope of Section 
4(e)(4)(C). This section is very important to the municipal 
shareholders in WSSC and is also fundamental to WSSC's support for the 
wilderness legislation.
    Finally, Section 4(e)(4)(D) is intended to ensure, notwithstanding 
any case law arguably to the contrary, that the use of water 
transported in the Grand River Ditch will not be adversely affected, 
and that the right-of-way for the Ditch shall not be relinquished, 
forfeited or lost, because water diverted to the Ditch will be used for 
municipal purposes as opposed to agricultural irrigation. As noted 
above, the fact that shares of WSSC are owned by various municipalities 
is well known, and Congress should explicitly ensure that use of the 
Grand River Ditch water and right-of-way will be preserved at the time 
they are used for municipal purposes.
    Section 4(e)(4)(D) begins ``[n]otwithstanding any other provision 
of any previous or existing law'' because the 1891 Act under which 
WSSC's right-of-way was granted was repealed by the Federal Land Policy 
Management Act (``FLPMA''), 42 U.S.C. Sec. 1701 to 1785, but the 1891 
Act remained in effect with respect to rights acquired prior to October 
21, 1976, the effective date of FLPMA. See 43 U.S.C.A. Sections 1701, 
1769.'' Overland Ditch and Reservoir Co. v. United States Forest 
Service, No. Civ. A. 96 N 797, 1996 WL 33484927 (D. CO., Dec. 16, 1996) 
at *9, footnote 2. The reference to ``previous law'' expressly picks-up 
this legislative history and expressly preserves the integrity of 
WSSC's right-of-way.
                               conclusion
    The provisions of the S. 1380 discussed above directly and 
significantly affect WSSC and the Grand River Ditch and are critical to 
WSSC's support of the legislation. Each of these provisions has been 
discussed in detail and at length with the offices of Senators Salazar 
and Allard and Representatives Udall and Musgrave, all of whom 
contributed to the language of these sections prior to introduction of 
S. 1380 and H. 2334.
    Throughout its more than 100 years of existence, WSSC has worked 
diligently to be a good neighbor and property owner in RMNP. We believe 
that our working relationship with RMNP and the NPS has been good and 
productive over the years, and we anticipate that relationship will 
continue in the years to come.
    WSSC thanks the Subcommittee for the opportunity to present our 
views on S. 1380, and we would be pleased to respond to any questions.

    Senator Akaka. Thank you very much, Mr. Harmon.
    Now we'll hear from Dean Stoline.

  STATEMENT OF DEAN STOLINE, ASSISTANT DIRECTOR, LEGISLATIVE 
                COMMISSION, THE AMERICAN LEGION

    Mr. Stoline. Thank you, Mr. Chairman and members of the 
subcommittee. Thank you for giving me the opportunity to 
present on behalf of the 2.8 million members of the American 
Legion our views on S. 617. We commend the subcommittee for 
holding a hearing to discuss this important issue.
    The American Legion fully supports S. 617, a bill that 
provides that the fee for the purchase of an America the 
Beautiful National Parks and Federal Recreational Lands Pass be 
available at the annual cost of ten dollars to honorably 
discharged veterans with proper identification. America's 
military and its national parks have a shared history. In 1916 
the Department of the Interior asked the Army to detail troops 
to Yellowstone and the California parks to help manage them. 
Army military engineers and cavalrymen developed park roads and 
buildings, they enforced park regulations against hunting, 
grazing, timber cutting and vandalism, and these soldiers did 
their best to serve the people visiting those parks.
    The national park system has grown to 391 areas in nearly 
every State and U.S. possession. The National Park Service has 
a mission to support the preservation of natural and historic 
places and promote outdoor recreation through a range of 
programs. Included in its mission, the service has the honor of 
preserving many battlefields, military parks and historic sites 
that commemorate and honor the service of America's veterans.
    America recently honored its veterans by allowing them and 
their families free access to its national parks on Veterans 
Day. The American Legion feels it is now appropriate to create 
this new pass so that veterans and their families can enjoy 
these parks at a reduced annual fee during the other days of 
the year. This fee would honor our American veterans by 
allowing them to see these historical sites and enjoy these 
areas with their families and thus reaffirm the importance of 
our Nation's history of celebrating and remembering the past 
sacrifices and achievements of our men and women who put 
themselves in harm's way and fought in America's wars.
    The American Legion notes that the Park Service currently 
shares another link with our armed forces and veterans. In 
April of this year, the National Park Service hosted three 
representatives of Afghanistan's Ministry of Information, 
Culture, and Tourism. They are charged with the preservation 
and protection of their country's historic and cultural 
artifacts. The fact that the new government of Afghanistan 
could turn to the National Park Service for training on how to 
preserve their historical heritage was only made possible by 
America's Armed Forces and its veterans.
    America's national parks are one of the Nation's most 
precious treasures. They represent the vastness, biodiversity, 
beauty and strength of this great land. America asks her young 
people to serve in the Armed Forces to guard and defend freedom 
and our way of life. The selfless service of America's veterans 
provides millions of Americans the opportunity to pursue their 
recreational endeavors in peace and safety in our Nation's 
parks. Therefore, the American Legion fully supports the 
reduced fee for veterans as a fitting honor for these veterans 
who selflessly risked life and limb, not only in defense of the 
Constitution, but for the very land in which we live.
    The American Legion would recommend the Veterans Eagle Park 
Pass include the current discounts on use fees charged for 
facilities and services that is the same discount currently 
included in the Senior Pass.
    We further recommend that the law make clear that only a 
certified copy of the veterans' DD-214 needs to be provided to 
purchase this pass. The reason for this recommendation is that 
the DD-214 is an extremely important document that a veteran 
must not lose. It is the only document that entitles a veteran 
many rights, privileges, and benefits for the rest of the 
veterans life. Should a DD-214 be lost or compromised, it may 
cause irreparable harm to a veteran seeking benefits, or at 
least a long delay as the veteran's DD-214 is reconstructed and 
a new document is provided.
    We do not want a veteran to be required to carry an 
original DD-214 in order to purchase a pass because the 
original DD-214 rightfully belongs in safekeeping.
    The American Legion further recommends that the 
subcommittee consider amending this legislation to include this 
reduced annual fee be offered to current members of our Armed 
Forces in both the active and reserve components. The American 
Legion commends those Senators, including Senator Smith, 
Senator Burr, and Senator Craig, who spoke on that amendment 
today.
    The American Legion is happy to fully support S. 617 and 
all legislation that honors America's heroes.
    Mr. Chairman and members of the subcommittee that concludes 
my testimony. Thank you for the opportunity to present the 
American Legion's views on this issue.
    [The prepared statement of Mr. Stoline follows:]
  Prepared Statement of Dean Stoline, Assistant Director, Legislative 
                    Commission, The American Legion
    Mr. Chairman and Members of the Subcommittee, thank you for this 
opportunity to submit The American Legion's views on S. 617. The 
American Legion commends the Subcommittee for holding a hearing to 
discuss this important issue.
    The American Legion fully supports S. 617, a bill that provides 
that the fee for the annual purchase of an America the Beautiful--
National Parks and Federal Recreational Lands Pass be available, upon 
proper identification, to honorably discharged veterans at the cost of 
ten dollars.
    America's military and its National Parks have a shared history. In 
1916, the Department of the Interior was responsible for 14 national 
parks and 21 national monuments but had no organization to manage them. 
Department of Interior Secretaries asked the Army to detail troops to 
Yellowstone and the California parks for this purpose. Army military 
engineers and cavalrymen developed park roads and buildings. They 
enforced park regulations against hunting, grazing, timber cutting and 
vandalism. And these soldiers did their best to serve the people 
visiting these parks.
    In 1933, President Franklin D. Roosevelt initiated an executive 
transfer order. Under the order, effective August 10, 1933, the Park 
Service received the War Department's parks and monuments, the fifteen 
national monuments then held by the Forest Service and the national 
capital parks, including the Washington Monument, Lincoln Memorial and 
the White House. The addition of nearly 50 historical areas in the East 
made the park system and Park Service truly national and deeply 
involved with historic, as well as, natural preservation.
    The national park system has grown to 391 areas in nearly every 
state and U.S. possession. In addition to managing these parks--as 
diverse and far-flung as Volcanoes National Park in Hawaii and the 
Statue of Liberty National Monument--the National Park Service supports 
the preservation of natural and historic places and promotes outdoor 
recreation outside the system through a range of grant and technical 
assistance programs. Included in this preservation mission are 
significant historic battlefields associated with wars on American soil 
that is part of the American Battlefield Protection Program (ABPP).
    The ABPP promotes the preservation of significant American historic 
battlefields. The goals of the program are 1) to protect battlefields 
and sites associated with armed conflicts that influenced the course of 
our history, 2) to encourage and assist all Americans in planning for 
the preservation, management, and interpretation of these sites, and 3) 
to raise awareness of the importance of preserving battlefields and 
related sites for future generations. The ABPP focuses primarily on 
land use, cultural resource and site management planning, and public 
education.
    The National Park Service has the honor of preserving many 
battlefields, military parks and historic sites that commemorate and 
honor the service of America's veterans. The National Park Service 
currently honors American veterans by allowing all veterans free access 
on Veterans Day. Consequently, The American Legion feels the National 
Park Service should not resist allowing a reduced fee for the rest of 
the year. This reduced fee would honor our American veterans by 
allowing them to see these historical sites, enjoy these sites with 
their families and thus reaffirm the importance of our Nation's history 
of celebrating the past sacrifices and achievements of our men and 
women who put themselves in harm's way and fought in America's wars.
    The American Legion notes another link that the National Park 
Service currently shares with our armed forces and veterans. In April 
of this year the National Park Service hosted three representatives of 
Afghanistan's Ministry of Information, Culture and Tourism. They are 
charged with preservation and protection of their country's historic 
and cultural artifacts. The fact that the new government of Afghanistan 
could turn to the National Park Service for training on how to preserve 
their historical heritage was only made possible by America's armed 
forces and its veterans.
    America's National Parks are one of the nation's most precious 
treasures. They represent the vastness, biodiversity, beauty and 
strength of this great land. America asks her young people to serve in 
the armed forces to guard and defend freedom and its way of life. Their 
selfless service provides millions of their fellow citizens the 
opportunity to pursue their recreational endeavors in peace and safety 
in our nation's parks. Therefore, The American Legion fully supports 
the reduced fee for veterans as a fitting honor for these veterans who 
selflessly risked life and limb, not only in defense of the 
Constitution, but for the very land in which we live.
    The American Legion would recommend the Veterans Eagle Parks Pass 
include the current fifty percent discount on Federal use fees charged 
for facilities and services such as camping, swimming, parking, boat 
launching and specialized interpretive services. This provision is the 
same discount that is included in the America the Beautiful--National 
Parks and Federal Recreational Lands Senior Pass.
    We further recommend that the act make clear that only a certified 
copy of the veteran's DD-214 needs to be provided to purchase this 
pass. The reason for this recommendation is that the DD-214 is an 
extremely important document that a veteran must not lose. It is the 
only document that entitles a veteran many rights, privileges and 
benefits for the rest of the veteran's life. Should a DD-214 be lost it 
may cause irreparable harm to a veteran seeking benefits or at least a 
long delay as the veteran's DD-214 is reconstructed and a new document 
is provided. We do not want a veteran to be required to carry an 
original DD-214 in order to purchase a pass because the original DD-214 
rightfully belongs in safekeeping.
    The American Legion further recommends this Subcommittee consider 
amending this legislation to include that this reduced annual fee also 
be offered to current members of our armed forces in both the active 
and Reserve components.
    The American Legion is glad to support S. 617 and all legislation 
that honors America's heroes.
    Mr. Chairman and Members of the Subcommittee, this concludes my 
testimony. Thank you for the opportunity to present The American 
Legion's view on this bill.

    Senator Akaka. Thank you very much, Mr. Stoline.
    Now we'll hear from Heather Baker-Sullivan.

             STATEMENT OF HEATHER BAKER-SULLIVAN, 
 EXECUTIVE DIRECTOR, HUDSON-FULTON-CHAMPLAIN QUADRICENTENNIAL 
                    COMMISSION, KATONAH, NY

    Ms. Baker-Sullivan. Mr. Chairman and Senator Salazar, thank 
you for the opportunity to testify in support of S. 1148, to 
establish the Champlain Quadricentennial Commemorative 
Commission and the Hudson-Fulton Quadricentennial Commission, 
also known as the Hudson-Fulton-Champlain Quadricentennial 
Commemorative Commission Act of 2007.
    I am Heather Baker-Sullivan, Executive Director of the 
Hudson-Fulton-Champlain Quadricentennial Commission of New 
York. I would like to express my particular thanks to Senator 
Clinton for introducing the bill. Co-sponsors Senators Schumer, 
Lee, and Sanders also lent significant support to the 
legislation.
    I would like to begin my remarks with an explanation of the 
State commission and its mission and activities and then 
address the establishment of the Federal commissions and the 
helpful role they will play in assisting the State's efforts. 
New York State's Hudson-Fulton-Champlain Quadricentennial 
Commission was established in 2002 to plan and develop the 
400th anniversary celebrations of the voyages of discovery made 
by Henry Hudson and Samuel du Champlain, as well as the 200th 
anniversary of Robert Fulton's maiden steamship voyage on the 
Hudson River and the launch of a commercial steamship 
enterprise on the Hudson River.
    These individuals and events are exceptionally important to 
New York State history and are a focus of our 2009 anniversary 
commemoration. In addition to planning to anniversary, the 
State's Hudson-Fulton-Champlain Quadricentennial Commission 
will highlight the history and beauty of the Hudson River and 
Lake Champlain and the opportunities for cultural, community, 
and tourism enhancements along these waterways.
    Commission activities have included and will continue to 
entail making existing cultural institutions, museums, and 
libraries the focus of the commemoration, coordinating 
roundtable forums to seek public input for the commemoration, 
coordinating civic, educational, cultural, and heritage 
organizations to generate public interest and involvement, 
promoting and encouraging educational outreach programs, media 
and technology, including electronic communications, to draw 
national and international attention, coordinating the planning 
of commemorative events for all communities along the Hudson 
River, Lake Champlain, and other interested communities around 
the State, inviting other States and nations to participate in 
the commemoration, coordinating and promoting high-profile 
nongovernmental meetings, conferences, seminars, and 
conventions in the Hudson River and Lake Champlain communities 
using the Quadricentennial as a theme, seeking funding from 
private individuals, foundations, and corporations to help 
support capital improvements, preservation and conservation 
needs associated with events commemorating the 
Quadricentennial, coordinating and cooperating with State 
entities and tourism promotion agencies, coordinating and 
cooperating with local, State, and Federal entities, including 
those linked to heritage area promotion, and any Federal 
commission created to participate in the planning.
    The goals of the Federal legislation are consistent with 
the State commission and will help to establish our aims before 
a national audience. The purpose of establishing the Federal 
commissions may be summarized as to promote a suitable national 
observance, ensure an excellent visitor experience, assure that 
observances are inclusive, facilitate international 
involvement, assist in marketing efforts, specifically 
commemorative coins, stamps, etcetera, and coordinate with the 
Lake Champlain Basin Program and the Quebec 2008 Commission.
    S. 1148 explicitly states that, quote, ``Each commission 
established under this Act shall coordinate with the other 
respective commission established under this Act to ensure that 
commemorations of Henry Hudson, Robert Fulton, and Samuel du 
Champlain are consistent with the plans and programs of the 
commemorative commissions established by the States of New York 
and Vermont and are well organized and successful.''
    We look forward to collaborating with our Federal partners 
in delivering a commemoration which will highlight New York's 
and, by extension, the Nation's achievements before the world. 
The successful collaboration between State and Federal agencies 
we now witness in the Jamestown 2007 commemoration is a model 
we hope to emulate here. Clearly, the success in bringing 
Jamestown and the State of Virginia's story to the Nation has 
energized that State's citizens and brought about tangible 
improvements and achievements on a local, regional, and 
statewide level. That energy is already manifest in New York 
and here in the presence of David Vaco, a citizen of New York 
who is in passionate support of the legislation.
    Our commemoration also constitutes a rare and precious 
opportunity for our citizens to tell New York's stories beyond 
the State's border, to establish our pride of place in the 
Nation's history to a national and indeed international 
audience, and to spur us on to achievements of our own at home.
    Thank you.
    [The prepared statement of Ms. Baker-Sullivan follows:]
   Prepared Statement of Heather Baker-Sullivan, Executive Director, 
    Hudson-Fulton-Champlain Quadricentennial Commission, Katonah, NY
    I am Heather Baker-Sullivan, Executive Director of the Hudson 
Fulton Champlain Quadricentennial Commission of New York. I am thankful 
to the committee for the opportunity to testify in support of S.1148 to 
establish the Champlain Quadricentennial Commemorative Commission and 
the Hudson-Fulton Quadricentennial Commission, also known as the Hudson 
Fulton Champlain Quadricentennial Commemorative Commission Act of 2007. 
I would like to express my particular thanks to Senator Clinton for 
introducing the bill. Cosponsors Senators Schumer, Leahy and Sanders 
have also leant significant support to the legislation.
    I would like to begin my remarks with an explanation of the state 
Commission and its mission and activities, and then address the 
establishment of the federal commissions and the helpful role they will 
play in assisting the State's efforts.
    New York State's Hudson-Fulton-Champlain Quadricentennial 
Commission was established in 2002, to plan and develop the 400th 
anniversary celebrations of the voyages of discovery made by Henry 
Hudson and Samuel de Champlain, as well as the 200th anniversary of 
Robert Fulton's maiden steamship voyage along the Hudson River and the 
launch of the commercial steamship enterprise on the Hudson River. 
These individuals and events are exceptionally important in New York 
State history, and are the focus of the 2009 anniversary 
commemorations.
    In addition to planning the anniversary, the state's Hudson-Fulton-
Champlain Quadricentennial Commission will highlight the history and 
beauty of the Hudson River and Lake Champlain, and the opportunities 
for cultural, community, and tourism enhancements along these 
waterways.
    Commission activities have included, and will continue to entail:

  <bullet> Making existing cultural institutions, museums, and 
        libraries the focus of the commemoration.
  <bullet> Coordinating round table forums to seek public input for the 
        commemoration.
  <bullet> Coordinating civic, educational, cultural, and heritage 
        organizations to generate public interest and involvement in 
        developing the commemorative initiative.
  <bullet> Promoting and encouraging educational outreach programs, 
        media, and technology including electronic communications to 
        draw national and international attention to the 
        Quadricentennial.
  <bullet> Coordinating the planning of commemorative events for all 
        communities along the Hudson River, Lake Champlain, and other 
        interested communities around the state.
  <bullet> Inviting other states and nations to participate in the 
        commemoration.
  <bullet> Coordinating and promoting high profile, non-governmental 
        meetings, conferences, seminars, and conventions in Hudson 
        River and Lake Champlain communities using the Quadricentennial 
        as the theme.
  <bullet> Seeking funding from private individuals, foundations, and 
        corporations to help support capital improvements, 
        preservation, and conservation needs associated with events 
        commemorating the Quadricentennial.
  <bullet> Coordinating and cooperating with state entities and tourism 
        promotion agencies.
  <bullet> Coordinating and cooperating with local, state, and federal 
        entities including those linked to heritage area promotion and 
        any federal commission created to participate in the planning 
        of the Quadricentennial anniversary.

    The goals of the federal legislation are consistent with the state 
commission, and will help to establish our aims before a national 
audience. The purpose of establishing the federal commissions may be 
summarized as: to promote a suitable national observance; ensure an 
excellent visitor experience; assure that observances are inclusive; 
facilitate international involvement; assist in marketing efforts, 
specifically commemorative coins, stamp, etc. and coordinate with the 
Lake Champlain Basin Program and the Quebec 2008 commission. S. 1148 
explicitly states that ``Each commission established under this Act 
shall coordinate with the other respective commission established under 
this Act to ensure that commemorations of Henry Hudson, Robert Fulton, 
and Samuel de Champlain are--consistent with the plans and programs of 
the commemorative commissions established by the States of New York and 
Vermont, and are well-organized and successful.''
    We look forward to collaborating with our federal partners in 
delivering a commemoration which will highlight New York's, and by 
extension, the nation's achievements before the world.
    The successful collaboration between state and federal entities we 
now witness in the Jamestown 2007 commemoration is a model we hope to 
emulate here. Clearly, the success in bringing Jamestown and the State 
of Virginia's story to the nation has energized that state's citizens 
and brought about tangible improvements and achievements on the local, 
regional and statewide level. Our commemoration also constitutes a rare 
and precious opportunity for our citizens to tell New York's story 
beyond the state's borders, to establish our pride of place in the 
nation's story to a national and indeed, international audience and to 
spur us on to achievements of our own at home.
    Thank you for your time and the opportunity to speak in support of 
the legislation.

    Senator Akaka. Thank you very much.
    Now we'll hear from Tom Martin.

  STATEMENT OF TOM MARTIN, CHAIRMAN OF THE BOARD, LOOKING FOR 
          LINCOLN HERITAGE COALITION, SPRINGFIELD, IL

    Mr. Martin. Chairman Akaka, thank you for this opportunity.
    My name is Tom Martin. I am chairman of the board of the 
Looking for Lincoln Heritage Coalition, which is designated in 
S. 955 as the management entity for the Abraham Lincoln 
National Heritage Area. I'm a founding member of this 
organization and currently serve as the chairman of the board. 
My family operates a farming business comprised of over 6,000 
acres of grain production, conservation, wildlife habitat, and 
pasture acres. We are the sixth and seventh generation to farm 
this land, settled in 1815. This allows me to speak directly to 
the formation of this heritage area and its impact on private 
property.
    The Looking for Lincoln Heritage Area started in 1998 when 
the State of Illinois Department of Economic Development began 
a program to create Illinois heritage areas. We are a not-for-
profit corporation governed by a volunteer board of community 
and historic site representatives. In the year 2002, members of 
our board came to Washington to meet with the staff of the 
National Park Service to determine how our project could be 
recognized as a national heritage area. The information that we 
gathered during that visit was extremely helpful and provided 
valuable insights.
    The National Park Service challenged us to find a way to 
use the Lincoln story to create a much bigger canvas to 
interpret Lincoln's 19th century world, in other words to tell 
a bigger story. They also challenged us to complete a 
feasibility study. It was a very important and revealing 
exercise. In the process we looked at our resources, historic, 
natural, and cultural. We developed significant partners, both 
public and private.
    At the same time, we traveled throughout central Illinois 
talking to our constituents to understand how they could 
interact with the project. The list of resources we compiled is 
quite extraordinary. Our heritage area includes well over 30 
fully interpreted Lincoln-related historic sites and museums 
that are now open to the public on a regular schedule. In 
addition, we have over 100 sites on the National Register of 
Historic Places.
    The proposed 42-county area includes 6 rivers, 13 
significantly large parks, and more than 50 parks total. We 
also have a site on UNESCO's World Heritage List and a growing 
Illinois heritage program that is exploring the Underground 
Railroad.
    Once those resources were identified, we went back to the 
first challenge from the National Park Service and developed 
themes that touched on the major issues of Lincoln's America, 
themes that could be told effectively by using this assembly of 
resources. In other words, we learned to tell a much bigger 
story, one that interprets Lincoln's 19th century world.
    Our feasibility study also offers a list of partners in 
this effort that includes the Illinois Department of Economic 
Opportunity, the Illinois Bureau of Tourism, the Illinois 
Historic Preservation Agency, the Lieutenant Governor's Office 
of Rural Affairs, and 20-plus organizations, both public and 
private, that not only support us in the effort to become a 
national heritage area, but are currently working with us on a 
number of other projects.
    As for public participation, we are a grassroots program. 
Our success depends on the active participation of each and 
every community and its members, who are encouraged to tell 
their own unique story. Our job is to support these communities 
and to help them with whatever they need to tell their stories 
and help develop their programs.
    We have community support because they see results. We are 
working with communities and historic sites to build projects, 
assist with interpretive programs and develop coalitions and 
partnerships. We are helping create visitor experiences from 
wonderful stories that weren't being interpreted and then 
linking all of them together, which enables us to create a more 
complete picture of Lincoln's 30 years in central Illinois.
    We identified partners and brought them to the table. We 
are the facilitator for several collaborative projects based on 
the themes that we have identified. Plus we are marketing those 
places that are ready for visitors, including the Lincoln Home 
National Historic Site, 14 Illinois Historic Preservation 
Agency Lincoln sites, and 17 private sites, all open to the 
public and providing crucial pieces of the Lincoln era story.
    In conclusion, we have completed the National Park Service 
four critical steps. We have written a feasibility study that 
successfully addresses all of the 10 National Park Service 
criteria for assessing a potential national heritage area. We 
have actively and aggressively involved the public so we can 
demonstrate widespread public support. We have an impressive 
list of key constituents, including governments, private and 
nonprofit organizations that not only support the creating of a 
national heritage area, but actively are participating in 
current heritage area projects.
    Finally, I am not here today asking you to help us start a 
heritage area. We have worked very hard for 9 years to become a 
heritage area. However, I am asking you to take us to the next 
step and designate us as the Abraham Lincoln National Heritage 
Area.
    Thank you.
    [The prepared statement of Mr. Martin follows:]
 Prepared Statement of Tom Martin, Chairman of the Board, Looking for 
              Lincoln Heritage Coalition, Springfield, IL
    Good Afternoon. My name is Tom Martin and I am the Chairman of the 
Board of the Looking for Lincoln Heritage Coalition, which has been 
designated in S. 955 as the management entity for the Abraham Lincoln 
National Heritage Area. Since I am actively involved in this Looking 
for Lincoln Heritage Project, I would like to share a little of our 
history as well as provide the justification for creating the Abraham 
Lincoln National Heritage Area. Before I start I would like to thank 
Senator Durbin and the entire Illinois delegation for their support of 
this project.
    The Looking for Lincoln Heritage Area started in 1998 when the 
State of Illinois Department of Economic Development began a program to 
create Illinois heritage areas. We are a not-for-profit corporation 
governed by a volunteer board of community and site representatives. 
This heritage area has no impact on public property. We are not 
interested in managing, owning or influencing the use of public or 
private lands. All participation is voluntary.
    In 2002, members of our board came to Washington to meet with staff 
from the National Park Service to determine how our project could be 
recognized as a national heritage area. The information that we 
gathered during that visit was extremely helpful and provided valuable 
insights.
    The National Park Service challenged us to find a way to use the 
Lincoln story to create a much broader canvas to interpret Lincoln's 
nineteenth-century world--in other words, to tell a bigger story.
    They also challenged us to complete a Feasibility Study. It was a 
very important and revealing exercise. In the process we looked at our 
resources--historic, natural and cultural. We developed significant 
partners--both public and private. At the same time we traveled 
throughout central Illinois talking to our constituents to understand 
how they could interact with the project.
    The list of resources we compiled is quite extraordinary. Our 
heritage area includes well over 30 fully interpreted Lincoln-related 
historic sites and museums that are open to the public on a regular 
schedule. In addition, we have over 100 sites on the National Register 
of Historic Places. The proposed 42 county area includes 6 rivers, 13 
significantly large parks, and more than 50 parks total. We also have a 
site on UNESCO's World Heritage List and a growing Illinois heritage 
program that is exploring the Underground Railroad.
    Once those resources were identified, we went back to the first 
challenge from the National Park Service and developed themes that 
touched on the major issues of Lincoln's America--themes that could be 
told effectively by using this assemblage of resources. In other words 
we learned to tell a bigger story--one that interprets Lincoln's 
nineteenth-century world.
    Our Feasibility Study also offers a list of partners in this effort 
that includes the Illinois Department of Economic Opportunity, the 
Illinois Bureau of Tourism, the Illinois Historic Preservation Agency, 
the Lieutenant Governor's Office of Rural Affairs and twenty plus 
organizations, both public and private, that not only support us in the 
effort to become a national heritage area, but are currently working 
with us on a number of projects.
    As for public participation, we are a grass-roots program. Ask all 
of the many government officials, chamber of commerce members, 
historical society committees and individuals that we have worked with 
over the last nine years. They will tell you that we have their 
support.
    We have community support because they see results. We are working 
with communities and historic sites to build projects, assist with 
interpretive programs and develop coalitions and partnerships. We are 
helping create visitor experiences from wonderful stories that weren't 
being interpreted. We identified partners and brought them to the 
table. We are the facilitator for several collaborative projects based 
on the themes that we have identified. Plus we are marketing those 
places that are ready for visitors including the Lincoln Home National 
Historic Site, 14 Illinois Historic Preservation Agency Lincoln Sites 
and 17 private sites--all open to the public and providing crucial 
pieces of the Lincoln-era story.
    In conclusion, we have completed the National Park Service ``Four 
Critical Steps.'' We have written a Feasibility Study that successfully 
addresses all of the ten National Park Service criteria for assessing a 
potential national heritage area. We have actively and aggressively 
involved the public, so we can demonstrate widespread public support. 
We have an impressive list of key constituents including governments, 
private and non-profit organizations that not only support the creating 
of a national heritage area, but are actively participating in current 
heritage area projects.
    Finally, I am not here today asking you to help us start a heritage 
area. We've worked hard to become a heritage area. However, I am asking 
you to take us to the next step and designate us as the Abraham Lincoln 
National Heritage Area.
    The proposed Abraham Lincoln National Heritage Area had its origins 
in 1998 when the project was officially designated as one of seven 
Heritage Tourism programs funded by the Illinois Department of Commerce 
and Community Affairs (DCCA). The Looking for Lincoln Heritage Project 
set out immediately to identify resources and involve communities in 
central Illinois where Abraham Lincoln left his traces on the 
``physical and imaginative landscape.'' Among the sites identified were 
the Lincoln Home National Historic Site, and many State Historic Sites 
(managed by the Illinois Historic Preservation Agency), numerous sites 
connected with Lincoln's work as a lawyer and politician, places and 
scenes familiar to Lincoln's family and associates, and a variety of 
other natural, historic, and cultural resources.
    Representatives from the participating Looking for Lincoln 
communities and sites met to initiate the public planning process and 
formed Executive and Steering Committees to guide their work. Committee 
members hired a part-time staff person to help coordinate the planning 
process. County and municipal governments became involved with the 
project. A key participant was the Illinois Historic Preservation 
Agency (IHPA), which provided the project with two professional 
historians and additional leadership through an executive appointed to 
the planning committee.
    Public involvement was a significant part of the planning process, 
which began to shape the initiative. Following a series of local 
meetings, a vision and goal statement was developed: to provide new 
insights into Lincoln's life, work, friends, and family; to preserve 
and enhance each community's history and culture; and, to enhance the 
educational and economic benefit to the public.'' It became clear from 
these initial meetings that the scope of the project should be 
broadened to emphasize the preservation and interpretation of the 
natural landscape and the region's cultural traditions as a natural 
context for the story of Lincoln and his generation of Americans. This 
prompted project leaders to begin to explore the concept of National 
Heritage Areas.
    A National Heritage Area was envisioned initially for the central 
Illinois region, with the National Park Service's Lincoln Home National 
Historic Site and the future Abraham Lincoln Presidential Library and 
Museum serving as a central hub for the area. The concept began to 
present a picture of what the region and each community and site within 
the region could accomplish through a coordinated program focused on 
telling the Lincoln story and preserving remnants of the physical and 
cultural landscapes of Lincoln's America for the education and 
enrichment of future generations.
    Looking for Lincoln, as it was now called, compiled an inventory of 
related resources . . . natural, historic, and cultural, created a 
regional map identifying the proposed boundary for the project, 
commissioned a graphic artist to design a logo, and produced an 
informational brochure.
    During the first year of the public planning process, IHPA 
historians helped local communities research their connections to 
Lincoln and his times and to create a database of natural, historical, 
and cultural resources to be preserved, enhanced, and interpreted. The 
project also hired the planning and design firm of Peckham, Guyton, 
Albers and Viets, Inc., from St. Louis to create an Interpretive 
Standards Manual and Implementation Plan containing historical criteria 
and design and construction specifications for a variety of exhibits 
and wayside signage. As new communities expressed a desire to 
participate in the Looking for Lincoln project, the manual became an 
important tool in outlining the criteria and standards for 
participation.
    The Looking for Lincoln Illinois heritage area was begun eight 
years ago with an assemblage of Lincoln-related historic sites and 
resources that allowed the project to make a strong start. Those sites 
along with the opening of the Abraham Lincoln Presidential Library and 
Museum and the creation of new sites and collaborative programs assure 
that this project will continue to grow. Looking for Lincoln has been 
supported during the eight years of its existence by a variety of 
public and private resources. The Illinois Department of Commerce and 
Economic Opportunity provides administrative funding and the Illinois 
Historic Preservation agency contributes crucial in-kind services 
including some overhead and significant consulting services. In 
addition, the Abraham Lincoln Presidential Library and Museum has 
partnered with Looking for Lincoln on a number of projects. Other 
public and private institutions have also contributed. The 
relationships have developed over the last eight years and Looking for 
Lincoln has become an interregnal part of their outreach efforts. This 
significant level of support has allowed Looking for Lincoln to 
concentrate on working directly with key constituents and to develop 
and enhance new tourism product, establish collaborative programs and 
assure the continuing quality standards that has made the effort 
successful so far. All signs indicated that the support we have been 
receiving will continue. As Looking for Lincoln creates more sites and 
projects, future stability will be reinforced as the potential for 
membership and fee for service programs increases.
    Over the past eight years Looking for Lincoln has continued to 
refine and extend its public planning process through outreach and 
participation with local citizens, community leaders, and local 
governments throughout the central Illinois area, conducting a series 
of introductory and follow-up planning meetings. The purpose has been 
to help initiate local public planning process, to share information 
about the project, and to assure that communities and sites interested 
in participating will have the tools and information necessary to begin 
their planning. In some cases the gatherings have been simply 
informational; in at least three instances Looking for Lincoln provided 
strategic planning assistance; and in other cases, Looking for Lincoln 
representatives presented information to elected officials. In all of 
these meetings, the importance of understanding and conforming to the 
standards and criteria developed for the program has been stressed to 
local leaders so that they can incorporate the standards and criteria 
in their local detailed planning from the beginning. These outreach and 
strategic planning meetings with local community leaders continue to be 
a fundamental aspect of the Looking for Lincoln program.
    In the early stages, Looking for Lincoln, tended to focus on single 
projects and strategic planning for individual communities. While this 
approach benefited each participant it tended to isolate the progress 
to individual areas and consumed a great deal of time. In addition, 
other communities were not aware of successes because Looking for 
Lincoln was not doing an effective job of communicating that 
information. And because the effort was not collaborative our partners 
were not seeing results from the work that was being done. When we 
tackled the challenge of bringing the Lincoln Douglas Debate 
communities together we began a successful process that has become a 
model for future endeavors.
    With the Sesquicentennial of the Lincoln Douglas Debates 
approaching in 2008, Looking for Lincoln volunteered to bring the seven 
debate communities together to discuss the potential of a cooperative 
effort. Looking for Lincoln's role became that of a facilitator 
bringing the right players to the table, both public and private, 
managing the meetings and offering suggestions without dictating the 
program. It has been an extremely successful effort for everyone 
concerned. The communities developed their own project and took 
responsibility for it, and Looking for Lincoln learned a great deal 
from the experience. This collaborative approach has also encouraged 
constructive competition among the communities involved which means 
that ideas tend to be pushed to an even higher level. The result is a 
plan for achievable and realistic commemoration events that include an 
analysis of how the arguments were framed during the debates and how 
the debates influenced thinking on major issues of the time. Finally, 
each community is planning a legacy project which will improve and 
enhance their sites to ultimately provide visitors with an educational 
and informative experience far beyond the current commemorative statues 
that exist now.
    Based on the success of the Lincoln-Douglas debate project, Looking 
for Lincoln has adopted a new approach by focusing on several wide-
scale inclusive projects. For example, plans are in process for a 
program which will include all of the communities within the 8th 
Judicial Circuit. The Circuit changed during Lincoln's years as a 
lawyer, encompassing 17 counties in all. The geographic area covers a 
large part of the proposed National Heritage Area. Communities range in 
size from urban environments like Springfield and Bloomington to rural 
settings like Havana and Paris. While Lincoln the lawyer is the 
unifying theme of this project, the real opportunity is using this 
journey to present a much wider story encompassing the culture, 
environment, landscapes and issues that influenced the people of 
Illinois in the 19th Century and certainly influenced Lincoln as he 
traveled throughout Illinois and matured as a political leader.
    Another project taking a new approach involves wayside exhibits. A 
major part of the original Interpretive Standards Manual and 
Implementation Plan provides specifications and criteria for creating 
wayside exhibits. The City of Springfield, using additional federal 
funds, created 41 interpretive storyboards throughout the downtown area 
to demonstrate to other communities the potential of wayside projects. 
The concept is to link Illinois' many Lincoln-related historic sites 
with a graphic identity that helps visitors visually connect the 
stories. While these wayside exhibits have a common graphic look, each 
community can maintain the integrity of their own history. The graphic 
panels are designed to tell two stories--one specific to Lincoln and 
one that puts Lincoln into a bigger context and tells a larger story. 
Through another federal grant and by leveraging local dollars, we have 
been able to offer the opportunity to install these wayside exhibits in 
all of the communities in our project for a significantly reduced cost. 
It is yet another way of fostering important community relationships.
    The goal of the Looking for Lincoln project is to help communities 
recognize, develop and respect their history and to help them find ways 
to share that history with others. When the story is told affectively 
and the interpretation becomes an experience for visitors, then Looking 
for Lincoln begins the marketing process. In the first year Looking for 
Lincoln started with a simple map, but have now graduated to a visitor 
guide. The web is also an important component as well as joint 
marketing efforts with the Illinois Bureau of Tourism. Looking for 
Lincoln relies on cross promoting among sites and particularly with the 
Abraham Lincoln Presidential Museum and the state sponsored visitor 
centers. The Illinois Bureau of Tourism has also included us in their 
public relations activities. We anticipate that this effort will be 
ramped up as the Bicentennial approaches.
    As the Looking for Lincoln program has gained experience and 
momentum, its planning and accomplishments to date have already served 
to demonstrate the value of this comprehensive project to the entire 
nation--and indeed the world. This study documents the feasibility of 
establishing an Abraham Lincoln National Heritage Area. Included are 
inventories documenting many of the region's natural, historic, and 
cultural resources, and an analysis of their potential to preserve and 
interpret a by-gone era and way of life significant in the development 
of the United States. The study also identifies a local coordinating 
entity (Looking for Lincoln Heritage Coalition, a not-for-profit 
501(c)3 corporation), defines the area to be included, and documents 
the support of the project's partners.
    Central Illinois, the heart of the ``Land of Lincoln,'' still 
echoes with historic themes from Lincoln's America. Portions of the 
natural landscape remain to be preserved or restored. Inherited 
folkways and cultural traditions are still practiced and transmitted to 
younger generations. And the burning issues of Lincoln's day--race 
relations and national unity amidst social and cultural diversity--
remain to be addressed. In short, much of Lincoln's nineteenth-century 
world remains to be preserved, interpreted, and transmitted to future 
generations in an Abraham Lincoln National Heritage Area.
                              major themes
A. The major issues of Lincoln's America.
The major issues of Lincoln's America--equality and race relations, and 
national unity and the capacity of democratic governments to deal with 
the centrifugal forces of social and cultural diversity--still define 
the challenges facing our nation today.

  <bullet> Equality and Race Relations Equality and race relations were 
        at the heart of the moral, economic, and social turmoil caused 
        by slavery in Lincoln's America. The inability of democratic 
        government and the political culture of the time to mediate 
        between conflicting moral visions was at the heart of the Civil 
        War. The historic resources that visitors encounter throughout 
        the Abraham Lincoln National Heritage Area provide a forum for 
        today's Americans to reconsider these vital contemporary issues 
        in a historical context, allowing perhaps for new perspectives 
        and fresh approaches.
  <bullet> National unity and the capacity of democratic government and 
        ideals to deal with the centrifugal forces of social and 
        cultural diversity. In many ways, the Civil War resulted from a 
        failure by Americans of that day to overcome the divisive 
        forces of diversity in their culture. Americans today, 
        challenged anew with sustaining a workable political, social, 
        and cultural consensus despite the countervailing forces of 
        diversity, may have much to learn from the attitudes and 
        actions of the Civil War generation. Americans today may 
        contemplate this challenge as they encounter the life 
        experiences of people from Lincoln's era at sites throughout 
        the proposed National Heritage area.

B. Lincoln's life experience reflects many important themes in the 
social, cultural, economic, and political history of America.
Historic resources related to these themes are found throughout the 
entire proposed National Heritage area. But various Looking for Lincoln 
communities, originally designated in the state heritage program, 
provide examples of how communities can be loosely identified with 
certain historical themes:

  <bullet> Decatur Area--Immigrant Beginnings
  <bullet> New Salem and Petersburg Area--Market Revolution and 
        Economic Transformations
  <bullet> Coles County Area--Importance of Extended Family and Kinship 
        Network
  <bullet> Vandalia Area--Expansion of American Participatory Democracy
  <bullet> Bloomington Area--Frontier Aspirations for Middle-Class 
        Respectability
  <bullet> Logan County Area--The Evolution of American Legal Culture
  <bullet> Springfield Area--Individual Self-Transformation and the 
        ``Self-Made'' Ethos
                            major resources
    The proposed Abraham Lincoln National Heritage Area is replete with 
significant natural, historic, and cultural resources.
    Cutting across the physical landscape of the region are three 
National Scenic By-Ways--the Great River Road, the Meeting of the Great 
Rivers, and the National Road; a National Scenic River--The Middle Fork 
in Vermilion County; two National Natural Landmarks and over fifty 
other state parks, wildlife preserves, conservation areas, and 
wilderness county park districts. All of these places preserve portions 
of the Illinois landscape and afford visitors an opportunity to 
experience the physical environment of rivers, woodlands, and prairies 
that were familiar to Abraham Lincoln and his generation of Americans.
    Over a quarter of the 426 sites on the National Register of 
Historic Places scattered throughout the 42 counties making up the 
proposed National Heritage Area are related to historical themes from 
Lincoln's nineteenth-century America, including a unit of the National 
Park System--Lincoln Home National Historic Site, eleven National 
Historic Landmarks, sixteen State Historic Sites, and a site on the 
UNESCO World Heritage List. The burning issues of Lincoln's day--race 
relations and national unity amidst social and cultural diversity-still 
remain, and are confronted in a number of different venues.
    Various sites give visitors insight into important themes relating 
to nineteenth-century social, cultural, economic and political history-
immigration, economic transformation, kinship networks, political 
democratization, the rise of middle-class gentility in the American 
West, the evolution of legal culture, and the American ethos of 
individual self-transformation. Today's cultural landscape still 
reflects nineteenth-century antecedents as people throughout the area 
continue to celebrate their inherited cultural traditions in religious 
settings, living history farms and villages, annual commemorative 
events, celebrations of itinerant lawyer life, recognition of 
indigenous American Indian cultures, and in sculpture, art, and drama.
    The rich assemblage of resources provides outstanding opportunities 
to preserve, interpret, and commemorate distinctive historic 
traditions, customs, beliefs, and folkways that present valuable 
aspects of American heritage. They provide outstanding recreational and 
educational opportunities to the people of the nation and beyond. The 
people, communities, events, and landscapes of the region reflect 
continuing ties to Abraham Lincoln's life and times. Together they 
bring an immediacy and tangible quality to the powerful Lincoln legacy. 
Individually and collectively they constitute the Abraham Lincoln 
National Heritage Area, celebrating the land and people Lincoln knew. 
It is therefore recommended that Looking for Lincoln pursue National 
Heritage Area designation.
The proposed Abraham Lincoln National Heritage Area:
  <bullet> Is undeniably a story with national and international 
        significance
  <bullet> Offers many Lincoln-related thematic connections that can 
        support a multitude of interpretive and educational programs.
  <bullet> Is made up of communities that represent distinctive aspects 
        of Lincoln heritage, worthy of recognition and interpretation
  <bullet> Provides outstanding opportunities to conserve natural, 
        historic and cultural resources.
  <bullet> Provides the framework of interpreting the American 
        experience of the 19th century at a time that was significant 
        in the development of our Nation.
Looking for Lincoln has:
  <bullet> Based on the guidance provided by the National Park Service, 
        taken a Lincoln-focused tourism project and shaped a heritage 
        area by expanding that focus to include the forces of the 19th 
        century on Lincoln and his influence on the political, cultural 
        and economic history of America.
  <bullet> Been supported by Illinois State Agencies including the 
        Illinois Historic Preservation Agency and the Illinois 
        Department of Commerce and Economic Opportunity, as well as the 
        Lincoln Home National Historic Site. Other supporting public 
        and private agencies can be found in the Addendum to this 
        report.
  <bullet> Obtained demonstrations of support for national designation 
        from local and state partners and indications of willingness to 
        maintain a working relationship and continue support for 
        Looking for Lincoln in the development of a National Heritage 
        Area.
  <bullet> Through a series of community meetings, local strategic 
        planning exercises and collaborative projects has involved 
        residents, business interests, non-profit organizations, and 
        various levels of government in programs and in the planning 
        process.
  <bullet> Created a conceptual boundary map which has been shared with 
        and supported by the Public.
  <bullet> Agreed to continue as the management entity for the proposed 
        National Heritage Area and to manage the process for creating a 
        long-range Management Plan as the first step of designation.
        looking for lincoln participating communities and sites
    The following communities and historic sites are currently 
participating in Looking for Lincoln Heritage Coalition promotional 
programs:

  <bullet> City of Beardstown--Cass County, Lincoln Court House
  <bullet> Cities of Bloomington Normal--McLean County, David Davis 
        Mansion State Historic Site, McLean County History Museum 
        Walking Tour
  <bullet> Cities of Charleston and Lerna--Coles County, Charleston 
        Debate Museum, Lincoln Log Cabin State Historic Site, Reuben 
        Moore State Historic Site, Shiloh Cemetery State Historic Site
  <bullet> City of Danville--Vermilion County, Dr. Fithian Home, 
        Vermilion County Historical Museum
  <bullet> City of Decatur--Macon County, Macon County Historical 
        Museum Complex
  <bullet> City of Elkhart--Logan County, Under the Prairie 
        ArcheologicalMuseum
  <bullet> City of Galesburg--Knox County, Carl Sandburg State Historic 
        Site, Knox College Old Main
  <bullet> City of Lincoln--Logan County, Postville Courthouse State 
        Historic Site, Lincoln College and Museum
  <bullet> City of Mahomet--Champaign County, Early American Museum
  <bullet> City of Metamora--Woodford, Metamora Courthouse State 
        HistoricSite
  <bullet> City of Mt. Pulaski--Logan County, Mt. Pulaski Courthouse 
        State Historic Site, Mt. Pulaski Historical Society Museumand 
        Welcome Center
  <bullet> City of Petersburg--Menard County, New Salem State Historic 
        Site, Menard County Historical Society Museum and exhibit
  <bullet> Pittsfield--Pike County, The Talking Houses of Pittsfield, 
        Shasdid House
  <bullet> City of Springfield--Sangamon County, Abraham Lincoln 
        Presidential Library and Museum, Old State Capitol State 
        Historic Site, Lincoln Law Offices State Historic Site, Lincoln 
        Tomb State Historic Site, Lincoln Depot (Great Western Depot), 
        Lincoln Home National Historic Site, Here I have lived walking 
        tour
  <bullet> City of Taylorville--Christian County, Christian County 
        Historical Museum
  <bullet> City of Vandalia--Fayette County, Vandalia Statehouse State 
        Historic Site

    The following sites are part of a special LFL Debate Project:

  <bullet> Lincoln Douglas Debate Sites, City of Alton--Madison County, 
        City of Quincy--Adams County, City of Jonesboro Union County, 
        City of Freeport--Stephenson County, City of Ottawa--LaSalle 
        County, City of Galesburg--Knox County, City of Charleston--
        Coles County
  <bullet> City of Chicago--Cook County, Chicago Museum of History
 public and private partners currently involved in looking for lincoln 
                         heritage area projects
  <bullet> Illinois Department of Commerce and Economic Opportunity, 
        Jack Lavin, Director
  <bullet> Illinois Bureau of Tourism, Jan Kostner, Deputy Director, 
        Jan Kemmerling, Assistant Deputy Director
  <bullet> Illinois Historic Preservation Agency, Robert Coomer, 
        Director, Paula Cross, Superintendent of Historic Sites, Thomas 
        Schwartz, State Historian
  <bullet> Lieu. Governor's Rural Affairs Council, Carolyn Brown Hodge, 
        Director of Rural Affairs
  <bullet> Abraham Lincoln Presidential Library and Museum, Rick Beard, 
        Executive Director and Director Library Foundation, Jennifer 
        Tirey, Deputy Director, Bryon Andreasen, Presidential Library 
        Historian
  <bullet> Abraham Lincoln Presidential Library Foundation, Susan 
        Mogerman, Chief Operating Officer
  <bullet> Illinois Bicentennial Commission, Kay Smith, Director
  <bullet> National Park Service Lincoln Home National Historic Site, 
        James Sanders, Superintendent
  <bullet> Illinois Association of Museums, Mary Turner, Executive 
        Director
  <bullet> Illinois Department of Conservation--Illinois State Museum, 
        Karen Witter, Associate Museum Director
  <bullet> Illinois Mainstreet, Wendy Bell, Director
  <bullet> Knox College Lincoln Study Center, Rodney O. Davis and 
        Douglas L. Wilson, Co-directors
  <bullet> Papers of Abraham Lincoln, Daniel Stowell, Director
  <bullet> Illinois Department of Transportation, Terry Fountain, 
        District Engineer
  <bullet> Illinois Elderhostel--Lincoln Land Community College Senior 
        Outreach, John Allen
  <bullet> Illinois Tourism Alliance, Nina Winston, Executive Director
  <bullet> Lincoln Douglas Society, Edward Finch, President
  <bullet> Stephen A. Douglas Association, George Buss, President
  <bullet> The Abraham Lincoln Association, Dick Hart, President
  <bullet> Illinois High School Association, Mary Hickman, Ed.D., 
        Executive Director

    Senator Akaka. Thank you. Thank you very much, Mr. Martin.
    Now we'll hear from Charlene Cutler, Perkins Cutler.

 STATEMENT OF CHARLENE PERKINS CUTLER, EXECUTIVE DIRECTOR AND 
        CEO, QUINEBAUG-SHETUCKET HERITAGE CORRIDOR, INC.

    Ms. Perkins Cutler. Mr. Chairman, Senator Salazar, thank 
you for the opportunity to offer testimony in support of S. 
1182, to amend the Quinebaug and Shetucket River Valley 
National Heritage Corridor Act of 1994. For the record, we call 
it the last green valley.
    I ask that our document, ``The Trail to 2015: A 
Sustainability Study,'' be entered in its entirety into the 
record of the committee.
    Senator Akaka. It will be included in the record.
    Ms. Perkins Cutler. Thank you.
    I will not reiterate my written testimony because I know 
you are very short on time, but I want to emphasize that it is 
our intent to be self-sustaining and not needing Federal 
funding by the year 2015. I believe we're the first national 
heritage corridor to express that intent.
    You may recall, Mr. Chairman and Senator Salazar, that I 
did testify to virtually the same bill last year and entered 
this sustainability plan into the record at that time.
    If I might speak to the two points brought up by Ms. 
Stevenson from the Park Service, I realize that this is 
preempting our sunset by 2 years--3 years, last year, and the 
reason for that is very simple. We are in a very rural area. 
Part of our sustainability plan is the development of a 
permanent fund to sustain our work. We need to launch a major 
and a very lengthy capital campaign.
    The success of that campaign will depend on us having the 
continued faith shown by the authorization as a national 
heritage area through that period of time. So we're anxious to 
get that under way, but we don't want it to be short-circuited 
in 2 years with the sunset of our authorization.
    Also, we have had this plan done now for a year and a half. 
It has been in various offices of the National Park Service for 
that period of time. We welcome their evaluation and their 
comments on it absolutely. I haven't had any comments. I didn't 
realize they were going to make an evaluation until just last 
Friday. I would hate to have that hold up our reauthorization 
at this point because it's really critical that we get on to 
this next level to become self-sustaining.
    I am very thankful to Senator Dodd for introducing the 
amendment, and for the support of Senators Kennedy, Kerry, and 
Lieberman in this piece of legislation, and for their support 
of our work.
    I am pleased to answer any questions that you might have.
    [The prepared statement of Ms. Perkins Cutler follows:]
 Prepared Statement of Charlene Perkins Cutler, Executive Director and 
            CEO, Quinebaug-Shetucket Heritage Corridor, Inc.
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to offer testimony on S. 1182, to amend the Quinebaug and 
Shetucket Rivers Valley National Heritage Corridor Act of 1994. I am 
the executive director and CEO of Quinebaug-Shetucket Heritage 
Corridor, Inc., the grassroots nonprofit designated as management 
entity for the Quinebaug and Shetucket Rivers Valley National Heritage 
Corridor.
    I ask that our document, The Trail to 2015, a Sustainability Plan,* 
be entered in its entirety into the record of this Subcommittee.
---------------------------------------------------------------------------
    * Document has been retained in committee files.
---------------------------------------------------------------------------
    To summarize that document, I am pleased to say that Quinebaug-
Shetucket Heritage Corridor, Inc. has been very successful in its work 
to date in fulfilling the intent of Public Law 103-449, the 
responsibility given to us by the Congress, and the visions and goals 
of our Management Plan. It is our intent to be self-sustaining and not 
need federal funding by the year 2015.

  <bullet> Our Heritage Corridor has been diligent and has completed a 
        Management Plan, an Implementation and Action Plan, an 
        Interpretive Plan, a Ten-Year Plan that extended the vision of 
        the original management goals, and now a Sustainability Plan. 
        Those guiding documents were completed in a timely and 
        efficient manner, and have been truly useful documents.
  <bullet> We have shown a consistent ability to maximize scarce 
        resources by developing and fostering partnerships with 
        federal, state and municipal governments, and regional 
        corporate and private entities. We have acted as an educator 
        and facilitator to motivate other organizations to take 
        independent actions in line with our mission. When the Heritage 
        Corridor was the only or most appropriate entity, we have taken 
        action through specific projects or programs to do critical 
        work.
  <bullet> Our Heritage Corridor has received numerous state and 
        national awards recognizing the excellence of our work, 
        including the 2005 Public Education Award from the American 
        Planning Association for our Green Valley Institute.
  <bullet> We have consistently met and exceeded the required match on 
        our federal appropriation. The third page of my written 
        testimony includes an analysis of our funding and non-federal 
        leverage since 1996.** The cumulative ratio is $19 of match 
        from our partners for each federal dollar invested in the 
        Corridor.
---------------------------------------------------------------------------
    ** Chart has been retained in committee files.
---------------------------------------------------------------------------
  <bullet> Direct grants to more than 200 local projects have funded 
        work in trail development, historic preservation, economic 
        development, heritage tourism infrastructure, natural resource 
        conservation and community planning. The Sustainability Plan 
        offers many examples of these projects.
  <bullet> Hundreds of volunteers gave more than ten thousand hours of 
        service last year to our mission-related projects and programs, 
        and thousands of participants benefited from our FY06 education 
        programs.
  <bullet> According to our FY06 audit, 89% of the Heritage Corridor's 
        expenditures, regardless of source, go directly into 
        programming.

    Our communities and residents increasingly look to our Heritage 
Corridor as a source for guidance and assistance, and as an advocate 
for resource conservation in The Last Green Valley. We have developed 
credibility at the local, regional, state and federal levels. The need 
to continue the work to fulfill the mission will be present for several 
decades. That is why we adopted the Sustainability Plan last January 
and why we are committed to achieving its goals.
    There are two key elements to meeting those goals:

  <bullet> In order to maintain credible programming that will attract 
        significant, long-term, non-federal resources, it is critical 
        to retain the federal investment over the next eight years.
  <bullet> Reauthorization to 2015 would leverage significant, multi-
        year, non-federal commitments that are essential to our self-
        sustainability.

    Therefore, we respectfully request that the Quinebaug and Shetucket 
Rivers Valley National Heritage Corridor Reauthorization Act of 1994 be 
amended to extend the period of authorization from 2009 to 2015, and to 
extend the total appropriation from $10 million to $15 million, to 
coincide with our timetable to be self-sustaining by the year 2015. We 
also request that we retain the designation of ``National Heritage 
Corridor'' after authorization ceases, as our region will remain one of 
significant national resources.
    I thank Senators Dodd, Kennedy, Kerry and Lieberman for their 
support of our work and this amendment.
    I am pleased to answer any questions the Subcommittee may have. 
This concludes my prepared testimony.

    Senator Akaka. Thank you. Thank you very much, Ms. Cutler.
    I want to say thank you for all of your testimonies. I have 
a few questions here.
    Mayor Burke, you've testified on the broad local support 
for this wilderness designation. The Park Service has testified 
that these areas already are being managed as wilderness and 
that this bill will not change the on-the-ground management of 
the park. Why then is the formal designation as wilderness so 
important to the local community?
    Ms. Burke. Mr. Chairman, the reason that this is so 
important to the local community is, as I'm sure you 
understand, none of us lasts forever. So this is something that 
would be put into the public record and therefore would be a 
permanent management system for the Park Service. It is 
important for our local community because the park is our back 
yard and it is our way of making the tourist dollars that we 
need to survive.
    Senator Akaka. Thank you.
    Mr. Harmon, the National Park Service has testified that 
your company agreed in 1907 and again in 2000 to a stipulation 
that established a strict liability standard in return for the 
right of way and the stipulated water rights agreement. If this 
standard has been agreed to by your company, why is there a 
change needed now?
    Mr. Harmon. As we mentioned earlier, reading the record 
back in 1907, I don't believe that the company had any 
alternative to signing the agreement except to walk away from 
the ditch, and they had already invested considerable 
resources, including in the early days of the ditch the annual 
dues consisted of sending a man and two mules for the summer up 
to work on it. So it was a significant investment at that point 
in time.
    The question why does it need to be changed? We don't think 
it's patently fair to expect that we be responsible for 
expenses, costs, for damages to the resource which are not the 
result of our actions; they're created by acts of God and so 
on. We're simply looking for some relief there. We do believe 
we should be responsible if we cause damage to the park through 
our own negligence or through our own intentional acts. I can't 
imagine we'd do that. So we're not trying to avoid 
responsibility for our actions. But we think that the standard 
established back in 1907 was egregious.
    Senator Akaka. As I understand Senator Salazar's bill, the 
Grand River Ditch and 200 feet on either side are excluded from 
the wilderness. In that case, why should this liability issue 
be included as part of the bill, since the wilderness 
designation isn't affecting your operation?
    Mr. Harmon. We raised this issue because there has been a 
pattern of legislation and stipulation starting in 1907 which 
has gradually been accumulating on the ditch and around the 
ditch, and we're fearful that, even though we have a 200-foot 
exclusion on either side of the ditch, that there could be 
impacts to our operations from the ditch. So we thought the 
time was appropriate to raise our concerns.
    Senator Akaka. Thank you.
    Mr. Stoline, your testimony indicates that The American 
Legion supports expanding the discount to include those on 
active duty and in the reserve. In your opinion should it 
include members of the National Guard as well?
    Mr. Stoline. Yes, sir. The National Guard is a part of the 
reserve component, the Army Reserve, and we would include all 
of them as they are in active service.
    Senator Akaka. The bill would provide the discount to 
anyone who separated from military service, quote, ``under 
conditions other than dishonorable,'' unquote. Is this the 
appropriate standard or should it be limited to those with 
honorable discharges?
    Mr. Stoline. I don't know the genesis of that part of the 
legislation, but VA regulations, veterans who have that type of 
discharge, that is the way it's phrased in the VA regulations. 
I assume that's the intent and we would go along with that. 
Obviously, if a veteran has a less than honorable discharge 
they still have administrative review rights, so it may not be 
in fact a permanent bar.
    Senator Akaka. Thank you.
    Ms. Baker-Sullivan, earlier I asked the Park Service about 
the appropriateness of having a Federal commission composed 
partly of State commission members and then be able to make 
grants to the same commission. Since you are the Executive 
Director of one of the State commissions, can you help explain 
why it's appropriate for Federal funds to be used as grants for 
the State commissions?
    Ms. Baker-Sullivan. I would have to review that more 
carefully. I think I do have to review that more carefully. The 
grants are capped at $20,000 for commemorative commissions, and 
I could apply to local commissions, I believe. Some local 
entities are establishing their own commemorative commissions 
and nonprofits. So I don't know if that sheds a little bit of 
light on the thinking there. But I think the intent is 
certainly to support the local efforts, I believe, to enhance 
the commemoration.
    Senator Akaka. Thank you.
    Mr. Martin, I have one question about your bill. Earlier 
this year the committee began requiring other proposed heritage 
areas to conduct an evaluation 3 years before the end of the 
authorized funding period to assess whether the heritage area 
had been successful in meeting its original goals and have the 
Secretary review that evaluation. The Park Service has 
supported this new evaluation.
    Do you have concerns if a similar requirement is added to 
your bill?
    Mr. Martin. At this time, this is the first I've heard of 
it is today. As a businessman and volunteer, I believe we've 
got to be responsive to when the government steps forward and 
helps us establish an economic area, which that's the purpose I 
am here for, is looking at the economic interests of our area. 
I think it's critical that we have the ability to be able to 
come back and report to the government and to our 
representatives how good a job we did.
    I know my colleague here talked about sustainability. I 
think that's the purpose of this, to have sustainability over a 
long period of time. This is an economic engine that helps us 
get going. But at this time I would agree that that would be a 
wise way to proceed.
    Senator Akaka. Thank you.
    Ms. Cutler, my next question concerns S. 1182, the bill 
extending the authorization for the Quinebaug and Shetucket 
National Heritage Corridor. As I understand, the authority for 
this corridor was previously amended in 1999----
    Ms. Perkins Cutler. Correct.
    Senator Akaka  [continuing]. To give it the same 
authorization level as other heritage areas. Since Congress has 
already extended the authority and increased the 
appropriations, why is another increase necessary now?
    Ms. Perkins Cutler. We were authorized originally in 1994. 
We did not receive any funding until 1996. Between 1996 and 
2000 we received a total of $800,000. While we used the money 
very wisely, we were unable to produce huge impacts with that 
small amount of money.
    Extending our authorization on the forward end allows us to 
maintain the quality of the programs that we've established, 
which will in fact attract additional resources that we need to 
become self-sustaining.
    Senator Akaka. Finally, can you tell me how much of your 
current $10 million authorization is still available?
    Ms. Perkins Cutler. We have received through this year $6.2 
million in total from 1996 through Fiscal Year 2007.
    Senator Akaka. Thank you very much.
    Mr. Salazar, do you have any comments or questions?
    Senator Salazar. Thank you very much, Senator Akaka.
    First, Mr. Stoline, I appreciate your testimony here today 
and I'm proud to become a co-sponsor of your legislation, S. 
617, and we'll move forward with that.
    Mr. Stoline. Thank you, Senator.
    Senator Salazar. Also, to the entire panel, I want to thank 
you all for coming from your places to Washington and testify 
before our committee. I, in particular, want to thank Mayor 
Burke for her leadership. I know the beauty of Grand Lake. I 
know the beauty of Rocky Mountain National Park. You know it 
like the back of your hand. I appreciate the great advocacy 
that you, Grand County, Larimer County, Estes Park, and all the 
rest of the communities involved have brought to this issue.
    Dennis Harmon, to you and the Water Supply and Storage 
Company, and especially to those who have for generations, like 
Tom Moore and his family, stood with this ditch from the last 
century until--actually, 2 centuries ago--until now, I 
appreciate your working with us as we try to get to a 
resolution that addresses the concerns of the national park as 
well as the concerns of the ditch company. I look forward to 
concluding that agreement that you're working on in as rapid a 
fashion as we possibly can.
    Mr. Chairman, I would like to include for the record in 
support of Senate 1380 on the Rocky Mountain National Park 
letters that have been written in support, which include 
letters from the Wilderness Society, the Back Country Snow 
Sports Alliance, Biodiversity Conservation Alliance, the 
Central Colorado Wilderness Coalition, the Colorado 
Environmental Coalition, the Colorado Mountain Club, Colorado 
Wild, Southern Rockies Conservation Alliance, the Upper 
Arkansas and South Platte Project.
    I also would like to include for the record a letter from 
the Conservation Alliance in support of the legislation, and 
the League of Women Voters of Estes Park; letters also in 
support of the legislation from the Larimer County Board of 
County Commissioners, the International Mountain Bicycling 
Association, as well as a number of other letters that we'll 
submit for the record.
    I appreciate your patience and your support also for this 
legislation. I thank again the witnesses for coming here today.
    Senator Akaka. Thank you, Senator Salazar. All of those 
will be included in the record.
    I want to also add my thanks to the witnesses for 
testifying this afternoon. We appreciate your willingness to 
come all this way to Washington on fairly short notice. Some of 
the members of the committee who were not able to attend this 
afternoon may submit additional questions in writing, and if we 
receive any we'll forward them to you and ask you to respond, 
so that we may include both the questions and answers in the 
official hearing record.
    As I mentioned at the beginning of the hearing, I will be 
working with the minority members and the bill's sponsors to 
see if we can get these bills ready for full committee 
consideration as soon as possible. We will try to do that. 
Again, I want to thank all of you. This has been a great 
hearing. It will help us in making our decisions.
    Thank you very much. This subcommittee hearing is 
adjourned.
    [Whereupon, at 4:19 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

 Responses of Charlene Perkins Cutler to Questions From Senator Thomas
    Question 1. (S. 574, Quinebaug and Shetucket NHA Reauthorization): 
Ms. Cutler, you stated that your heritage area will be self-sustaining 
without any need for Federal funds in 2015. Have you always intended to 
become self-sustaining or is this a new approach to doing business?
    Answer. Senator Thomas, early on our Heritage Corridor anticipated 
becoming self-sufficient, and our planning documents bear that out. We 
were one of the earlier NHAs designated and received a smaller 
appropriation for the first five years ($200,000/year). In a region of 
nearly 1,100 square miles, it is understandable that under that level 
of funding our impacts were small. In the past five years we have 
accomplished significant work with the increased federal investment and 
been able to coalesce many partners and, most importantly, residents 
around our joint mission.
    In 2000, we wrote Vision 2010: A Ten-Year Plan, that expanded on 
the vision of our original management plan. The overall goal of that 
plan was ``to accomplish the mission of our National Heritage Corridor 
by perceiving and reflecting the priorities of residents and 
translating these into programs and services for the next ten years and 
beyond.'' That plan also foresaw the need to think past federal funding 
and stated that if the overall goal was to carry the work forward, an 
endowment or some other type of permanent fund would need to be 
established to generate income for the work.
    In preparation for that eventuality, our organization conducted a 
Fundraising Feasibility Study in 2002. That study recognized that there 
was no example of a National Heritage Corridor developing a permanent 
fund, and therefore, we were in uncharted waters. The document also 
recognized the rural nature of our region. It laid out a conservative 
and realistic plan to developing sustaining resources. Extrapolating 
out to our $10 million goal, we plan to have the fund capitalized in 
2015.
    Our experience has also shown us that there is a required critical 
mass of successful programming that must be attained in order to 
attract significant, non-federal resources. We feel that we have 
reached that threshold and will be able to begin a capital campaign to 
develop a permanent fund. However, in our National Heritage Corridor, 
that is very rural and has a relatively low population, we also know 
that we need the time to 2015 to be successful in accumulating the 
funds.
    In 2004, we began working on Trail to 2015, A Sustainability Plan. 
The permanent fund is one leg of our three-legged stool plan; the other 
two are for-profit activities and foundation support.
    With private funds, we have just hired a well-respected and very 
successful development professional to shepherd the organization 
through the next ten years to the point of self-sustainability. The 
only element left to be in place is continued authorization through 
2015 to maintain credible programming until other resources take over. 
We are committed to becoming self-sustaining and this is not a new idea 
for us.
    Question 2. (S.574, Quinebaug and Shetucket NHA Reauthorization): 
Do you think all National Heritage Areas should become self-sustaining 
and free of Federal Funding at some point?
    Answer. Every NHA is distinctive, although they all have 
commonality in resource protection, resource interpretation and 
economic development. If each NHA is truly grassroots in origin, that 
is, its focus is driven internally as opposed to externally, then there 
must be some point at which the stewards take complete ownership for 
the fulfillment of the mission. I think self-sustainability is 
inevitable if the work is to be carried forward to the next group of 
stewards--our children and grandchildren.
    Question 3. (S.574, Quinebaug and Shetucket NHA Reauthorization): 
What do you see as the Federal government's role in National Heritage 
Areas?
    Answer. I think the Federal government best serves National 
Heritage Areas by first recognizing regions of significant national 
resources, designating them as such, and providing seed money for the 
work the residents of that area determines is important. National 
Heritage Areas are impressive in their ability to put responsive 
programming in place very quickly. That ability is what attracts non-
federal match to the process.
    Many layers of federal requirements would seriously impede that 
process and put a damper on the ability of a NHA to become self-
sustaining. For example, if instead of appropriations funding was 
allocated as grants for particular projects, the accomplishments of 
heritage areas would be significantly less, and the time to put 
essential programs on the ground would become so slow that the programs 
would lose credibility with residents.
    Question 4. (S.574, Quinebaug and Shetucket NHA Reauthorization): 
What do you see as the best use of Federal funds that are made 
available to National Heritage Areas?
    Answer. The best use of Federal funds is to support necessary 
planning documents and invest in programming until a critical mass is 
reached that measures impacts, identifies work no other entity can do, 
and points the way to self-sustainability.
  Responses of Charlene Perkins Cutler to Questions From Senator Burr
    Question 1. Quinebaug and Shetucket National Heritage Area 
Reauthorization (S. 1182): S. 1182 would extend the termination date 
for Federal support for your Heritage Corridor another 6 years and 
increase the funding level an additional 5 million dollars. Are you 
prepared to be self-sufficient by October of 2015?
    Answer. Yes, we are committed to being self-sufficient and are 
actively pursuing that end.
    Question 2. Quinebaug and Shetucket National Heritage Area 
Reauthorization (S. 1182): Does your organization use any Federal funds 
for employee salaries, travel, or other administrative purposes?
    Answer. We do use Federal funds for salaries and mileage costs 
directly related to specific programs and projects within the 1,086-
square miles of our NHC. Administrative costs are paid with non-federal 
dollars. All of our expenditures of Federal funds are made with strict 
adherence to Federal Circulars A-110, A-122, and A-133, and under the 
close scrutiny of our auditor. For example, in FY2006, $788,230 was 
received in Federal funding and all of it was used to support program 
services. Administrative and fund raising costs were paid with private 
funds.
                                 ______
                                 
   Responses of Heather Baker-Sullivan to Questions From Senator Burr
    Question 1. Hudson Fulton Champlain Quadricentennial Commission (S. 
1148): Will the Hudson Fulton Champlain Quadricentennial Commission be 
responsible for any fundraising? If so, how much funds are they 
expected to raise for the Quadricentennial to be a success?
    Answer. The federal Commissions will be responsible for pursuing 
the drawdown of funds as specified in the legislation, and may 
additionally, seek funding from federal agencies for the Commemoration. 
They will not be raising funds, however, from the private sector or 
other sources. If the federal Commissions are successful at securing 
the appropriations as specified in the legislation, that alone will be 
extremely helpful and contribute greatly toward the success of the 
Commemoration.
    Question 2. Hudson Fulton Champlain Quadricentennial Commission (S. 
1148): How long do you expect the Hudson Fulton Champlain 
Quadricentennial Commission to exist?
    Answer. I expect the federal Commissions to exist through 2010.
    Question 3. Hudson Fulton Champlain Quadricentennial Commission (S. 
1148): Will any Federal funds be used to pay salaries, travel, per 
diem, or administrative services for the Hudson Fulton Champlain 
Quadricentennial Commission?
    Answer. No funding from the federal Commissions will be used to pay 
salaries, travel, per diem or administrative services for the Hudson 
Fulton Champlain Quadricentennial Commission (i.e. the New York State 
Commission). According to the legislation, some federal funds will be 
used to pay for staff and other administrative costs of the federal 
Commissions.
    Question 4. Hudson Fulton Champlain Quadricentennial Commission (S. 
1148): Will any Federal funds be used by the Hudson Fulton Champlain 
Quadricentennial Commission to acquire land or any interest in property 
in support of the Quadricentennial?
    Answer. No federal funds will be used to by the federal Commissions 
to acquire land or any interest in property in support of the 
Quadricentennial.
                                 ______
                                 
    [Responses to the following questions were not received at 
the time the hearing went to press:]

             Questions for Kate Stevenson From Senator Burr
    Question 1. Carl Sandburg National Historic Site Addition (S. 488/
H.R. 1100):

          a. Approximately how many people visit the Carl Sandburg 
        National Historic Site each year?
          b. How much land does the National Park Service plan to 
        acquire as a result of this legislation and what is the 
        estimated cost of the property?
          c. How many landowners are involved?
          d. How will the Carl Sandburg National Historic Site and the 
        American public benefit from the acquisition of this property?

    Question 2. Veterans Eagle Pass (S. 617):

          a. How much revenue do the Departments of the Interior and 
        Agriculture currently generate from sales of the America The 
        Beautiful Pass?
          b. Excluding the sales of annual passes, how much revenue do 
        the Departments of Interior and Agriculture generate annually 
        from entrance fees? Please provide a breakdown by bureau within 
        each department.
          c. How much revenue do the Departments of Interior and 
        Agriculture generate from visitor programs other than entrance 
        fees and annual passes (e.g., campgrounds, concessions, 
        lodging, etc.)? Please provide a breakdown by bureau within 
        each department.
          d. How much does it currently cost the Administration to 
        print and distribute each America the Beautiful Pass?
          e. How many veterans currently purchase the America the 
        Beautiful Pass?
          f. Which states currently allow active duty military 
        personnel and veterans to obtain a state or county parks' pass 
        at a reduced rate?

    Question 3. Disabled Veterans Memorial Extension (S. 824/H.R. 995):

          a. What is the role of the National Park Service in 
        establishing the Disabled Veterans Memorial?
          b. Has the site and design for the Disabled Veterans Memorial 
        been approved by the Commission on Fine Arts, the National 
        Capital Planning Commission, and the National Park Service?
          c. Approximately when will the organizers of the Disabled 
        Veterans Memorial have sufficient funds to begin construction?

    Question 4. Abraham Lincoln National Heritage Area (S. 955):

          a. When was the study for the Abraham Lincoln National 
        Heritage Area completed, who performed the study, and what were 
        the major findings of the study?
          b. Have members of the management entity for the Abraham 
        Lincoln National Heritage Area been informed that the 
        authorization for appropriations would be limited to 15 years? 
        Are they prepared to be self-sufficient after that time?

    Question 5. Champlain Quadricentennial Commission (S. 1148):

          a. The proposed Champlain Quadricentennial Commission would 
        be established to support the 400-year anniversary of Hudson's 
        exploration and the 200-year anniversary of Fulton's 
        development of commercially viable steam-powered travel. When 
        are the ceremonies scheduled to occur?
          b. How long will the commission remain in existence?

    Question 6. Quinebaug and Shetucket National Heritage Area 
Reauthorization (S. 1182):

          a. Which other National Heritage Areas are within 5 years of 
        their term of authorization or within one million dollars of 
        their funding limit?
          b. The number of National Heritage Areas has grown from zero 
        in the early 1980's to 37 in 29 states in 2007. The National 
        Park Service has one program manager and a staff assistant to 
        oversee the program. Does the Park Service have any plans to 
        add new personnel to the National Heritage Area office to keep 
        pace with this growth?

    Question 7. Rocky Mountain National Park Wilderness (S. 1380):

          a. Will S. 1380 result in any change in land use or land 
        management within Rocky Mountain National Park?
          b. Will the proposed wilderness designation change any 
        existing water rights?
          c. A breach in Grand Ditch occurred in 2003. What type of 
        damage occurred to Park property as a result of the breach and 
        what type of compensation has the National Park Service 
        received from the operators?

    Question 8. Kaloka-Honokohua Advisory Commission (S. 1728):

          a. Regarding S. 1728, how has the park benefited from the 
        services of the Advisory Commission?
          b. Has the Commission been instrumental in raising funds for 
        use toward park projects?
                                 ______
                                 
               Questions for Judy Burke From Senator Burr
    Question 1. Rocky Mountain National Park Wilderness (S. 1380): 
Mayor Burke, do you anticipate any change in land use, land management, 
or water rights as a result of S. 1380?
    Question 2. Rocky Mountain National Park Wilderness (S. 1380): Are 
you aware of any opposition to S. 1380 from your constituents or 
surrounding communities?
    Question 3. Rocky Mountain National Park Wilderness (S. 1380): How 
will surrounding communities benefit from the passage of S. 1380?
                                 ______
                                 
              Questions for Dean Stoline From Senator Burr
    Question 1. Veterans Eagle Pass (S. 617): Approximately how many 
veterans are under the age of 62?
    Question 2. Veterans Eagle Pass (S. 617): Critics of S. 671 have 
said that, as currently worded, the bill would allow individuals with a 
``Bad Conduct Discharge'' to receive the Veterans Eagle Pass. Is that 
correct?
    Question 3. Veterans Eagle Pass (S. 617): Are you aware of any 
states that allow veterans to obtain a state or county parks' pass at a 
reduced rate?
                                 ______
                                 
             Questions for Dennis Harmon From Senator Burr
    Question 1. Rocky Mountain National Park Wilderness (S. 1380): A 
breach in Grand River Ditch in 2003 damaged resources in Rocky Mountain 
National Park. What was the cause of that breach, what was the extent 
of the damage, and what steps have been taken to prevent future 
incidents of this type?
    Question 2. Rocky Mountain National Park Wilderness (S. 1380): S. 
1380 contains liability language specific to Grand Ditch. Why is the 
liability language necessary and how will it change your company's 
relationship with the National Park Service?
    Question 3. Rocky Mountain National Park Wilderness (S. 1380): Do 
you anticipate any change in land use, land management, or water rights 
as a result of S. 1380?
                                 ______
                                 
               Questions for Tom Martin From Senator Burr
    Question 1. Abraham Lincoln National Heritage Area (S. 955): The 
legislation authorizes the Abraham Lincoln National Heritage Area to 
receive support from the National Park Service for 15 years and the 
amount of Federal funding is limited to 10 million dollars. Are you 
aware of these limitations and is the management entity prepared to be 
self-sufficient after Federal support ceases?
    Question 2. Abraham Lincoln National Heritage Area (S. 955): How 
many people live within the boundary of the Abraham Lincoln National 
Heritage Area?
    Question 3. Abraham Lincoln National Heritage Area (S. 955): Have 
you received any opposition to Federal designation from people living 
within the boundary of the Abraham Lincoln National Heritage Area?
                                 ______
                                 
               Questions for Tom Moore From Senator Burr
    Question 1. Rocky Mountain National Park Wilderness (S. 1380): A 
breach in Grand River Ditch in 2003 damaged resources in Rocky Mountain 
National Park. What was the cause of that breach, what was the extent 
of the damage, and what steps have been taken to prevent future 
incidents of this type?
    Question 2. Rocky Mountain National Park Wilderness (S. 1380): S. 
1380 contains liability language specific to Grand Ditch. Why is the 
liability language necessary and how will it change your company's 
relationship with the National Park Service?
    Question 3. Rocky Mountain National Park Wilderness (S. 1380): Do 
you anticipate any change in land use, land management, or water rights 
as a result of S. 1380?
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

  The Wilderness Society; Backcountry Snowsports Alliance; 
      Biodiversity Conservation Alliance; Central Colorado 
   Wilderness Coalition; Colorado Environmental Coalition; 
   Colorado Mountain Club; Colorado Wild; Southern Rockies 
      Conservation Alliance; Upper Arkansas & South Platte 
                                                   Project.
                                                     July 11, 2007.
Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, United States 
        Senate, Washington, DC.
    Dear Chairman Bingaman: Thank you very much for the opportunity to 
comment on S. 1380, the proposed Rocky Mountain National Park 
Wilderness and Indian Peaks Wilderness Expansion Act, introduced by 
Senators Wayne Allard and Ken Salazar.
    We appreciate and endorse the senators' vision in introducing this 
important legislation, their diligent work in refining its details, and 
their diplomacy in gathering widespread support for it.
    We enthusiastically support this legislation and urge its prompt 
approval. We offer this support because the lands in question are so 
eminently qualified for inclusion in the National Wilderness 
Preservation System, both in their inherent untrammeled wonder and 
beauty and in the National Park Service's long-standing recommendation 
for their designation as wilderness.
    We offer this support also because of the extensive and diverse 
range of groups, governments, and individuals who cherish the national 
park and want its wilderness values protected forever. The wilderness 
proposal is endorsed by every town and county near the park, by every 
newspaper publishing near the park and in Colorado's capital, and by a 
surprisingly diverse array of citizen organizations that include 
environmental advocates, civic and service groups, recreation leaders, 
and businesses.
    The extent and diversity of this support is hardly surprising since 
the park and its preservation are of interest and value in so many 
different ways.
    Wilderness is the essence of Rocky Mountain National Park and the 
point of focus for every visitor's experience. Whether hiking deep in 
the park's untracked backcountry or viewing its peaks, cliffs, cirques, 
valleys, and meadows from the edge of Trail Ridge Road's pavement, each 
visitor comes to see, and is inspired by, the wilderness that seems to 
surround.
    Rocky Mountain National Park's wilderness is the central anchor of 
a long chain of complementing wildlands along the Great Continental 
Divide in Colorado, including Never Summer Wilderness to the west, 
Comanche Peak Wilderness to the north and east, Neota Wilderness to the 
northwest, and Indian Peaks Wilderness and James Peak Wilderness to the 
south.
    In a related component of the proposed legislation, the boundaries 
of that adjacent Indian Peaks Wilderness will be adjusted and expanded 
slightly in order to allow easier management and better protection of 
that area's values. This adjustment is an essential component of the 
wilderness proposal for Rocky Mountain National Park.
    Another important feature of this wilderness proposal, and another 
reason for its universal support, is that all details of potential 
conflict with the wilderness designation have been discussed and 
resolved. The natural flow of water in the park's streams is protected 
in a way that ensures continued water supplies to farms, towns, and 
homes downstream. The ability to reduce the threat of wildfire and to 
respond to fires when they do start is assured, especially near 
adjacent communities. All existing roads, trails, campgrounds, and 
buildings in the park will remain open for visitors' enjoyment and for 
safety. The economies of the park's gateway communities will endure, 
specifically because the wilderness designation will ensure that the 
features that draw visitors to the park--and, thus, to those 
communities--are preserved for all time.
    We understand that one issue related to this legislation remains 
outstanding--the resolution of continued access and activities related 
to certain water conveyance facilities in the national park. It is very 
important the negotiations over these provisions not delay action on 
the essential feature of the legislation--the wilderness designations. 
It also is important that any language included in the final 
legislation related to these facilities not compromise the effect or 
enforceability of those wilderness designations or of The Wilderness 
Act.
    This park and its wildlands are treasures to all who visit the park 
or who even know about it. Their formal protection as wilderness will 
honor the stewardship of the past, recognize support of the present, 
and pass on an unparalleled legacy to the future.
    Thank you again for your careful review of this legislation and of 
the remarkable place that is its object. Please join us in recommending 
prompt approval of the wilderness designation.
            Sincerely,
                    Steve, Smith, Assistant Regional Director, Central 
                            Rockies Region; Clare Bastable, 
                            Conservation Director, Colorado Mountain 
                            Club (8,000 members in Colorado); Erik 
                            Molvar, Executive Director, Biodiversity 
                            Conservation Alliance; Ryan Demmy Bidwell, 
                            Executive Director, Colorado Wild (600 
                            members in Colorado); John Stansfield, 
                            Coordinator, Central Colorado Wilderness 
                            Coalition (225 members in Colorado); 
                            Michelle Zimmerman, Executive Director, 
                            Southern Rockies Ecosystem Project (100 
                            members in Colorado); Brian Holcombe, 
                            Executive Director, Backcountry Snowsports 
                            Alliance (500 members in Colorado); Michael 
                            Rogers, Executive Director, Upper Arkansas 
                            & South Platte Project (400 members in 
                            Colorado); Elise Jones, Executive Director, 
                            Colorado Environmental Coalition (4,200 
                            individual members in Colorado; 95 
                            organizations, total 15,000 members).
                                 ______
                                 
                                 The Conservation Alliance,
                                           Bend, OR, July 10, 2007.
Hon. Ken Salazar,
US Senate, 702 Hart Senate Office Building, Washington, DC.

Hon. Wayne Allard,
US Senate, 521 Dirksen Senate Office Building, Washington, DC.
    Dear Senators Salazar and Allard: On behalf of the 140 members of 
the Outdoor Industry Conservation Alliance, we want to thank you for 
working together to secure wilderness designation for Rocky Mountain 
National Park's backcountry. We represent outdoor businesses and retail 
stores based in Colorado.
    The outdoor industry and our member companies rely on protected 
public lands as destinations for our customers to use the products they 
make and sell. Because wilderness designation preserves federal lands 
for non-motorized uses, such designations directly benefit businesses 
that make clothing and gear for active use in the outdoors. They are 
essential to our growing $33 billion industry.
    Few places are as worthy of wilderness designation as the wild 
backcountry areas of Rocky Mountain National Park. This icon of our 
national park system is a world class destination for backpackers, 
mountaineers, climbers, anglers, skiers, wildlife viewers and other 
outdoor enthusiasts. Wilderness protection for the park will ensure 
that these pristine areas maintain their wilderness qualities, and 
remain attractive destinations for outdoor customers. As motorized 
recreation continues its rise in popularity, it is important that we 
preserve places like Rocky Mountain National Park for their wilderness 
values.
    We are encouraged by your efforts to bring all stakeholders 
together on this proposal. Rarely does wilderness enjoy the broad 
support of gateway communities, elected officials, conservation 
organizations, businesses, sportsmen, and recreation groups. We applaud 
your efforts, and hope you will continue to work constructively to pass 
legislation this year.
    Thank you for considering our thoughts.
            Sincerely,
                    Paul Gagner, President, Sierra Designs, Louisville, 
                            CO; Casey Sheahan, CEO, Patagonia, Inc., 
                            Denver, CO (retail store), Ventura, CA 
                            (headquarters); Kenny Ballard, President, 
                            Kelty, Inc. Boulder, CO; Gareth Martins, 
                            Osprey Packs, Cortez, CO; Dave Knutson, 
                            Chaco, Inc. Paonia, CO; Len Zanni, Big 
                            Agnes, Steamboat Springs, CO; Patricia 
                            Smith, On Target Public Relations, Denver, 
                            CO; Jeffrey Mazer, Mazer Advisors, Boulder, 
                            CO; Kristin Carpenter-Ogden, Owner, Verde 
                            PR, Durango, CO; Mark Bryden, President, 
                            Smartwool, Steamboat Springs, CO; Paige 
                            Boucher, Mountain Hardwear, Steamboat 
                            Springs, CO; Frank Hugelmeyer, Outdoor 
                            Industry Association, Boulder, CO; Rodney 
                            Smith, President, Backpacker's Pantry, 
                            Boulder, CO; Greg Thomsen, President, 
                            Mountainsmith, Golden, CO; Keith Reis, 
                            Sanitas Sales Group, Boulder, CO; Michael 
                            Brown, President, Serac Adventure Films, 
                            Boulder, CO; Joe Hoey, Boulder Incentives, 
                            Erie, CO; John Sterling, Executive 
                            Director, Outdoor Industry Conservation 
                            Alliance, Bend, OR; Kim Coupounas, GoLite, 
                            Boulder, CO.
                                 ______
                                 
              International Mountain Bicycling Association,
                                         Boulder, CO, July 9, 2007.
Hon. Daniel Akaka,
Chairman, Senate Energy and Natural Resources, Subcommittee on National 
        Parks, Washington, DC.

Hon. Lisa Murkowski,
Ranking Memmber, Senate Energy and Natural Resources, Subcommittee on 
        National Parks, Washington, DC.
    Dear Chairman Akaka and Ranking Member Murkowski: On behalf of the 
International Mountain Bicycling Association (IMBA) and our member 
Colorado bicycle clubs, I thank you for the opportunity to submit 
testimony in support of S. 1380, the Rocky Mountain National Park 
Wilderness Act.
    IMBA was founded in 1988 and leads the national and worldwide 
mountain bicycling communities through a network of 80,000 individual 
supporters and 750 affiliated clubs. More than 39 million Americans 
participated in singletrack bicycling and 7.6 million were 
``enthusiasts'' of the sport in 2004, according to the Outdoor Industry 
Association.
    IMBA teaches sustainable trailbuilding techniques and has become a 
leader in trail design, construction, and maintenance. We promote 
responsible riding, volunteer trail work and cooperation among trail 
user groups and land managers. IMBA members and affiliated clubs 
perform close to one million hours of volunteer trail work and advocacy 
annually, and are outstanding partners for federal, state and local 
land managers.
    IMBA has formal partnership agreements with the USDA Forest 
Service, Bureau of Land Management and US Army Corps of Engineers. Just 
last year, we signed an official agreement with the National Park 
Service (NP S) to develop more mountain biking opportunities at NPS 
units across the country. Currently more than 40 national parks have 
mountain biking on dirt roads and trails.
    In Colorado, IMBA has approximately 10,000 supporters through our 
2,500 individual members and 50 affiliated bike clubs. More than 30 
bicycle retailers are also affiliated with IMBA. Colorado is a hub of 
the bicycle industry, with leaders such as Pearl Izumi, Catalyst 
Communications, Yeti Bicycles, Moots Bicycles, Bicycle Village, 
Criterion Cycles, Koobi Saddles, SRAM/Rock Shox, USA Cycling, Colorado 
Cyclist, Peak Bar, Carmichael Training Systems, Velo News, and many 
others residing in the state.
    Bicycling is a billion-dollar industry in the state, according to 
the Colorado Department of Transportation. Thousands of tourists travel 
to Colorado each year to ride their mountain bikes and experience 
trails that have become world famous. Tourists flock to Durango, 
Crested Butte, Telluride, Steamboat Springs, Fruita, Grand Junction and 
many other Colorado communities to explore the outdoors by bicycle. 
Colorado tourism communities take trail access seriously, as they know 
that cyclists spend money on lodging, gas, restaurants, and in local 
stores. In 2004, Colorado ranked sixth in the nation for singletrack 
bicycling participants, with 22 percent of the population--730,940 
people--involved in the sport (Outdoor Industry Association).
    As you know, federal agency interpretation of the 1964 Wilderness 
Act bans bicycle access. Every time a congressional Wilderness bill is 
proposed, cyclists risk losing access to trails they have ridden for 
years. Further, they lose the potential to build new trails or expand 
bicycling access in these lands in perpetuity. IMBA members take 
Wilderness bills very seriously and want to be at the table to help 
craft land protection legislation. For this reason, bicyclists seek 
modifications of Wilderness proposals that will protect the land while 
continuing to allow this quiet, low-impact, muscle-powered recreation 
on existing trails. When conflict exists, IMBA suggests boundary 
adjustments, non-Wilderness trail corridors, grandfathering in our 
existing use, or other land protections such as National Protection 
Areas or National Conservation areas.
    Senator Salazar has been very inclusive of IMBA and mountain 
bicyclists in the discussions of the proposed Wilderness boundaries, as 
has Congressman Udall in the House. We are pleased that the bill 
includes a boundary that allows for the possible inclusion of bicycles 
on the East Shore Trail. This trail will provide a critical connector 
for the Headwaters Trail Alliance (HTA) in their master trails plan to 
connect Grand County with 70 miles of shared-use, non-motorized trails. 
The Granby to Grand Lake trail is the next leg of their master plan and 
the best alignment is on the western edge of Rocky Mountain National 
Park, which provide spectacular views of Grand Lake, Shadow Mountain 
Reservoir, and Lake Granby. This trail will be a beautiful community 
amenity allowing non-motorized trail users to travel near the shore. We 
are confident that the East Shore Trail will be a draw for trails-based 
tourism and give families, community members and tourists a resource 
that will be highly valued for many years to come.
    There are 359 miles of dirt trails open to hikers in the National 
Park but only paved roads open to cyclists. These paved roads have very 
narrow shoulders and park officials encourage cycling early in the 
morning to avoid conflict with vehicles. IMBA encourages the committee 
to do more to get visitors out of their cars and experience the park by 
bicycle. The 16-20 mile East Shore Trail would do just that and only 
remove about 500 acres of land from the approximately 250,000 acre 
proposal.
    In 1974, the National Park Service determined many of these areas 
to be appropriate for Wilderness and classified them as Wilderness 
Study Areas (WSA). NPS management will not allow the consideration of 
bicycles in these areas until Congress acts to decide the fate of these 
lands. Enacting S. 1380 would allow the community and the federal land 
agencies to begin the environmental process to consider opening the 
East Shore Trail to bicycles. We look forward to working with the 
National Park Service and the USDA Forest Service on starting this 
process.
    Thank you for the opportunity to submit comments on this important 
legislation. IMBA looks forward to working with the committee and 
Senator Salazar and urges your favorable consideration.
            Sincerely,
                                                 Jenn Dice,
                                       Government Affairs Director.
                                 ______
                                 
            The Disabled Veterans LIFE Memorial Foundation.

    Mr. Chairman and Members of the Committee: It is my distinct honor 
to again testify in support of The Americans Disabled For LIFE 
Memorial, to be constructed a short distance away for the United States 
Capitol building. I am Lois Pope, the Co-founder of the Disabled 
Veterans' LIFE Memorial Foundation, an organization created by an Act 
of Congress in 2000 (Public Law 106-348) and tasked with establishing a 
national memorial honoring veterans who became disabled while serving 
in the Armed Forces of the United States. The Memorial will celebrate 
these men and women who may be broken in body--but never in spirit.
    I ask that my prior testimony on October 26, 1999 before the United 
States House of Representatives, Committee on Resources, Subcommittee 
on National Parks and Public Lands and Statement of May 25, 2006 be 
entered in the record.
    Since my prior testimony, The Disabled Veterans LIFE Memorial 
Foundation has made tremendous progress in fulfilling mission: in late 
2006, the Memorial site was approved and the Memorial design concept 
was unanimously approved by the National Capital Planning Commission 
and Commission on Fine Arts. Further, the Foundation has secured 
funding and commitments totaling over two-thirds of the construction 
costs. We are planning to break ground on Veterans' Day 2008 and 
formally dedicate the Memorial to all Americans on Veterans' Day 2010. 
And sadly, since my last testimony, the constituency we honor--men and 
women disabled in service to their country--has increased by over 
25,000.
    The Disabled Veterans' LIFE Memorial Foundation urges the Committee 
to approve the extended authorization. We further urge the full Senate 
to join the House of Representatives in prompt passage of H.R. 995/
S.824. This bill is critical for completion of our fundraising 
initiatives and to build the Memorial in Washington, DC.

                                                 Lois Pope,
                                                        Co-founder.
                                 ______
                                 
                      League of Women Voters of Estes Park,
                                     Estes Park, CO, July 11, 2007.
Hon. Ken Salazar,
702 Hart Senate Office Building, Washington, DC.
    Dear Senator Salazar: The League of Women Voters of Estes Park 
thanks you for initiating the Rocky Mountain Wilderness and Indian 
Peaks Wilderness Expansion Act (S1380) that will designate 
approximately 250,000 acres of Rocky Mountain National Park's back 
country area as wilderness.
    Preserving and protecting Rocky Mountain National Park as a 
wilderness area for future generations is of great importance, not only 
aesthetically, but also economically for all Coloradoans. Visitors from 
all over the United States and from countries throughout the world are 
drawn to the timeless, pristine beauty of RMNP. Their willingness to 
travel to Colorado to see this wonder and beauty contributes greatly to 
the economy and welfare of our state. We, the League of Women Voters of 
Estes Park, appreciate your support in seeking this important 
protection for our treasured resource. However, The League of Women 
Voters of Estes Park does not support any action that would lessen the 
protection of Rocky Mountain National Park.
    In 1974 President Nixon recommended to Congress that Rocky Mountain 
National Park be given a wilderness designation. Since that time, the 
backcountry of Rocky Mountain National Park has been administered as a 
wilderness area. To ensure that the backcountry will be protected 
forever from man-made intrusions that detract from the spectacular 
beauty and wildness of the Park, immediate wilderness legislation for 
the Park is essential.
    Now is the time to pass a wilderness bill for Rocky Mountain 
National Park. During 2005, the gateway communities of Estes Park and 
Grand Lake, and the Larimer County Commissioners passed resolutions 
supporting the wilderness status of Rocky Mountain National Park. On 
March 9, 2006, legislation was reintroduced that would protect 
permanently about 95% of Rocky Mountain National Park (its backcountry) 
from development. Your Senate bill, SB 1380, would ensure that the 
Park's beautiful vistas, its many hiking trails and wildlife habitat 
would be preserved for its 3 million annual visitors and for the 
enjoyment and appreciation of generations to come.
    After 32 years it is time for official wilderness designation for 
Rocky Mountain National Park to become a reality.
    Thank you for your attention.
            Sincerely,
                                          Susan T. Pinkham,
                                                         President.
                                 ______
                                 
                                    Larimer County,
                             Board of County Commissioners,
                                   Fort Collins, CO, July 11, 2007.
Hon. Ken Salazar,
702 Hart Senate Office Building, Washington, DC.
    Dear Senator Salazar: We are contacting you to voice our unanimous 
support for the wilderness designation of nearly 250,000 acres of Rocky 
Mountain National Park. On July 12, 2006 the Larimer County Board of 
County Commissioners adopted a resolution in support of the designation 
legislation sponsored by Representative Udall and Senator Salazar.
    This legislation will provide important protection and management 
direction for some truly remarkable country in Larimer County, while 
the proposed boundaries will assure continued access for use of 
existing roadways, buildings and developed areas. As proposed we 
support the appropriate provisions to address the East Shore Trail in 
Grand County and the proposal for the 1/4 mile buffer surrounding the 
Town of Grand Lake.
    The designation has been in works since President Nixon first 
proposed the designation in 1974. We are looking forward to this 
protection becoming a reality for this important national gem. Rocky 
Mountain National Park is an important part of Larimer County and this 
legislation will protect some of the finest wild land in the nation, 
while protecting existing rights.
    The Larimer County board of County Commissioners asks that you 
support this bill and allow this important step to become a reality.
                                         Kathay C. Rennels,
                                                 Chair, District I,
                                           Glenn W. Gibson,
                                        Commissioner, District III.
                                 ______
                                 
       Statement of Mike Matz, Executive Director, Campaign for 
                          America's Wilderness
    The Campaign for America's Wilderness applauds the leadership and 
commitment of Sens. Ken Salazar (D-CO) and Wayne Allard (R-CO) and 
Reps. Mark Udall (D-CO) and Marilyn Musgrave (R-CO) in working with 
local stakeholders and national organizations to craft a proposal that 
will forever protect the wildlands of Rocky Mountain National Park. 
This legislation is long overdue.
    Rocky Mountain National Park was established in 1915 and, in 1974, 
President Richard Nixon recommended 239,835 park acres for wilderness 
designation. The area has been managed as wilderness since the 1960's. 
But this protection is merely an administrative protection, guided by 
paper not law.
    The Rocky Mountain National Park Wilderness and Indian Peaks 
Wilderness Expansion Act (S. 1380) would formally designate nearly 
250,000 acres of the park as wilderness, providing permanent protection 
to the park's natural resources, providing consistent park management 
procedures, and preserving opportunities for scientific study.
    By protecting the landscape in perpetuity, the bill would also help 
sustain recreation and tourism opportunities, ensuring the continued 
economic vitality of gateway communities. In fact, surrounding 
communities and local officials have been a key part of the 
collaborative process that was undertaken to shape an agreement that 
eventually resulted in S. 1380. They are keenly aware of the local 
revenue that the park's wildlife, wilderness and recreation generate, 
and that ensuring its resources, scenic vistas, and recreation 
opportunities are sustainable for generations to come makes good 
business sense.
    Other stakeholders include: the Larimer County Board of County 
Commissioners, Boulder County Board of County Commissioners, Town of 
Winter Park, Town of Estes Park, Town of Grand Lake, Colorado Trout 
Unlimited, Colorado Wildlife Federation, League of Women Voters of 
Estes Park, International Mountain Bicycling Association, Headwaters 
Trails Alliance, Colorado Mountain Club--Shining Mountains Group (Estes 
Park), Colorado Mountain Club--Fort Collins Group, Colorado Wilderness 
Network, Southern Rockies Conservation Alliance.
    The congressional sponsors worked diligently with stakeholders and 
communities to address their various concerns. The Campaign for 
America's Wilderness recognizes and appreciates these efforts. 
Nevertheless, there are sections of the bill we hope can be improved to 
better protect the park land and integrity of the Wilderness Act, while 
still addressing valid concerns of stakeholders.
    In particular, we would like to see Section 4(e)(5)(A) language 
modified such that any existing activities relating to the monitoring, 
operation, maintenance, repair or use of the Colorado-Big Thompson 
Project tunnel and all other facilities be conducted only under the 
surface of the proposed wilderness area.
    Section 4(e)(4), relating to the Grand River Ditch, is another 
provision we would like to see improved. We believe the proposed strict 
liability agreement between the ditch company and the National Park 
Service goes too far to absolve the company of liability responsibility 
for response costs or any damages to or loss of park resources. We 
recognize and appreciate that the Grand River Ditch existed prior to 
the establishment of the park. However, we seek a balance more in line 
with the Park System Resources Protection Act (16 USC 19(j)(j)), so 
that park resources and interdependent wilderness ecosystems are not 
inadvertently harmed.
    The beauty of Rocky Mountain National Park is unsurpassed in the 
intermountain state region. It offers soaring mountain peaks, beautiful 
fall colors, scenic meadows and streams, and wildlife at every turn. 
Lasting protection for these places, so that they remain as enjoyable 
and as inviting to future generations as they are today, is crucial. 
With slight improvements, we feel S. 1380 will achieve this lasting 
protection. We look forward to continue working with the Colorado 
delegation to improve this bill and move it through the legislative 
process.
                                 ______
                                 
      Statement of John Gilroy, Associate Director, Campaign for 
                          America's Wilderness
    The Campaign for America's Wilderness applauds the hard work and 
collaboration that has gone into the creation of the Rocky Mountain 
National Park Wilderness and Indian Peaks Wilderness Expansion Act (S. 
1380). The development of this legislation was a years-long process 
between the congressional sponsors, the scores of hikers, anglers and 
other recreational users, and many local communities and businesses. 
Permanently protecting nearly 250,000 acres of pristine backcountry in 
Rocky Mountain National Park is a worthy gift for future generations, 
and engaging the broad and diverse groups who use and appreciate the 
wild places in the Rocky Mountains is the key to long-term success. 
Passage of S.1380 will ensure economic sustainability for local 
communities and will guarantee that the park will be as beautiful and 
inviting to future generations as it is today.
    However, we hope to work with the sponsors and the Committee to 
improve specific parts of the legislation to better protect the park 
land and the integrity of the Wilderness Act, while still addressing 
the valid concerns of stakeholders. Language affecting the Colorado-Big 
Thompson tunnel should be modified to only permit activities under the 
surface of the proposed wilderness area, and the legislation should be 
modified to include a more balanced liability agreement between the 
ditch company and the National Park Service in the event of damages to 
or loss of park resources.
    The initiative to protect this special place began in 1974 when 
President Nixon formally recommended designating Rocky Mountain 
National Park as wilderness. With slight improvements to this 
legislation, we hope to finally see this American treasure protected 
for all time.
    The Campaign for America's Wilderness works to protect the nation's 
last great wild places for future generations.

                                    

      

</pre></body></html>
